<html>
<title> - THE STATE OF THE U.S. TRAVEL AND TOURISM INDUSTRY</title>
<body><pre>[Senate Hearing 109-1134]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1134
 
                     THE STATE OF THE U.S. TRAVEL 
                          AND TOURISM INDUSTRY

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON TRADE, TOURISM, AND ECONOMIC DEVELOPMENT

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
66-404                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

        SUBCOMMITTEE ON TRADE, TOURISM, AND ECONOMIC DEVELOPMENT

                   GORDON H. SMITH, Oregon, Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota, 
JOHN McCAIN, Arizona                     Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JOHN ENSIGN, Nevada                  JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
JOHN E. SUNUNU, New Hampshire        JOHN F. KERRY, Massachusetts
JIM DeMINT, South Carolina           MARIA CANTWELL, Washington
DAVID VITTER, Louisiana              FRANK R. LAUTENBERG, New Jersey
                                     BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 22, 2006....................................     1
Statement of Senator Dorgan......................................     2
Statement of Senator Inouye......................................     3
    Prepared statement...........................................     3
Statement of Senator Smith.......................................     1

                               Witnesses

Davidson, Todd, Executive Director, Oregon Tourism Commission; 
  Chairman, National Council of State Tourism Directors; Past-
  Chair, Western States Tourism Policy Council...................    46
    Prepared statement...........................................    48
Jacksta, Robert M., Executive Director, Traveler Security and 
  Facilitation, Office of Field Operations, U.S. Customs and 
  Border Protection, Department of Homeland Security.............    16
    Prepared statement...........................................    18
Lavin, Hon. Franklin L., Under Secretary for International Trade, 
  U.S. Department of Commerce....................................     4
    Prepared statement...........................................     6
LeDuc, James W., Ph.D., Coordinator for Influenza, Centers for 
  Disease Control and Prevention, Department of Health and Human 
  Services.......................................................    20
    Prepared statement...........................................    22
Nesbitt, Hon. Wanda L., Principal Deputy Assistant Secretary, 
  Bureau of Consular Affairs, Department of State................    10
    Prepared statement...........................................    12
Pressler, Virginia ``Ginny'', M.D., MBA, FACS, Senior Vice 
  President, Strategic Business Development, Hawaii Pacific 
  Health.........................................................    53
    Prepared statement...........................................    55
    Letter, dated June 16, 2006, to Dr. Virginia Pressler, M.D., 
      Senior Vice President, Strategic Business Development, 
      Hawaii Pacific Health from Robert W. Schulz, M.D., Plastic 
      Surgeon, Straub Clinic & Hospital..........................    56
Rasulo, Jay, Chairman, Walt Disney Parks and Resorts; Chairman, 
  Travel Industry Association; Chairman, U.S. Travel and Tourism 
  Advisory Board.................................................    31
    Prepared statement...........................................    33
Tisch, Jonathan M., Chairman, Travel Business Roundtable; 
  Chairman/CEO, Loews Hotels.....................................    34
    Prepared statement...........................................    37

                                Appendix

Bray, Charles W., President/CEO, International Association of 
  Amusement Parks and Attractions, prepared statement............    59
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Robert M. Jacksta............................................    86
    Hon. Franklin L. Lavin.......................................    64
    James W. LeDuc, Ph.D.........................................    74
    Hon. Wanda L. Nesbitt........................................    69
    Virginia ``Ginny'' Pressler, M.D., MBA, FACS.................    85
    Jay Rasulo...................................................    79
    Jonathan M. Tisch............................................    87
Response to written questions submitted by Hon. Gordon H. Smith 
  to:
    Todd Davidson................................................    83
    Hon. Franklin L. Lavin.......................................    63
    Hon. Wanda L. Nesbitt........................................    66
    Jay Rasulo...................................................    77
    Jonathan M. Tisch............................................    81


                     THE STATE OF THE U.S. TRAVEL 
                          AND TOURISM INDUSTRY

                              ----------                              


                        THURSDAY, JUNE 22, 2006

                               U.S. Senate,
      Subcommittee on Trade, Tourism, and Economic 
                                       Development,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Gordon H. 
Smith, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Ladies and gentlemen, Senator Dorgan and I 
and the Co-Chairman, Senator Inouye, welcome you all here. We 
call this hearing to order.
    This is the Subcommittee on Trade, Tourism, and Economic 
Development. Today's hearing will examine the state of the U.S. 
travel and tourism industry and potential barriers that may 
affect America's competitiveness.
    I want to thank all of our witnesses for rearranging their 
schedules to appear before the Subcommittee. I especially want 
to welcome Todd Davidson, from the Oregon Tourism Commission, 
for taking the time to be here today. We thank you very much.
    Travel and tourism has become one of the world's most 
important sources of employment. It stimulates enormous 
investment in infrastructure and provides governments with 
substantial tax revenues. Most recent statistics show that 
travel and tourism is one of the United States largest 
employers, with 7.3 million jobs and a payroll of $163 billion. 
Travel expenditures reached nearly $600 billion and generated 
almost $100 billion in tax revenues for local, State, and 
Federal Governments last year.
    In my State of Oregon, travel and tourism is the number one 
contributor to the gross state product and ranked among the top 
three industries of Oregon, employing over 89,000 of my fellow 
Oregonians.
    Travel and tourism is firmly established as the number one 
industry in many countries and the fastest growing economic 
sector in terms of foreign exchange earnings and job creation. 
In fact, many new tourism jobs and businesses are created in 
small communities and often help those living in small 
communities to be able to remain in those small communities. 
But, despite its robust economic performance, tourism's 
contribution to the prosperity of American life has not been 
fully realized or taken advantage of as a powerful driver of 
jobs, community development, small business growth, and 
generator of export income. As the world is traveling in record 
numbers, the United States has not taken full advantage of this 
potential.
    I'm concerned to hear that the U.S. has now fallen behind 
France and Spain as only the third most popular travel 
destination in the world, and may soon slip behind China. As we 
focus on the development of a coordinated national travel and 
tourism campaign, we must also review some of our burdens and 
policies which may prevent international travel to the U.S. Our 
international visitors need to know that America has secure 
borders, but also open doors.
    Again, we welcome you. And, Senator Dorgan, your comments?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. And I 
think this is a very important hearing to hold.
    I really think it's time for us to rethink what we're doing 
in this country with respect to travel and tourism. The tourism 
industry is a very important industry. You described the jobs 
and the contribution to the country's economy. But that 
industry now labors under the shadow of 9/11, with all of the 
resulting issues that have attended post-9/11 policies and 
concerns here in this country.
    I've spent a fair amount of time recently working on the 
issue of cross-border travel with Canada. How difficult will we 
make it for routine cross-border travel between the U.S. and 
Canada? We have 70 million people that come south every year, 
and the proposition of ``maybe they all ought to have a 
passport'' was a proposition that I know will dramatically 
reduce the cross-border travel for tourism and for commerce. 
So, I mean, that's just one part of this. I've been working 
with the State Department, the Commerce Department, and 
Homeland Security, on those issues.
    But I think, given what is happening in the world, given 
the fact that we know America, at this point, is not very well 
thought of in much of the world, there is concern about our 
country and its policies, and some anger, and so on, I think we 
should, at this point, consider what kind of--what kind of 
impact a different kind of public policy might produce. We need 
a public-sector/private-sector new partnership to promote 
travel and tourism. You know, we appropriated, I think, $6 
million to have some--a campaign to market the United States as 
a travel destination. That's a tiny drop out of a small faucet. 
And I think the opportunity, one, to entice foreign visitors to 
come to this country as a destination, and, two, at the same 
time to describe this country in very positive ways at a time 
when we need that description across the world, I think, should 
cause us to reevaluate what we have done in the past and what 
we're doing now. There was a time when we had a department and 
a full-blown campaign in the public-sector, saying, ``This is, 
in significant ways, our responsibility, as well.'' I don't 
think it is solely our responsibility, but I would like to see 
us engage now in a new approach with the private sector in a 
public-/private-sector partnership with an entirely new 
campaign and a new approach and new resources. I know it's hard 
to find those new resources, but one of the things that's very 
important is what the rest of the world thinks of this country. 
I can't think of a better way to address some of that than 
through the right type of advertising, internationally, about 
the United States, its advantages, its wonders, and its ability 
to serve as a wonderful travel destination once again.
    So, I'm really pleased you've called this hearing. You've 
got some great witnesses. I have, down on the third floor, just 
below us, an Energy hearing going on at exactly the same time, 
so I won't hear all of the witnesses, but I'm anxious to work 
with you and see if we can't develop a fresh approach and a new 
direction with respect to these issues.
    Mr. Chairman, thank you very much.
    Senator Smith. Thanks, Senator Dorgan.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. First, congratulations on scheduling this 
hearing. And after listening to the profound remarks of my 
colleague, Senator Dorgan, I'd just like to add this. I'd like 
to welcome the witness from Hawaii--she's on the second panel--
Dr. Pressler. But the remarks of our colleague, I think, makes 
good sense. The time has come for reappraisal.
    And, with that, may I ask that my statement be made part of 
the record?
    Senator Smith. Without objection. It'll be included.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to take this opportunity to welcome our witnesses, and 
in particular, Dr. Virginia Pressler of Hawaii, who will share with 
this committee her unique perspective on tourism and healthcare.
    Travel and tourism is an essential industry not only for my state 
but also for the Nation. Travel and tourism is this country's second 
largest services export industry and its third largest retail sales 
industry, generating a $4 billion balance of trade surplus.
    While the travel and tourism industry has shown resilience since 
the terrorist attacks of September 11, America has become a less 
desirable destination for international travelers. According to the 
U.S. Department of Commerce, in 1992, the U.S. attracted 9.4 percent of 
all international tourist arrivals from around the world. In 2004, the 
U.S. attracted only 6 percent of total international arrivals. 
Accordingly, our trade surplus related to tourism was $22.2 billion in 
1992, but only $4 billion today.
    The tourism industry provides a tremendous economic benefit to our 
Nation, and like all industries, we must make necessary capital 
investments to stay competitive. In fact, prior to 1997, the Federal 
Government made capital investments in tourism through coordinated 
advertising to international markets, and we held our own against the 
world in attracting international visitors. However, the decline in 
international visits began in 1997 when the U.S. stopped providing 
funds for international advertising. The Federal Government reinstated 
funding for international advertising in 2003, but we have a long way 
to go to recover the lost market.
    Another essential component is to ensure our borders are protected 
for both Americans and visitors, but we must secure our borders in a 
manner that still allows our international friends to feel welcome. 
Many in the travel and tourism industry have expressed concerns with 
the ongoing efforts of the Department of Homeland Security and the 
Department of State to improve border security. I look forward to 
hearing from the witnesses about how to balance these important goals.

    Senator Smith. So, we'll turn now to our first panel. We're 
pleased to be joined by the Honorable Frank Lavin, Under 
Secretary for International Trade, U.S. Department of Commerce. 
Welcome, Mr. Secretary. And Ambassador Wanda Nesbitt, Principal 
Deputy Assistant Secretary, the Bureau of Consular Affairs, the 
U.S. Department of State, welcome. And Mr. Robert Jacksta, who 
is the Executive Director of the Traveler Security and 
Facilitation, the Office of Field Operations, U.S. Customs and 
Border Protection. And Dr. James LeDuc, Influenza Coordinator, 
Centers for Disease Control and Prevention, out of Atlanta, 
Georgia.
    Mr. Secretary, why don't we start with you?

              STATEMENT OF HON. FRANKLIN L. LAVIN,

            UNDER SECRETARY FOR INTERNATIONAL TRADE,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Lavin. Thank you, sir. Mr. Chairman, Ranking Member and 
Co-Chairman Inouye, I'm grateful for this opportunity to speak 
on this topic. I'm very much in sympathy with the sentiment of 
your remarks, opening up, and I want to thank you for your 
leadership on this issue.
    Let me offer some general comments on the industry.
    I think, as a starting point, simply stated, our view is 
that the travel and tourism industry in the United States is 
strong, because the United States has the most innovative and 
the most diverse travel and tourism industry in the world. We 
have a range of experiences as varied as New York City to the 
Alaskan wilderness to Disney World to Yellowstone to Waikiki to 
our Nation's Capital, that no one can match. And, on top of 
that, being a tourist destination second to none, we think we 
have a support industry that is second to none with the 
dedication to quality service, marketing, and entertainment. 
And so, it is no surprise that the statistics show that the 
number of international visitors to the United States is on 
track to set a record-high number this year.
    But, having said all that, the travel and tourism industry 
in the United States also faces its share of challenges. As the 
Senator alluded, the impact of 9/11, international pandemics 
such as SARS, and even consolidation in the U.S. airline 
industry have all contributed to the challenge the industry 
faces. But I'll, if I can, elaborate on the statistics, then 
talk a bit about the challenges.
    This industry is a major contributor to our Nation's 
economy. It represents some 2.6 percent of our GDP, generated 
some $1 trillion in sales in 2005, and our figures show that 
one out of every 16 Americans is employed by travel- and 
tourism-related business, and 94 percent of those businesses 
are classified as small businesses.
    In 2005, the United States exported some $100 billion in 
travel- and tourism-related goods and services to 49 million 
international visitors. For perspective, total exports to 
trading partners such as Germany and the United Kingdom were 
$54 billion and $83 billion, respectively.
    So, while the industry is strong and growing, in recent 
years it has had to grapple with core challenges. Due to the 
tragic events of September 11, 2001, and the subsequent impact 
of SARS, the United States travel and tourism receipts and 
international visitor arrivals declined sharply. We have a 
chart which shows the receipts declined some 22 percent from 
the peak of 2000 to the trough of 2003. So, this chart gives 
you an indication of an industry, although fundamentally 
strong, that has suffered in recent years from these events. In 
fact, we could say few industries in the United States might 
have felt the impact of that terrible day as much as this 
particular industry.
    Both the U.S. Government and the industry itself have 
responded with a range of initiatives to protect our country 
and to help the industry. The bottom line is this, nothing is 
more important than the safety and security of Americans and 
those who visit our Nation. We don't see an inherent conflict 
between the goal of security and the goal of tourism 
facilitation. And, indeed, an efficient system would underpin 
both objectives. And I want to compliment my colleagues here at 
the table who are looking at initiatives such as the Model 
Airport Initiative and the Western Hemisphere Travel 
Initiative, which we think meets both those objectives. It also 
calls to mind the Visa Waiver Program, which stands out as a 
mechanism that protects our country's security and helps 
tourism. And it should be no surprise that 68 percent of our 
visitors come from Visa Waiver Program countries. I think we 
need to continue to search for ways to improve our visa process 
so we do safely guard our borders, while providing responsive 
service to legitimate travelers.
    Looking ahead, we have several areas where we're trying to 
focus our efforts. First, we are focused on facilitation of 
Chinese group leisure travel to the United States. It is 
currently part of our trade negotiations. The United States is 
not an approved destination for Chinese tourists, and we're 
working with Chinese officials to see if we can get that 
changed and tap into the Chinese tourist market.
    Second, in our view, two of the key drivers of tourism to 
the United States are the Open Skies agreements and the Air 
Traffic Liberalization agreements, and we continue to pursue 
those in concert with the Department of Transportation.
    Third, as the Senator alluded, we are conducting a Tourism 
Promotion Program. We have had a 2-year run of advertisements 
in the U.K., and we are launching in Japan. If the Committee is 
interested, we have a tape of the advertisement, which we would 
be happy to play at the conclusion of my remarks.
    And, fourth, we are looking at how we best market to the 
emergence of specialty tourism in areas, such as healthcare and 
education, to take care of our very strong service industry and 
those key sectors.
    Finally, I would like to make a comment, if I may, on the 
impact of Hurricane Katrina. We have had a special program in 
the Gulf region to help promote tourism to that key market. 
Airline traffic dropped to almost zero after Katrina. It has 
now recovered about two-thirds. We've got another chart. We can 
see the impact of Katrina. We've made a grant for tourism 
promotion, just to help the people of the New Orleans region.
    In conclusion, the industry in the United States is 
rebounding from the shocks of 9/11. Since the last quarter of 
2003, both arrivals and receipts have been on the rise. The 
sector is on track to surpass the 2000 highwater mark, in 2006. 
The U.S. industry is growing at twice the world rate in global 
arrivals, and we want to create a positive climate by removing 
business barriers at home and abroad, building bridges to new 
markets, working with the Travel and Tourism Advisory Board to 
identify these impediments, and finding these public-private 
solutions the Senator has alluded to. We are committed to 
ensuring that the United States remains the finest travel and 
tourism destination in the world.
    Thank you, sir.
    [The prepared statement of Mr. Lavin follows:]

   Prepared Statement of Hon. Franklin L. Lavin, Under Secretary for 
            International Trade, U.S. Department of Commerce
    Chairman Smith, Chairman Stevens, and members of the Subcommittee, 
thank you for the opportunity to update you on the status of the United 
States travel and tourism industry. Thank you also for your leadership 
in this important sector of our economy.
    The travel and tourism industry in the United States is strong. 
Simply stated, the United States has the most innovative and the most 
diverse travel and tourism industry in the world. We offer experiences 
as varied as New York City to the Alaskan wilderness, Disney World to 
Yellowstone National Park, and Waikiki beach to our Nation's Capital. 
The United States is a travel destination second to none. The travel 
and tourism industry in the United States is the most capable in the 
world, with a dedication to quality service, marketing and 
entertainment. The prospect that international visitors in the United 
States might set a new spending record this year is testament to these 
facts.
    The travel and tourism industry in the United States also faces its 
share of challenges from the impact of 9/11, to international pandemics 
such as SARS, to the continuing economic uncertainty of the airline 
industry.
Tourism and the U.S. Economy
    Let me give a brief overview of the industry before discussing 
existing challenges.
    The travel and tourism industry is a major contributor to our 
Nation's gross domestic product (GDP). Travel and tourism represents 
2.6 percent of GDP and generated more than $1 trillion of sales in 2005 
alone. \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Commerce, Travel and Tourism Satellite 
Accounts.
---------------------------------------------------------------------------
    In 2005, the United States exported nearly $103 billion in travel 
and tourism-related goods and services to more than forty-nine million 
international visitors. For perspective, total exports to trading 
partners such as Germany and United Kingdom were $54 billion and $83 
billion respectively. \2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Commerce, Bureau of Economic Analysis.
---------------------------------------------------------------------------
    It is no surprise that the travel and tourism industry is one of 
America's largest employers. Indeed, one out of every sixteen Americans 
is employed by travel and tourism-related businesses, ninety-four 
percent of which are classified as small businesses. \3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Commerce, Travel and Tourism Satellite 
Accounts.
---------------------------------------------------------------------------
Recent Trends and Challenges
    While the United States tourism industry is strong and growing, in 
recent years it has had to grapple with core challenges.
    Due to the tragic events of September 11, 2001 and the subsequent 
impact of the SARS outbreak, the United States' travel and tourism 
receipts and international visitor arrivals sharply declined. As the 
accompanying chart shows, receipts declined roughly 22 percent from the 
peak in 2000 to a trough in 2003. However, the industry has proven its 
resiliency recovering since 2003 to nearly record levels. Through 2005, 
we are .5 percent (one half of 1 percent) off our record receipts 
(exports) in 2000 and our arrivals are down just 4 percent from the 
all-time high in 2000.
    Let me now touch on how we are responding to the post-9/11 
environment.
Safety and Security
    When it comes to transportation policy, nothing is more important 
than the safety and security of Americans and those who visit our 
Nation. I would like to compliment the work of the Departments of 
Homeland Security and State on this effort. We see no inherent conflict 
between our goal of tourism facilitation and the goal of security. 
Indeed, in our view, an effective system can move people in a rapid, 
friendly manner while concurrently focusing on security. Allow me to 
briefly review a few examples in this regard.
    First, as an example of security initiatives that are efficient and 
tourist-friendly, the Departments of State and Homeland Security 
recently announced a ``model airport'' project to be implemented at 
both the Houston International Airport and the Washington Dulles 
International Airport. The goal of this initiative is to ensure a more 
welcoming environment for foreign visitors through improved entry 
procedures and passenger assistance measures.
    Second, we are anticipating the implementation of the Western 
Hemisphere Travel Initiative (WHTI), which will require all travelers, 
including U.S. citizens, traveling to and from Canada, Mexico, the 
Caribbean, and Bermuda to have a passport or other accepted document 
that establishes the bearer's identity and citizenship to enter or re-
enter the United States. Technological advances will allow us to 
strengthen border security and streamline the process to provide 
efficient entry into the United States.
    Third, we are also working with the Departments of Homeland 
Security and State to assess various policies regarding the movement of 
people across our borders should a pandemic influenza occur. Through 
the Security and Prosperity Partnership, the United States is reaching 
out to its neighbors to collaborate on a coordinated policy regarding 
this issue. We are also collaborating with the Department of Health and 
Human Services in the development of guidelines for industry response 
should an outbreak occur.
Visas
    One of the challenges to increasing tourism is the reluctance of 
foreign travelers to accept the greater investment in time and effort 
necessary to obtain a visa after 9/11, due to the heightened security 
requirements and changes in the visa process. For example, the process 
now requires an in-person interview.
    It is in the U.S. interest that visa applicants have ready access 
to our services. We support our colleagues at the Departments of 
Homeland Security and State in their efforts to administer a system 
that safely guards our borders while providing responsive, friendly 
service to potential visitors who we welcome.
    Over the last few years, the Department of State has taken a number 
of steps to improve the transparency, efficiency and predictability of 
the visa process. These efforts have included adding new consular 
positions, investing in automating outdated systems, and finding new 
ways to streamline the visa process, while maintaining all necessary 
security measures.
    Over 68 percent of our overseas travelers come to the United States 
from Visa Waiver Program (VWP) countries and 60 percent of all receipts 
(exports) come from VWP countries. \4\ VWP enables nationals of 27 
countries to travel to the United States for tourism or business for 
stays of 90 days or less without obtaining a visa. This is an important 
program to the U.S. travel and tourism industry and the discontinuation 
of VWP would severely affect the industry.
---------------------------------------------------------------------------
    \4\ U.S. Department of Commerce, Office of Travel and Tourism 
Industries.
---------------------------------------------------------------------------
    For citizens of non-VWP countries, a visa is necessary for entry to 
the United States. We must ensure that our visa policy excludes those 
who would do our country harm, but be vigilant that legitimate 
travelers are permitted entry. The Departments of State and Homeland 
Security are working every day to strike the right balance between 
``Secure Borders and Open Doors.''
Tourism Export Expansion
    It is important for us to also consider various policies and 
promotion issues affecting tourism.
Facilitation of Chinese Group Leisure Travel to the United States
    There is significant potential for growth of Chinese tourism in the 
United States. The impediments to this expansion lie in requirements 
imposed on leisure travelers by the Chinese government. Specifically, 
Chinese policies do not permit travel and tourism advertisements for 
destinations, such as the United States, that do not have an ``approved 
destination status'' agreement with China. This is currently part of 
our trade negotiations, and we are hopeful that we will achieve 
progress.
Air Linkages
    The liberalization of air services between countries generates 
significant additional opportunities for the airlines, consumers, 
travel and tourism, and other industries. To date, the U.S. Government 
has initiated and completed over 70 Open Skies bilateral agreements 
with foreign countries. In addition, more liberalized (but not yet 
``Open Skies'') agreements are in place with China and Japan. In 
November 2005, the United States and the European Union reached an ad-
referendum agreement on an Open Skies agreement that would affect all 
of its member countries.
Travel and Tourism Promotion
    In the United States, the private-sector, states, localities and 
destinations provide the bulk of travel and tourism promotion. Having 
said this, in 2004, Congress directed the Department of Commerce to 
conduct a $6 million campaign to market the United States as a travel 
destination. A private-sector Travel and Tourism Advisory Board was 
established, and they recommended allocating the funds to a pilot 
program in the U.K., which is our Nation's largest tourism export 
market which had suffered a decline after 2001.
    The objectives for the Department of Commerce's U.S. Tourism 
Promotion Program were to: (1) increase awareness of the United States 
as a travel destination; (2) increase positive perception of the United 
States as a travel destination; (3) increase interest and future intent 
to visit the United States; and (4) increase economic benefits from 
visitation.
    A campaign was developed using the tagline ``You've Seen the Films, 
Now Visit the Set <SUP>TM</SUP> ''. Using films featuring U.S. 
destinations as a vehicle to showcase America as a desirable and 
exciting long-haul destination for U.K. travelers. The cooperation of 
all of the movie studios and actors resulted in securing these film 
clips and images at no cost to the government.
    An independent research schedule was developed to ensure the 
highest standards of accountability for the campaign. The reports 
concluded that the campaign met all of our goals. The advertising 
increased awareness by reaching approximately 12.8 million people in 
the U.K.. The advertising increased by 10 percentage points the number 
of people who mentioned the United States as a ``dream destination'' 
(above those who did not see the campaign.) The campaign increased the 
number of those who said they intend to travel to the United States by 
approximately 2 million people. A high percentage of those intended 
travelers actually converted into sales, with 362,000 visitors who saw 
the campaign booking a trip to the United States.
    This program was continued for a second year in the U.K., and a 
second pilot program is being launched in Japan this month, again with 
funding directed by Congress. An additional $4 million has been 
appropriated, and we will continue to work with the Advisory Board to 
devise the best use of these funds.
    We hope that the private sector will consider these results as they 
develop their own marketing strategies.
Specialty Tourism
    A developing phenomenon in the U.S. tourism industry is in the 
emergence of specialty tourists who visit our Nation to take advantage 
of specific services, such as our healthcare and higher education 
systems. While not necessarily a pure tourism purchase decision, some 
elements of the travel and tourism industry play an important role in 
the consumer decision-making process.
Medical
    The United States continues to be the top destination for advanced 
medical treatment and features many of the world's leading hospitals 
and clinics. By 2001, foreign visitors to the United States spent 
approximately $1.9 billion on medical treatment. Following a sharp 
drop-off related to 9/11 and SARS, among other factors, these services 
exports totaled $1.46 billion in 2002, $1.571 billion in 2003 and 
$1.661 billion in 2004.
    Foreign competition for these patients and others who might in the 
past have preferred to visit the United States for treatment has been 
growing in recent years.
Education
    Travel to the United States for university, college, and community 
college degree programs and specialized training courses by foreign 
visitors represents another specialized form of travel. Education, or 
``educational tourism,'' represents more than $14 billion in U.S. 
services exports and is recovering from the setbacks of 9/11.
    In both medicine and education, we believe strongly that the United 
States offers the finest systems and institutions in the world and 
encourage people to come here for their education and for advanced 
medical treatment. These two areas provide some of the best ways to 
build the reputation of the United States.
Gulf Coast Region
    We are aware that Hurricanes Katrina and Rita have devastated the 
tourism industry in the Gulf Region. The challenges that affect many 
businesses there are no less profound for the travel and tourism 
industry. The Commerce Department has made a grant of $500,000 to the 
Southeast Tourism Society to market the region to travelers. Our Travel 
and Tourism Advisory Board held its first meeting after re-chartering 
in New Orleans in March. At the Secretary's request they have submitted 
a strategy for recovery of tourism in the region. The Secretary has 
shared this document with the 16 members of the Tourism Policy Council 
and they will discuss these recommendations at their next meeting in 
July.
    Travel to the affected parts of the Gulf Coast Region is 
increasing. Airport operations at the New Orleans International Airport 
dropped precipitously following Hurricane Katrina in late August 2005. 
Airline arrivals and departures declined 93 percent in September 2005 
compared to September 2004. Airline passenger traffic has since grown 
to over 500,000 passengers a month from a low of 43,000 in September 
2005.
Conclusion
    The travel and tourism industry in the United States is rebounding 
from the shocks of 9/11, and SARS, and is dealing effectively with the 
continuing economic challenge of the airlines. Since the last quarter 
in 2003, both arrivals and receipts have been on the rise. We 
anticipate, all other things being equal, that the sector will surpass 
the 2001 benchmark in 2006. The U.S. industry is growing at twice the 
world rate in global arrivals.
    We believe that the appropriate role for government is to create a 
positive business climate by removing barriers within our own 
government and working with other governments to remove market 
impediments and build bridges to new markets. We are working with the 
private sector to develop a national tourism strategy that will further 
identify impediments to growth, and public-private solutions. We have 
taken and continue to take action to support the recovery of the travel 
and tourism sector in the Gulf Region. We are in discussions with our 
trading partners to facilitate market access. Our goal is to develop a 
comprehensive travel and tourism policy framework to foster the 
development of the finest travel and tourism industry in the world.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Smith. Thank you, Mr. Secretary.
    Ambassador Nesbitt?

STATEMENT OF HON. WANDA L. NESBITT, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF STATE

    Ambassador Nesbitt. Chairman Smith, Co-Chair Senator 
Inouye, thank you very much for giving us this opportunity to 
talk about the efforts of the Department of State, and 
specifically the Bureau of Consular Affairs, to meet our 
commitment to the policy of secure borders and open doors.
    Secretary of State Condoleezza Rice summarized this 
commitment at her confirmation hearing when she said, and I 
quote, ``Our interaction with the rest of the world must be a 
conversation, not a monologue, and America must remain open to 
visitors and workers and students from around the world. We do 
not, and will not, compromise our security standards, yet we 
cannot close ourselves off from the rest of the world.''
    We, in the Bureau of Consular Affairs, are very cognizant 
of how our work impacts the travel and tourism industry. Our 
mission is to strive for the ideal balance between protecting 
our borders and promoting a vibrant, open, and global society 
here at home. The challenge is not an easy one, but we firmly 
believe that these objectives are not contradictory, that when 
America is more secure for Americans, it is more secure for 
everyone.
    We are also very much aware of the economic benefits 
generated by international visitors. When Assistant Secretary 
Maura Harty or I speak to consular officers who are in 
training, for example, we remind them that last year the United 
States welcomed approximately 49 million foreign visitors, who 
spent over $100 billion here on travel-related expenses. We 
know that, beyond the dollar signs, the goodwill that we 
engender among foreign visitors who come to the United States 
either to attend school, do business with us, or experience 
some of our cultural and tourist opportunities, that their 
experience is priceless.
    At the same time, we must balance the security requirements 
of protecting our homeland. The context for today's U.S. visa 
policy and security posture is September 11, 2001. In the 
period following 9/11, we took a long, hard look at visa 
procedures, and we implemented many changes. We continue today 
to review those procedures regularly to make sure that we are 
doing everything possible to make this country more secure for 
our citizens and our guests.
    Consular officers posted overseas are responsible for 
adjudicating more than 7 million visa applicants annually in a 
manner that both protects U.S. borders and facilitates the 
travel of legitimate visitors and immigrants to the United 
States. This work is the backbone of our ``Secure Borders and 
Open Doors'' policy.
    Today, 97 percent of approved travelers receive their visa 
in 1 to 2 days. We have streamlined the clearance process for 
those applicants who are subject to additional screening so 
that they, too, can expect a prompt response. We continue to 
make improvements by automating and updating visa processing 
systems, with a view to achieving greater transparency, 
efficiency, and predictability.
    Since 9/11, we have added 515 new consular officer 
positions around the world, we've enhanced training programs 
and interviewing techniques and counterterrorism detection, 
while continuing to emphasize the need for efficiency and the 
importance of facilitating legitimate travel. We are also 
exploring ways to use cutting-edge technology to facilitate the 
visa process even further.
    Just a few recent examples of some of the actions that our 
Embassies and Consulates abroad have taken to facilitate travel 
include things we've done specifically for the business 
community. Many of our posts abroad now have formal programs 
which they use to enroll major companies, and this permits 
their employees to obtain expedited appointments. It permits 
those foreigners who American businesses are inviting to the 
United States to essentially go to the front of the line so 
that there is no delay in their processing.
    Here in Washington, we've created a Business Visa Center to 
provide information to businesses who are inviting foreigners 
to the United States for either business or other types of 
conventions. We have made many efforts to increase the 
transparency of the visa process for every category of visitor. 
All of our posts maintain websites that provide up-to-date 
information on how to apply for a visa, on what the wait time 
is for an appointment so that they can plan ahead and they can 
obtain the services they need well in advance of their trip.
    We are also working to implement, in as smooth a manner as 
possible, new legal requirements passed by the Congress as part 
of the Intelligence Reform and Terrorism Prevention Act of 
2002. As I'm sure you know, Mr. Chairman, that Act requires 
that all travelers, including Americans, present a passport or 
other secure document denoting identity and citizenship to 
enter the United States. We plan to implement the requirement 
through the Western Hemisphere Travel Initiative, and, from the 
outset, we have reached out to business, to industry, and to 
the general public to solicit their views. And we will continue 
to do so.
    From those interactions, we've learned, for example, that 
many residents of border areas see a need for a less expensive 
and more convenient travel document than a traditional passport 
book. Those interactions were the genesis for the development 
of a passport card, which was announced by Secretaries Rice and 
Chertoff this past January. We continue to work with our 
partners at DHS on the development of this card, and we are 
confident that it will be a useful facilitator of cross-border 
travel.
    Finally, Mr. Chairman, I would like to mention that the 
Bureau of Consular Affairs is an active participant in the 
Department of State's Avian Flu Working Group, chaired by 
Ambassador John Lange, our Special Representative for Avian and 
Pandemic Influenza. Our role is to provide, and to make sure, 
that information is available to Americans who are residing or 
traveling abroad, so that they can take whatever steps they 
deem necessary to prepare for a potential outbreak. And, in the 
event of an avian flu outbreak, Consular Affairs will stay in 
contact with, and will assist Americans abroad, as much as 
possible, within the limits of our authority.
    I thank you, once again, for giving us this opportunity to 
describe the measures that we are taking to improve the 
passport and visa adjudication processes, and I'll be happy to 
take any questions you have.
    [The prepared statement of Ambassador Nesbitt follows:]

Prepared Statement of Hon. Wanda L. Nesbitt, Principal Deputy Assistant 
       Secretary, Bureau of Consular Affairs, Department of State
    Chairman Smith, distinguished members of the Committee:
    Thank you for inviting me to speak with you today about the efforts 
of the Department of State and in particular, the Bureau of Consular 
Affairs (CA), to balance border security objectives with our commitment 
to ensuring the United States remains ``Open for Business.''
Introduction
    Secretary of State Condoleezza Rice summarized this commitment 
during her confirmation hearings when she stated ``Our interaction with 
the rest of the world must be a conversation, not a monologue, and 
America must remain open to visitors and workers and students from 
around the world. We do not and will not compromise our security 
standards, yet if our public diplomacy efforts are to succeed, we 
cannot close ourselves off from the rest of the world.''
    As the Secretary's words illustrate so well, the Department of 
State recognizes that this country is at its best when we remain true 
to our finest principles, to our history, and our common ideals. 
America is a Nation of immigrants, and has always welcomed visitors 
from all over the globe, whether they come for tourism, business or 
study. We recognize that our Nation's well-being is fortified by the 
contributions--both the quantifiable and those we cannot measure--that 
visitors make to our society.
    The Department of State is cognizant of the economic benefits 
generated by international visitors to the United States. Last year we 
welcomed approximately 49 million foreign visitors and they in turn 
spent over $100 billion here on travel-related expenses. On the 
academic front, international students contribute approximately $13 
billion annually to our economy as they pursue a wide range of 
educational opportunities available in this country. Furthermore, we 
continue to facilitate legitimate business travel to the United States. 
Beyond the dollar signs, the good will that we engender among foreign 
visitors who visit the United States, attend our schools, do business 
with us, visit their family members, and experience some of the 
cultural, economic and tourist opportunities that this country has to 
offer, is priceless.
    At the same time, however, we must balance the security 
requirements of protecting our homeland. The context for today's U.S. 
visa policy and security posture is, quite simply, September 11, 2001. 
In the immediate aftermath of 9/11, the U.S. Government moved quickly 
to shore-up our Nation's border security and reassure American citizens 
and international visitors alike that our Nation was safe and secure. 
After conducting a top-to-bottom review of visa procedures and 
implementing myriad changes since 2001, we continue working day after 
day to make sure we have the strongest possible shield in place to 
protect our country, our citizens--and our guests.
    Our mission is to strive for the ideal balance between protecting 
our borders and promoting a vibrant, open, and global society here at 
home. While the challenge is not an easy one, we firmly believe that 
these objectives are not contradictory. And when we make this country 
more secure for American citizens, we make it more secure for everyone.
Visa Processing
    Consular officers overseas in our Embassies and Consulates serve 
literally on the front-lines of the global war on terror. We have the 
responsibility for adjudicating immigrant and nonimmigrant visa 
applications in a manner that protects U.S. borders and deters illegal 
immigration, while continuing to ensure that family members of American 
citizens can join them in the U.S., and allowing us to continue to 
welcome legitimate visitors into our country. This is the essence of 
the work we do and the backbone of the ``Secure Borders, Open Doors'' 
policy.
    Today, 97 percent of approved travelers receive their visa in one 
to 2 days. For the two-and-a-half percent of visa applicants who, for 
national security reasons, are subject to additional screening, the 
Department has streamlined the interagency process so that even this 
small percentage of the overall number of applicants can expect an 
answer promptly. We continue to make improvements by automating and 
updating visa processing and screening systems so the overall result is 
greater transparency, efficiency and predictability--for all our valued 
visitors--while at the same time promoting security. For example, we 
are working diligently to transition to 10-print biometric collection 
and screening for both visa applicants and visa waiver travelers.
    In order to adjudicate over 7 million visa applications annually, 
the Department of State has created more than 515 consular positions 
since September 2001. The Department has enhanced the training of 
consular officers overseas in interviewing techniques and 
counterterrorism, while continuing to also emphasize the need for 
efficiency and the facilitation of legitimate travel. We are also 
exploring ways to use cutting-edge technology to transform traditional 
visa application methods. For example, at many posts applicants can use 
an Electronic Visa Application form that reduces our data-entry times.
    Despite numerous improvements and encouraging statistics on the 
increased number of visas applications abroad, misperceptions about the 
visa process still persist. This is true overseas, as well as here at 
home. The Bureau of Consular Affairs, along with all U.S. Embassies and 
Consulates, has been engaged in a variety of outreach efforts, 
particularly to international students and the business community. We 
want business people, exchange visitors, and tourists to know that 
America's welcome mat is still out. We want everyone to know that the 
Department of State is committed to ensuring that the visa application 
process, or a misperception of it, does not serve as an impediment to 
legitimate travel to the United States.
Travel Facilitation
    The Department of State recognizes that business visitors and 
tourists are essential to the economic security of our Nation. For that 
reason, we have instructed all of our overseas posts to facilitate 
legitimate business and urgent travel and we regularly survey them on 
their efforts. Our Embassies and Consulates have responded in 
innovative ways. Many have established formal business facilitation 
programs that enroll major companies and permit their employees to 
obtain expedited appointments, or expedited processing on the day of 
interview. Others expedite appointments for groups or schedule group 
appointments, and establish specific time blocks when business groups 
may appear for an interview. Still others set aside specific time 
blocks to allow certain categories of nonimmigrant visa applicants to 
appear without a scheduled interview slot.
    The Bureau has made efforts to increase the transparency of the 
visa process to benefit every category of nonimmigrant visa applicants. 
All our posts maintain websites that provide information on how to 
apply for a visa. Each posts strives to make their website as useful as 
possible; some have even worked directly with host governments to get 
feedback on how their citizens navigate the site and how the United 
States Government's information could be better communicated to that 
audience. On the websites, visa applicants can also find estimated wait 
times for a visa interview appointment. This feature enables business 
people and tourists alike to plan and make arrangements for their 
trip--regardless of whether they will spend that trip in an office 
building or at an amusement park.
    In addition to these initiatives, many of our Embassies and 
Consulates have established business facilitation units to serve as a 
point of contact for the business community. And our posts around the 
world have integrated regular business visa training for consular 
officers into their normal operations to update consular officers on a 
country's economic conditions, provide information on the structure of 
the country's business community, and discuss business visa 
interviewing techniques.
    In Washington, the Bureau has partnered with our Embassies and 
Consulates to create a Business Visa Center, to assist U.S. companies 
and convention organizers by explaining the visa process when they 
invite employees or current and prospective business clients and 
partners to the United States. The Business Visa Center provides 
information to U.S. companies about the application process for visitor 
visas for those seeking to travel to the U.S. for business purposes and 
works with both the companies and the consular officers, when needed, 
to communicate information effectively between U.S. businesses and 
posts worldwide.
    Here are some more specific examples of how our Embassies and 
Consulates overseas are extending the welcome of the United States to 
business travelers and tourists:

  <bullet> In addition to conducting active outreach with business 
        organizations, Mission India operates a very successful 
        Business Executive Program (BEP) designed to facilitate 
        legitimate business travel, develop relationships with business 
        with strong ties to the United States, and help visa officers 
        make more informed decisions. Employees of the hundreds of 
        companies in India registered in this program have separate 
        lines for screening and interviews.

  <bullet> Over 600 companies that are members of AmCham China have 
        been accepted into the Business Visa Program managed by Embassy 
        Beijing. Member companies' employees may apply at the Embassy 
        any day of the week and bypass the standard waiting period for 
        a visa interview. Over 10,000 business visa applicants were 
        processed through this channel last year.

  <bullet> Embassy Singapore instituted a walk-in procedure allowing 
        applicants to apply, be interviewed and (if approved) obtain 
        their visas within 1 day in many cases. They also discussed 
        establishing a business traveler facilitation program in 
        conjunction with AmCham Singapore, but the AmCham indicated 
        that such a program was not necessary or desirable as the 
        international business community is satisfied with Post's 
        current visa processing procedures and speed!

  <bullet> Our Consulate General in Sao Paulo established a Business 
        Travel program that includes U.S., multinational and well-known 
        Brazilian companies that routinely send business travelers to 
        the United States. The Consulate General receives requests 
        directly from the companies' H.R. departments by e-mail and 
        sets special, expedited appointments for prospective business 
        travelers in the afternoons. Any business traveler whose 
        company is not a participant in the business travel program may 
        also obtain an expedited interview by sending a faxed or e-
        mailed request.

  <bullet> And finally, Embassy Seoul has enrolled 141 companies into 
        its Business Referral Program. Companies routinely conducting 
        business activities in the U.S. or with U.S.-based businesses 
        are eligible for the program. Member company employees receive 
        expedited visa appointments and speedier processing the day of 
        the interview.

  <bullet> CA's own statistics also show that visa issuances are on the 
        rise. The number of business and tourist visas issued rose to 3 
        million in 2005 and are being issued even more efficiently in 
        2006.

    These are only a few of the many ways that the Department of State 
supports business relationships between U.S. firms and their potential 
clients, partners and customers all over the world.
Passports and WHTI
    Another central component of our border security efforts is the 
adjudication and issuance of U.S. passports. This document is among the 
most valuable citizenship and identity documents in the world. As the 
global community becomes more connected all the time, the demand for 
passports continues to grow. Last year, we issued over 10 million 
passports and we are well on the way to issuing about 13 million this 
year. More recently, and in response to the surging demand, the Bureau 
received approval to hire an additional 130 government personnel to 
adjudicate passport applications. The Department has also made 
commensurate increases in private sector staff at our passport 
facilities.
    We are also working on a significant initiative called the Western 
Hemisphere Travel Initiative or WHTI that will affect travel to the 
U.S. by American citizens as well as citizens of Canada, Mexico and 
Bermuda. WHTI is our plan to implement a provision in the Intelligence 
Reform and Terrorism Prevention Act of 2004 that established a legal 
requirement for American citizens and travelers from other countries in 
the Western Hemisphere to enter the United States, beginning January 1, 
2008, with a passport or other accepted form of documentation denoting 
citizenship and identity. This requirement will apply to travel to the 
United States from Canada, Bermuda, the Caribbean and Mexico as well.
    The goals of the Western Hemisphere Travel Initiative are to 
strengthen our border security and facilitate re-entry into the United 
States for American citizens. This requirement streamlines the review 
process so only a limited number of documents that denote citizenship 
and identity can be presented at Ports of Entry, rather than one of 
more than 8,000 different versions of documents currently in use today.
    The Department of State is also engaged with our hemispheric 
neighbors to make sure that they are aware of the requirements of WHTI. 
We want to ensure that WHTI does not hinder the legitimate flow of 
people and goods between our nations. Because WHTI represents a 
significant change to current practice, we are planning to roll it out 
in phases, and provide advance notice to the public to help people get 
a passport or other secure document in time for their planned travel.
    Throughout this process, we have been engaging the public, 
including citizens, business leaders, and local government. Many 
residents of border areas requested a less expensive, more convenient 
travel document than the traditional passport book for land border 
crossings.
    As part of the Rice-Chertoff Initiative, Secretaries Rice and 
Chertoff announced in January the development of a passport card that 
carries the rights and privileges of a standard U.S. passport. The 
passport card will be adjudicated and issued by the Department of State 
to the exact same standards as the traditional book-style passport. The 
card will be produced as part of a system of Border Management travel 
documents called People, Access, Security, Service (PASS).
Conclusion
    It is our government's fundamental commitment to balancing our 
security needs with the openness of the United States that the 
Department of State is striving to maintain each day. We have taken 
extraordinary measures to make the passport and visa adjudication 
processes more efficient and more accessible and we have done so with 
an unwavering commitment to highest security standards. We believe 
these actions benefit American public at home and abroad, as well as 
the foreign citizens that visit our country by facilitating their 
legitimate travel.
    Mr. Chairman, members of the Committee, I thank you again for 
inviting me to participate in this hearing and to explain the 
Department's efforts to promote exchange through travel and trade 
within the context of our commitment to Secure Borders and Open Doors.
    I look forward now to answering your questions.

    Senator Smith. Ambassador Nesbitt, just to clarify, will 
the passport card replace the old passport?
    Ambassador Nesbitt. No, it will not. We would issue both.
    Senator Smith. You'd issue both because the card can't be 
used everywhere.
    Ambassador Nesbitt. That's correct.
    Senator Smith. But where it can be used, it'll just be done 
electronically, and, I suspect, easily.
    Ambassador Nesbitt. That's our hope, certainly.
    Senator Smith. That's the hope, OK.
    Mr. Jacksta?

 STATEMENT OF ROBERT M. JACKSTA, EXECUTIVE DIRECTOR, TRAVELER 
  SECURITY AND FACILITATION, OFFICE OF FIELD OPERATIONS, U.S. 
                CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jacksta. Good morning, Chairman Smith, Co-Chairman 
Inouye. I am pleased to be here to represent DHS and Customs 
and Border Protection today and to talk a little bit about what 
we're doing with facilitation of travelers, as well as making 
sure that our borders are secure.
    The United States has over 7,000 miles of shared borders 
with Canada and Mexico. We have 325 ports of entry. And each 
day, CBP officers at the ports of entry must inspect close to 
1.1 million travelers coming into the United States.
    With that, last year we welcomed over 431 million 
international travelers to the United States. During Fiscal 
Year 2005, we saw close to 86 million travelers coming to our 
airports. And that's the first year that we actually saw an 
increase over the pre-9/11 numbers.
    As the guardian of our borders, CBP is charged with the 
management, control, and protection of our Nation's borders, 
both at and between the official ports of entry. CBP employs 
highly-trained, professional personnel, resources, and law 
enforcement authorities to discharge our priority mission of 
preventing terrorists and terrorist weapons from entering the 
United States. Carrying out our important mission entails not 
only improving security, but also extending our zone of 
security out from the United States.
    Our strategy uses advance electronic information and an 
automated risk-management system that identifies and targets 
high-risk travelers well before their arrival into the United 
States. CBP has also initiated partnerships with other 
governments and the private sector, and created trusted, vetted 
traveler programs to identify low-risk travelers and allow them 
to quickly pass through our borders.
    At our Nation's ports of entry, CBP uses sophisticated 
detection technology to rapidly screen high-risk cargo for 
weapons, radiation, and other contraband. In addition, all CBP 
officers receive antiterrorism training, which enables them to 
recognize, identify, and interdict individuals who pose a risk 
to the United States.
    In Fiscal Year 2005, over 84,000 individuals were 
apprehended at the ports of entry trying to cross the border 
with fraudulent documents. On an average day, CBP intercepts 
more than 200 fraudulent documents, arrests over 60 people at 
the ports of entry, and refuses entry to hundreds of 
noncitizens, a few of which are criminal aliens and are 
attempting to enter the United States.
    Currently, there are thousands of different documents that 
a traveler can present to CBP officers when attempting to enter 
the United States, creating a tremendous potential for fraud. 
Standard documents will eliminate the time-consuming, manual 
process of reviewing and validating a host of distinct birth 
certificates and driver licenses. Having standardized documents 
will enable an automated reading and vetting of the 
information, which will enable us to increase traveler 
facilitation.
    As part of our layered approach to border security, CBP 
employs a host of trusted-traveler programs. This includes the 
SENTRI program, which is down on the southern border, the Free 
and Secure, FAST program, which is for commercial travelers on 
the northern border and on the southern border, as well as the 
NEXUS program, on our northern border. These programs 
facilitate the crossing of low-risk travelers and commercial 
truck drivers at the land borders through dedicated lanes. To 
date, approximately 225,000 individuals are enrolled in these 
programs and are currently using the systems. These are 
programs that have been worked, together with the Canadians and 
the Mexicans, who both participate in the program with us.
    At the center of our targeting is the CBP's National 
Targeting Center, where CBP personnel use automated targeting 
systems to analyze advance information about passengers before 
they arrive in the United States. This allows us to take 
appropriate action when flights arrive at our ports of entry.
    Today, CBP collect biometrics on certain non-U.S. citizens 
at air, land, and sea locations, through the US-VISIT system. 
This system checks the individual against a fingerprint-based 
watchlist of known or suspected terrorists and other criminal 
information. The US-VISIT program has substantially added to 
CBP's screening capabilities to process travelers in a timely 
fashion.
    We also have the Immigration Assistance Program, where we 
have officers stationed overseas to screen individuals before 
they get on planes to the United States. We have the Carrier 
Liaison Program, which is a program that we work with the 
industry. We have trained their employees to discover 
fraudulent documents and to discover possible individuals 
trying to enter the United States illegally. We have trained 
close to 1,200 individuals this past year.
    In addition, we have various working programs with the 
Department of State and with other agencies, trying to ensure 
that we protect the borders by making sure that our officers 
are aware of the various responsibilities and the laws that are 
needed to be enforced.
    We have the Model Ports of Entry Program, where we've 
identified both the Dulles and Houston Airports as locations 
where we are going to work with the industry and the airport 
authorities to improve the processing.
    And, finally, we are working with CDC/HHS to ensure that we 
have a plan, a program, and a response to a possible threat of 
avian flu.
    These are some of the programs that we are trying to ensure 
we can facilitate low-risk travelers, and, at the same time, 
make sure that individuals that are a threat are identified, 
and appropriate actions are taken at our ports of entry.
    I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Jacksta follows:]

 Prepared Statement of Robert M. Jacksta, Executive Director, Traveler 
Security and Facilitation, Office of Field Operations, U.S. Customs and 

           Border Protection, Department of Homeland Security
    Good morning, Chairman Smith, Ranking Member Dorgan, distinguished 
members of the Subcommittee, I am pleased to be here today to discuss 
how the Department of Homeland Security (DHS) is moving forward on 
programs that will provide traveler facilitation while still providing 
the level of security required to protect the United States. This is an 
enormous challenge. We have over 7,000 miles of shared borders with 
Canada and Mexico, 325 official ports of entry, and each day DHS 
Customs and Border Protection (CBP) Officers must inspect more than 1.1 
million passengers and pedestrians. However, last year alone, CBP 
welcomed over 431 million travelers through official ports of entry. 
During Fiscal Year 2005, CBP processed a record 86 million air 
passengers arriving from abroad, the first year that the number of air 
passengers has exceeded pre-9/11 levels.
    CBP is charged with the management, control, and protection of our 
Nation's borders, both at and between the official ports of entry. As 
America's front-line border agency, CBP employs highly trained and 
professional personnel, resources, expertise and law enforcement 
authorities to discharge our priority mission of preventing terrorists 
and terrorist weapons for entering the United States. Carrying out our 
extraordinarily important mission entails not only improving security 
at and between our ports of entry along the entire length of our land 
and maritime borders, but also extending our zone of security beyond 
our physical borders.
    CBP has implemented a ``smart border'' strategy to provide security 
and enforce U.S. laws both at and between ports of entry, as well as 
extending our security zone beyond our own borders. This strategy uses 
advance, electronic information and an automated risk management system 
that identifies and targets high-risk cargo and people well before 
arrival in the United States. CBP has also initiated partnerships with 
other governments and the private sector trade community, and created 
trusted, vetted traveler programs, to identify low-risk cargo and 
people and allow them to quickly pass through the border, thereby 
freeing up CBP resources to focus on unknown, higher-risk traffic. At 
the ports of entry, CBP uses sophisticated detection technology to 
rapidly screen high-risk cargo for weapons, radiation, and other 
contraband. All CBP officers receive antiterrorism training to better 
enable them to recognize, identify, and interdict individuals who pose 
a terrorist risk.
    The standardization of travel documents is a critical step in 
securing our Nation's borders. Currently, there are thousands of 
different documents that a traveler can present to CBP officers when 
attempting to enter the United States, creating a tremendous potential 
for fraud. Standardized documents will also eliminate the time-
consuming, manual process of reviewing and validating a host of 
distinct, and sometimes illegible and unverifiable, birth certificates 
and other identity documents. Having standardized documents will enable 
automated reading and vetting of the information, which will also be 
essential to increased traveler facilitation.
    In Fiscal Year 2005, over 84,000 individuals were apprehended at 
the ports of entry trying to cross the border with fraudulent claims of 
citizenship or documents. Moreover, on an average day, CBP intercepts 
more than 200 fraudulent documents, arrests over sixty people at ports 
of entry, and refuses entry to hundreds of non-citizens, a few dozen of 
which are criminal aliens that are attempting to enter the United 
States.
    On March 23, 2005 in Waco, TX, President Bush, along with Canadian 
Prime Minister Martin and Mexican President Fox, unveiled the Security 
and Prosperity Partnership for North America (SPP), a blueprint for a 
safer and more prosperous continent. The Leaders agreed on an ambitious 
security and prosperity agenda, which will keep our borders closed to 
terrorists and open to trade. The three leaders established 
ministerial-level Security and Prosperity working groups. Secretary 
Chertoff chairs the security agenda while Secretary of Commerce, Carlos 
Gutierrez, chairs the prosperity agenda.
    The Leaders met again this year on March 31 in Cancun to review 
progress and renew commitment to enhance the security, prosperity, and 
quality-of-life of the citizens within North America. The leaders 
announced the creation of a North American Competitiveness Council 
(NACC). The Council will be made up of members of the private sector 
from each country who will meet annually with security and prosperity 
Ministers and will engage with senior government officials on an 
ongoing basis. CBP looks forward to its role in working with the NACC.
    As part of a layered approach to border security, CBP employs a 
host of programs. CBP's existing ``trusted traveler'' programs are also 
being evaluated for expanded use at our land borders. These include the 
Secure Electronic Network for Travelers Rapid Inspection (SENTRI), Free 
and Secure Trade (FAST), and NEXUS programs. These programs facilitate 
the crossing of low-risk, frequent travelers and commercial truck 
drivers at the land borders through exclusive, dedicated lanes. To 
enroll in these programs, travelers must provide proof of citizenship, 
a Border Crossing Card (BCC) or other visa, if required, as well as 
other identity documentation, such as a driver's license or ID card. An 
intensive background check against law enforcement databases and 
terrorist indices is required, and includes fingerprint checks and a 
personal interview with a CBP officer. To date, approximately 225,000 
SENTRI, NEXUS, and FAST cards have been issued. Over the next few 
months, we expect to increase the number of locations at which they can 
be used. These programs are implemented in partnership with the 
governments of Canada and Mexico, and many citizens of these countries 
participate in the programs.
    At the center of our targeting efforts is CBP's National Targeting 
Center (NTC), where CBP personnel use the Automated Targeting System 
(ATS) to analyze advance information about passengers before they 
arrive in the Untied States. The NTC employs sophisticated risk 
assessment rules and algorithms based upon strategic intelligence about 
terrorist threat, and incorporates data from numerous national 
intelligence and law enforcement databases, to screen all passengers 
traveling to the United States for potential terrorist connections or 
terrorist risk factors.
    CBP collects biometrics on certain non-U.S. citizens at primary in-
air and sea ports and at secondary in-land ports and, through the US-
VISIT system, checks the individual against a fingerprint-based 
watchlist of known or suspected terrorist, wants and warrants, 
immigration violations, and other criminal history information as well 
as to determine whether the person is the same one previously 
encountered by DHS or State. The US-VISIT Program has substantially 
added to CBP's screening capabilities without impacting CBP's ability 
to process travelers in a timely fashion. At the ports of entry, CBP's 
Counter-Terrorism Response Unit can conduct intensive questioning and 
inspection, search, and interview of individuals. CBP has developed 
clear and comprehensive policies for responding when we encounter a 
terrorist watch-listed individual or suspected terrorist.
    In partnership with the private sector and state and local 
governments, DHS and the Department of State have introduced a pilot 
``model airport'' program to ensure a more welcoming environment for 
foreign visitors. The pilot projects at the Houston and Dulles airports 
entail such features as customized video messages for the public with 
practical information about the entry process, improved screening and 
efficient movement of people through the border entry process, and 
assistance for foreign travelers once they have been admitted to the 
United States.
    The Immigration Advisory Program (IAP) extends our zone of security 
outward by screening overseas passengers before they board aircraft 
destined for the United States. IAP teams identify high risk and 
terrorist watch-listed passengers using the Automated Targeting System 
in CBP's National Targeting Center, and advise the airline whether the 
passenger will be admissible to the United States upon arrival.
    The Carrier Liaison Program (CLP) was developed to enhance border 
security by increasing commercial carrier effectiveness in identifying 
improperly documented passengers destined to the United States. The 
primary method for accomplishing this mission is by providing technical 
assistance and training to carrier staff. Technical assistance includes 
publication and distribution of information guides, document fraud 
summaries and alerts. In addition, CBP is developing the 24/7 Carrier 
Response Center phone line that provides real-time entry requirements 
and document validity advice to carrier staff worldwide. The U.S. 
Immigration and Customs Enforcement Forensic Document Laboratory (FDL) 
supports CLP in multiple ways, to include providing FDL Document Alerts 
to the CLP for distribution to airline personnel.
    The CLP provides training on U.S. entry requirements, passenger 
assessment, fraudulent document detection and imposter identification 
using state-of-the-art document examination material, equipment and 
training tools. Training is customized to meet the needs of specific 
carriers or locations based on performance analysis or emergent 
circumstances. Training is delivered at U.S. ports of entry and at 
airports abroad by experienced CLP officers. CLP officers also assist 
carriers to develop and implement strategies to reduce travel document 
abuse.
    In January 2005, CBP created the Fraudulent Document Analysis Unit 
(FDAU) to collect documents, provide the ports with analysis of 
document trends and intelligence information, and to target persons 
being smuggled into the United States using fraudulent documents. By 
the end of December 2005, the FDAU received 40,875 fraudulent documents 
confiscated at ports of entry and mail facilities. Working with the 
FDAU, CBP will increase this number in the future.
    As you are aware, Avian Influenza, or ``bird flu,'' is a highly 
contagious viral infection that has the potential to threaten our 
economy and the public health. The goals of the Federal Government's 
response to a potential pandemic are to stop, slow, or otherwise limit 
the spread of a pandemic to the United States and to sustain our 
infrastructure and mitigate the impact to our economy. CBP must be 
prepared to maintain essential services, mitigate against the spread 
and consequences of a pandemic, and protect our workforce and the 
public. CBP is working with our DHS partner agencies, as well as the 
Centers for Disease Control and Prevention (CDC), to develop an 
effective strategy for entry-exit procedures and travel restrictions 
during a pandemic.
    CBP officers are committed to the highest standards of professional 
conduct. We want to assist the millions of legitimate travelers who 
pose little or no threat, in gaining proper entry into the U.S., both 
safely and efficiently. As part of this effort, CBP recently 
implemented a campaign to educate travelers. Here are some of the best 
pieces of advice CBP can provide to travelers to help them have a safe, 
efficient and enjoyable trip abroad:
    Declare everything you are bringing in from abroad, even if you 
bought it in a duty-free shop. All passengers arriving on a plane must 
complete a CBP declaration form. This declaration prevents the 
unintentional introduction of prohibited items, such as fruits and food 
products that could introduce devastating diseases and pests into the 
United States, and severely damage U.S. agriculture. If items purchased 
abroad are intended for personal use or as gifts, they are eligible for 
duty exemptions. If they are intended for resale, they are not. If any 
duty is owed, a CBP officer will assist you in paying that duty.
    Many travelers look forward to bringing home special food items 
from abroad. However, it is important to ``know before you go'' which 
items can and cannot be brought into the United States from abroad. 
Every food product, fruit and vegetable must be declared to a CBP 
officer, and must be presented for inspection. It is important to 
remember that the rules and regulations are in place to protect the 
American economy, plant and animal wildlife, and the health of the 
American people.
    Members of the Subcommittee, I have outlined a broad array of 
initiatives today that, with your assistance will help CBP continue to 
protect America from terrorist threat while fulfilling our other 
important traditional missions. But our work is not complete. With the 
continued support of the Congress, CBP will succeed in meeting the 
challenges posed by the ongoing terrorist threat and the need to 
facilitate an ever-increasing number of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any questions you may have.

    Senator Smith. Thank you very much.
    Doctor----
    Dr. LeDuc. LeDuc, yes. Jim LeDuc.

              STATEMENT OF JAMES W. LeDUC, Ph.D.,

                   COORDINATOR FOR INFLUENZA,

          CENTERS FOR DISEASE CONTROL AND PREVENTION,

            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. LeDuc. Good morning, Senators. Thank you for the 
invitation.
    It's my pleasure to discuss with you today the very 
important global threat that we face in pandemic influenza. 
During my comments, I'll summarize for you, very briefly, the 
worldwide situation with regard to avian influenza, then 
describe some of the preparedness activities that we've 
undertaken, both within the United States and globally.
    Highly pathogenic H5N1 avian influenza infections in both 
animals and humans have spread significantly since the 
beginning of this year. The World Organisation for Animal 
Health, the OIE, has received reports of millions of infected 
domestic poultry and wild birds in more than 50 countries in 
Asia, the Middle East, Europe, and Africa. As of the 20th of 
June of this year, the World Health Organization has reported a 
total of 228 human infections, and more than half of those have 
ended in death.
    Almost all human cases have been directly or indirectly 
associated with exposure to sick or dying poultry, although 
limited human-to-human transition cannot be ruled out in a few 
instances. Ongoing careful laboratory analysis of virus 
isolates from these outbreaks has documented continued genetic 
and antigenic changes in the viruses. But, importantly, there's 
no evidence to suggest that the virus has acquired the ability 
to be easily transmitted from person-to-person.
    As part of our global preparedness efforts, we continue to 
work very closely with the World Health Organization and other 
international organizations to build national capacity within 
nations at risk so that they are better prepared to recognize 
and investigate possible outbreaks of avian influenza. This 
involves assistance in training and outbreak investigation 
techniques and building adequate laboratory capacity so that 
appropriate clinical specimens are obtained and fed into the 
WHO Global Influenza Network for comprehensive 
characterization. This critical first line of defense is 
essential for early recognition of a potential pandemic and 
will allow us to attempt to aggressively control an outbreak 
early on, onsite, before it spreads. This foundation of 
international collaborations is the first pillar of our 
national strategy to defend against pandemic influenza. An 
outbreak anywhere is a threat everywhere.
    We are making similar investments with State and local 
governments to better prepare for the possibility of pandemic 
influenza. We have built upon the existing laboratory response 
network, first created to diagnose diseases of bioterrorism 
potential, so that they can also rapidly and accurately 
diagnosis avian influenza, should suspect cases occur in their 
communities. And we're working very closely with State and 
local officials to develop and exercise plans to respond to 
pandemic influenza. Part of these efforts is the augmentation 
of the Strategic National Stockpile to include stocks of 
antiviral drugs and other essential items that will help each 
community respond to a potential pandemic.
    And, finally, significant investments have been made to 
enhance our national vaccine production capabilities so that a 
vaccine against pandemic influenza can be produced and 
delivered as quickly as possible. It's important to stress, 
however, that we will need to have the virus causing the 
pandemic in hand before we can make an effective vaccine; thus, 
a critical product of our international collaborations is to 
ensure that we have access to pandemic virus strains early on 
as quickly as possible.
    In closing, let me say that we clearly recognize the 
devastating economic and societal impact that a global 
influenza pandemic would have on all sectors of our national 
economy. We take our responsibility as the protector of our 
Nation's health very seriously, and our goal is to provide the 
most accurate information, guidance, and recommendations as 
quickly as possible, based on solid scientific facts and proven 
intervention strategies. We're working hard to coordinate our 
efforts, as you've heard, with other government agencies, with 
State and local communities, and with the private sector, as 
well as with our international partners. The investments that 
we are making will help us to better prepare for pandemic 
influenza, and they'll also help us to address the threat of 
bioterrorism, as well as the next SARS or other emergent 
diseases.
    Thank you very much, sir.
    [The prepared statement of Dr. LeDuc follows:]

Prepared Statement of James W. LeDuc, Ph.D., Coordinator for Influenza, 
 Centers for Disease Control and Prevention, Department of Health and 
                             Human Services
    Mr. Chairman and members of the Subcommittee, I am pleased to be 
here today to provide an update on the potential for an influenza 
pandemic and to give you a status of public health preparedness, 
specifically related to travel and trade issues. Although most of my 
testimony will focus on the current threat of avian influenza A (H5N1), 
it is important to keep in mind that a pandemic could emerge from other 
influenza strains and that continued national and global vigilance is 
essential. The Department of Health and Human Services (HHS) and its 
Centers for Disease Control and Prevention (CDC) are leaders in this 
effort, working in close partnership with colleagues from the 
Departments of Commerce, State, Agriculture, and Homeland Security, 
state and local leaders, and many other organizations in the United 
States and throughout the world.
The Current Status of H5N1 Influenza Virus
    Highly pathogenic avian influenza A (H5N1) virus infection in both 
animals and humans has spread significantly since the beginning of 
2006. As of June 21, 2006, the World Organisation for Animal Health 
(OIE) had received reports of infections in millions of domestic 
poultry and wild birds in more than 50 countries in Asia, the Middle 
East, Africa, and Europe. As of June 21, the World Health Organization 
(WHO) had confirmed human cases of H5N1 influenza in 10 countries: 
Azerbaijan, Cambodia, China, Djibouti, Egypt, Indonesia, Iraq, 
Thailand, Turkey, and Vietnam. As of June 21, WHO had confirmed a total 
of more than 225 human cases since January 2004, with an overall 
fatality rate of greater than 50 percent. Although almost all cases of 
human infection with the H5N1 virus appear to have resulted from some 
form of direct or close contact with infected poultry, some clusters 
indicate that the possibility of limited human-to-human contact, 
particularly infection within family clusters, merits close attention. 
In addition, scientists at CDC, WHO, and other organizations have 
documented ongoing genetic changes in the virus. These changes have 
important implications for our preparedness efforts in developing 
influenza pandemic vaccine.
    Despite the detection of some genetic changes, scientists have not 
yet observed fundamental changes in the virus's genetic structure that 
might allow H5N1 viruses to be transmitted more efficiently from person 
to person. If such changes were to occur, they would heighten our 
concern about the virus attaining the capacity for sustained, rapid 
human-to-human transmission, which is necessary for a pandemic to 
occur. What we have begun to see is an increasing number of situations 
where limited human-to-human spread may have occurred among family 
members who have had close contact with individuals infected with the 
virus.
    Whether the H5N1 virus evolves into the next pandemic or a pandemic 
originates from another highly pathogenic influenza strain, continued 
preparedness is essential. Seasonal influenza causes about 200,000 
hospitalizations and 36,000 deaths in the United States each year. In 
economic terms, seasonal influenza in the United States costs about 
$37.5 billion annually in healthcare costs and lost productivity. Based 
on evidence from influenza pandemics in the 20th century, computer 
models, and other research, CDC estimates that a moderate influenza 
pandemic could cause about 865,000 hospitalizations and 209,000 deaths 
in the United States. A severe pandemic could cause an estimated 9.9 
million hospitalizations and 1.9 million deaths in the United States. 
In addition, unlike seasonal influenza, a pandemic could begin at any 
time of year and could seriously disrupt both domestic and global 
travel, trade, and other social and economic infrastructure for months 
or years. It is extremely difficult to calculate estimates of the 
economic impact a moderate or severe influenza pandemic may have on the 
United States or on other nations.
Comprehensive, Highly Collaborative Preparedness Planning
    CDC and scientific colleagues throughout the world generally agree 
that as the influenza virus continues to evolve, an influenza pandemic 
is likely at some point and could be extremely difficult to contain. 
The comprehensive, highly collaborative preparedness planning now 
underway is vital to minimize the impact of such an event. CDC plays a 
major role in executing public health strategies established by HHS and 
other departments. These strategies are focused on: ensuring early 
detection and reporting; a high capacity for laboratory and 
epidemiological investigations; containment and rapid responses to 
outbreaks; and sharing of and training on best practices to benefit 
from lessons learned as we move forward. Public health is one component 
of much broader preparedness planning founded on guidance from the 
World Health Organization and the President's National Pandemic 
Influenza Preparedness Strategy. CDC public health preparedness fits 
within the framework of the National Strategy for Pandemic Influenza 
Implementation Plan published on May 3, 2006, by the White House 
Homeland Security Council (HSC), ongoing coordination with the 
Department of Homeland Security (DHS) and the Department of State 
(DOS), and execution of strategies described in the HHS Pandemic 
Influenza Preparedness Plan released in November 2005. CDC and other 
HHS agencies are finalizing and exercising their own internal 
operations plans in conjunction with the strategies, objectives, and 
performance measurements contained in overarching preparedness plans 
developed by HSC, DHS, HHS, and other departments and organizations.
Preparedness Measures Related to Trade and Travel Issues
    Using the Fiscal Year (FY) 2006 emergency supplemental funds that 
Congress appropriated to further public health preparedness for an 
influenza pandemic and its regularly appropriated funds, CDC has begun 
implementing key projects, many in partnership with other 
organizations. These projects are grouped broadly under the areas of 
increasing laboratory capacity and research, improving domestic and 
international surveillance, strengthening resources for containment and 
rapid response, and strengthening public communications activities. I 
will describe a few of the projects that relate most directly to trade 
and travel.
Laboratory Capacity and Research
    The capacity on early detection and reporting of outbreaks caused 
by H5N1 and other highly pathogenic influenza viruses depends first on 
strong laboratory capacity and research. The results of these 
initiatives would have a major impact on travel and trade concerns:

  <bullet> CDC, the National Institutes of Health (NIH) within HHS, and 
        global partners such as WHO have made significant progress in 
        monitoring changes in the H5N1 virus since they first caused 
        human infections in 1997 and have continued to develop pandemic 
        influenza vaccine reference candidates. CDC and NIH are 
        cooperatively testing candidate reference vaccines, including a 
        series of pre-clinical and clinical trials to evaluate their 
        safety and dosage requirements. The number of H5N1 vaccine 
        doses on hand is calculated on the basis of different dosage 
        requirements. Interested manufacturers are working closely to 
        prepare limited quantities of these candidate vaccines. This 
        research will be essential both to promptly identify an actual 
        pandemic influenza strain that can be used to make an 
        appropriate vaccine and to have manufacturing and other 
        resources ready to test, produce, and distribute a pandemic 
        vaccine as quickly as possible.

  <bullet> CDC and its partners regularly monitor the effectiveness of 
        antiviral medications that could be used to help with treatment 
        during early and later stages of an influenza pandemic. Limited 
        epidemiological evidence suggests that one group of antiviral 
        medications, neuraminidase inhibitors, may be effective in 
        fighting H5N1 virus infection when administered promptly and in 
        sufficient quantities. No clinical evidence to date suggests 
        that resistance in H5N1 viruses to neuraminidase inhibitors is 
        present among viruses circulating in birds or untreated humans. 
        Current neuraminidase inhibitors licensed for use in the United 
        States are oseltamivir (Tamiflu<SUP>TM</SUP>) and zanamivir 
        (Relenza<SUP>TM</SUP>). CDC works closely with several 
        manufacturers to maintain these antiviral medications, along 
        with other vital resources, in the U.S. strategic national 
        stockpile, for distribution domestically when needed to high-
        risk priority groups. HHS, DOS, and the Department of Defense 
        (DOD) also work together to help place strategic antiviral 
        supplies in areas of the world where outbreaks are likely to 
        happen, in an effort to contain early pandemic influenza 
        outbreaks as closely as possible to their source.

  <bullet> CDC has as one of its major responsibilities the development 
        and testing of new rapid diagnostic tests. CDC distributes 
        these tests to the domestic Laboratory Response Network (LRN) 
        laboratories and to those the LRN certifies for use in making 
        preliminary identifications of H5 viruses. This saves time in 
        the diagnosis by allowing more efficient and rapid provisional 
        diagnosis locally at the LRN labs, with CDC providing 
        subsequent confirmatory testing in its BSL-3-enhanced 
        laboratories. Since December 2005, CDC has made major advances 
        in new rapid diagnostic tests and is now supplying diagnostic 
        tests for H5N1 virus to LRN-certified laboratories. The FY 2006 
        Emergency Supplemental funds are making it possible for CDC to 
        increase the pace of its research in this area.

  <bullet> CDC continually analyzes genetic sequence data as the H5N1 
        virus evolves and supplies viruses and the sequence data, in 
        coordination with WHO and the countries of origin, to certified 
        public and private scientific facilities in the United States 
        and throughout the world.

  <bullet> HHS recently announced contracts to further both current 
        egg-based vaccine development technology and novel, cell-based 
        technology. The egg-based research will help scientists and 
        manufacturers develop interim solutions that could be 
        particularly important should a pandemic begin in the next one 
        or 2 years. The new emphasis on cell-based research could 
        advance a process to significantly increase the quantity of 
        influenza vaccine produced during a similar amount of time as 
        egg-based technology takes. Funding for both types of research 
        continues to be an essential component of the Nation's 
        comprehensive national pandemic influenza preparedness.

Domestic and International Surveillance
    Domestic and international surveillance networks are essential in 
analyzing and reporting on potential threats to travel and trade:

  <bullet> CDC has worked with numerous partners since 1990 to 
        strengthen its domestic surveillance network for seasonal 
        influenza and other public health threats. Now, as part of the 
        comprehensive National Response Plan, CDC continues to enhance 
        this network and is facilitating active partnerships between 
        states and private healthcare facilities, such as hospitals, 
        that detect and report cases of suspected influenza infections. 
        Although our role in this area is limited, it is essential that 
        states and private healthcare facilities work together to build 
        greater overall capacity to detect and report potential 
        pandemic influenza outbreaks as quickly as possible. The system 
        depends on strong, longstanding working relationships among 
        many health professional groups, as well as on utilizing 
        advances through technologies.

  <bullet> International surveillance is equally critical in preparing 
        for an influenza pandemic. CDC serves as one of the four WHO 
        Global Collaborating Centers for Influenza. In this capacity, 
        CDC plays a vital coordinating role in ongoing global 
        surveillance of continually evolving influenza viruses. To 
        strengthen its own international surveillance, CDC has invested 
        for a number of years in country and regional training for many 
        nations that now are directly affected by H5N1 influenza. With 
        the help of FY 2006 Emergency Supplemental funds, CDC is 
        establishing an on-ground regional presence with Global Disease 
        Detection (GDD) Response Centers in five key global areas: 
        Egypt, Guatemala, Kenya, Thailand, and PR China. This is part 
        of CDC's efforts to strengthen global surveillance capacity by 
        establishing a network of Global Disease Detection and Response 
        Centers strategically placed in each of the six WHO regions. 
        Each GDD Response Center will design and implement key 
        interventions aimed at the early identification and containment 
        of pandemic health threats, whether an act of terrorism or the 
        natural emergence of a deadly infectious pathogen like pandemic 
        influenza. To provide additional support internationally, the 
        agency has enhanced collaborations with WHO regionally and in 
        its Geneva headquarters and has made resources available 
        bilaterally to 13 countries, with more targeted in the coming 
        months. The agency also has posted expert influenza 
        coordinators within three countries that have been hit by the 
        H5N1 virus: Cambodia, Laos, and Vietnam. Posting additional 
        influenza experts in countries and regions that have been 
        hardest hit in recent months is a high priority of the agency. 
        Within the Federal Government, CDC coordinates this and other 
        efforts with DOS and DOD. In particular, the U.S. Naval Medical 
        Research Units (NAMRU) in Indonesia and Egypt are playing a 
        valuable role in prompt confirmatory testing of H5N1 samples 
        from human cases.

  <bullet> Surveillance of wild and migratory birds, as well as small 
        and large flocks of poultry, has become increasingly important 
        as the H5N1 virus has spread across continents. CDC is working 
        in concert with many groups, including the Wildlife 
        Conservation Society, the Smithsonian Institution, the 
        Department of Agriculture (USDA), the Department of the 
        Interior (DOI), and international organizations such as the 
        Food and Agriculture Organization of the United Nations and OIE 
        to assure comprehensive global surveillance of poultry and 
        migratory bird pathways, and in collaboration with Federal 
        partners to ensure the importation and exportation of healthy 
        poultry and fowl.

Containment and Rapid Response
    Protection of travelers and integrity of safe trade depend on 
containment and rapid response actions. This is one of the most 
important areas in which CDC is strengthening its capacity:

  <bullet> CDC is a leader in a USDA-coordinated multi-agency, 
        scenario-based plan to help ensure a seamless response to the 
        first animal and human outbreaks caused by H5N1 virus or other 
        highly pathogenic influenza strains in the United States. A 
        ``playbook'' of possible scenarios for first outbreaks has been 
        developed, and CDC will participate with other agencies in 
        conducting exercises with these scenarios in the coming months.

  <bullet> Under the Security and Prosperity Partnership, CDC also 
        works with our Canadian and Mexican neighbors on public health 
        issues related to the detection and containment of influenza 
        virus infection at out borders. CDC serves on a border working 
        group that includes representatives from Canadian and Mexican 
        public health departments to plan and implement border 
        guidance.

  <bullet> CDC regularly updates HHS regulations to prohibit the 
        transfer of dangerous select agents into the United States. In 
        the case of highly pathogenic influenza strains such as the 
        H5N1 virus, CDC is acting quickly to prohibit entry of birds 
        and bird-products from countries with confirmed or suspected 
        cases.

  <bullet> Using regularly appropriated funds and Supplemental 
        Emergency funds from FY 2005 and FY 2006, CDC has significantly 
        enhanced vital quarantine stations at key points of entry, 
        which provide first-line defense to detect and evaluate 
        potentially infectious diseases arriving in the United States. 
        Key roles for the quarantine stations include working in 
        concert with state and local health departments and with other 
        Federal partners to address community mitigation of outbreaks 
        due to highly contagious diseases, and preparing for influenza 
        pandemics using 21st century approaches to traditional non-
        pharmaceutical interventions. These types of interventions 
        include voluntary isolation and quarantine, social distancing, 
        and infection control strategies. The partnerships are 
        essential to prevent importation and interstate spread of 
        communicable diseases through U.S. ports of entry and in 
        ensuring a coordinated, effective response to emerging disease 
        threats. Sixteen of these quarantine stations currently are in 
        international airports across the United States, and two others 
        are located at major points of entry across the southern land 
        border; two additional stations are scheduled for opening by 
        the end of Calendar Year 2006. Depending on resources, CDC 
        plans to increase the number of quarantine stations to as many 
        as 25 in FY 2007.

  <bullet> Through $350 million in FY 2006 Emergency Supplemental 
        funding, CDC is administering HHS collaborative agreements with 
        62 grantees--50 states, six U.S. territories, and six large 
        metropolitan areas. The collaborative agreements are helping 
        these grantees move forward on their preparedness efforts, 
        including identification of potential gaps and carrying out 
        exercises of components of their preparedness plans.

  <bullet> CDC is working closely with partners at the Department of 
        Labor and HHS to identify research gaps regarding personal 
        protective equipment for use during an influenza pandemic and 
        to update guidance for the public, first responders, and other 
        health professionals. Developing effective guidance is a high-
        priority area that also is highly complex, requiring unified 
        national guidance on use of masks, respirators, and other 
        resources, as well as decisions about how to store, distribute, 
        and replace these materials quickly during an influenza 
        pandemic.

  <bullet> CDC and other agencies also are developing practical 
        guidance on non-pharmaceutical interventions that will be 
        especially important during the early months of an influenza 
        pandemic. This includes guidance for healthcare facilities and 
        general public infection control, social distancing practices, 
        isolation procedures, criteria for school and business 
        closures, and voluntary quarantine measures if necessary. 
        Additionally, CDC is enhancing its research agenda around the 
        effectiveness of various non-pharmaceutical interventions that 
        will be necessary to mitigate the impact and contain a pandemic 
        influenza virus internationally, at our borders and within 
        communities in the United States.

Communications
    Travel and trade concerns are closely allied with the need for 
timely, accurate information for the public, health professionals, 
businesses, and other groups. HHS and CDC work closely together to 
provide a broad-based approach to public communications activities, 
including efforts that incorporate risk communications principles that 
will be essential when a pandemic occurs. This system of communications 
activities already is helping alert and educate the public, health 
professionals, authorities, and others about practical action to take 
in preparation for an influenza pandemi:.

  <bullet> The HHS www.pandemicflu.gov website, the CDC Traveler's 
        Health web section (www.cdc.gov), the CDC Information Hotline, 
        the Health Alert Network, and the Epi-X alert network are 
        primary components of a multi-faceted public communications 
        initiative.

  <bullet> CDC and other agencies also collaborate with DHS on 
        developing practical guidance for the private sector, 
        educational institutions, and other priority groups preparing 
        for a pandemic.

  <bullet> HHS is nearing the end of a series of comprehensive state 
        pandemic influenza planning summits across the country that 
        have significantly raised awareness of the potential impact of 
        an influenza pandemic. These summits have served in many cases 
        as an initiative for new levels of contacts between the Federal 
        Government and state and local preparedness groups. CDC has 
        been a leader in each of these events and continues to follow-
        up with states, territories, and tribal leaders.

  <bullet> From a communications perspective, the administration of the 
        state and local collaborative agreements noted above provides a 
        highly effective forum for CDC and grantees to communicate 
        frequently, which helps to integrate effective risk 
        communications principles into overall pandemic communications 
        planning and activities.

Challenges
    Despite these important strides, our Nation is not yet where we 
need to be in our public health preparedness for the next influenza 
pandemic. HHS has led advances in many areas that will contribute to a 
quick and effective response. CDC, NIH, the Food and Drug 
Administration, and other HHS agencies are committed to the best 
possible preparedness and response to an influenza pandemic. The 
advances we are making have resulted from three major factors: 
dedication to the highest science-based standards, a spirit and history 
of collaborative learning and action, and the necessary public and 
private support of required fiscal and human resources.
    We face some significant challenges. A pandemic will require rapid 
response on many levels--from U.S. communities to areas across the 
world. Rapid outbreak response requires rapid detection, seamless 
reporting, prompt, transparent information sharing, and strong, ongoing 
core laboratory and research capacity. The next influenza pandemic is a 
multi-year threat that requires a multi-year approach to fiscal and 
human resources. This is particularly important as the Federal 
Government seeks ways to encourage ongoing involvement of partners such 
as vaccine manufacturers, as well as continued state and local 
preparedness. Thank you for the opportunity to share this information 
with you. I am happy to answer your questions.

    Senator Smith. Doctor, we read of bird flu in other 
countries among those handling chickens and ducks and other 
things, and I'm wondering, do we have any instance of that 
coming into the U.S.? I'm not aware of one.
    Dr. LeDuc. There have been cases of highly pathogenic avian 
influenza in the United States, but only in poultry. I'm 
unaware of any human cases----
    Senator Smith. Human, yes.
    Dr. LeDuc.--in the United States.
    Senator Smith. So, nothing as it relates to travel that has 
been----
    Dr. LeDuc. No, no.
    Senator Smith.--brought through an airport, that you know 
of.
    Dr. LeDuc. No, not that I'm aware of.
    Senator Smith. OK.
    Mr. Secretary, I know there is always a debate as to what 
the role of tourism ought to be within the Federal Government, 
whether you leave it to the market or government can do more to 
make it a sparkplug. Some countries even have Cabinet-level 
secretaries in charge of tourism. Do you believe tourism has a 
sufficient place in the Federal Government?
    Mr. Lavin. Well, Mr. Chairman, I agree that tourism 
definitely needs a strong voice in the Federal Government. I 
can assure you, the Secretary of Commerce--beyond my particular 
role, the Secretary himself--has personally committed to seeing 
that the tourism industry in the United States is strong and 
successful. And I know he participates personally with our 
Travel and Tourism Advisory Board. He charged the Travel and 
Tourism Advisory Board to develop a national tourism strategy. 
He personally convened the meeting of the Advisory Board in New 
Orleans after Katrina to, again, ask them what could be done to 
put a recovery program into place. So, he is personally 
committed to the success of that industry.
    Senator Smith. It's my understanding that the Department of 
Commerce recently received the results from a one-year tourism 
promotion campaign in the United Kingdom. Is that correct?
    Mr. Lavin. That is correct, sir.
    Senator Smith. Can you share any of the results of that $6 
million we spent in the U.K.?
    Mr. Lavin. Right. We've spent $6 million in advertising in 
the United Kingdom, and then we are in the middle of a $4 
million campaign right now in Japan. And we run a series of 
surveys before and after, to test the effectiveness. And we 
ended up with a number of statistics that we thought were 
significant, in terms of the impact they had on awareness of 
the U.S. as a tourism destination and the number of tourists 
who've subsequently visited the U.S. and had seen those ads. 
And I think, in the latter category, we ended up with something 
like 380,000 or 360,000 tourists who had visited the U.S. and 
had seen the ads. Is that correct; 360,000? In the former 
category, I think we determined that awareness of the United 
States went up by just over 10 percent.
    Senator Smith. Was there any uptick, in terms of tourism 
from the United Kingdom to the United States because of this?
    Mr. Lavin. Well, there certainly is an uptick because of 
tourism advertising from the United Kingdom, and we can also 
discern that a number of these tourists saw the ads. It's----
    Senator Smith. Yes.
    Mr. Lavin.--a bit more conjectural, Mr. Chairman, to----
    Senator Smith. Yes.
    Mr. Lavin.--determine how to--how do we ascribe the role of 
the ad in shaping that decision?
    Senator Smith. Sure. I also understand you have a clip.
    Mr. Lavin. We do have. I'd be happy to show the Senators 
the ad.
    Senator Smith. We'd love to see it.
    [Video presentation.]
    Senator Smith. The only way that could have been any 
better, is if Oregon had been mentioned.
    [Laughter.]
    Senator Smith. Hawaii, too.
    [Laughter.]
    Senator Smith. Very good.
    Senator Inouye, questions?
    Senator Inouye. I note in your testimony that 97 percent of 
visa applications are processed in 1 or 2 days. Is that 
correct, Madam Secretary?
    Ambassador Nesbitt. Not exactly, sir. The 97 percent are 
people who have been interviewed and approved for a visa. Once 
they're approved, then they get their visa within 1 to 2 days.
    Senator Inouye. Is the visa policy uniform throughout the 
world, or are certain countries favored?
    Ambassador Nesbitt. It's uniform throughout the world, in 
the sense that there is set legislative criteria that every 
applicant has to meet in order to qualify for a visa, and that 
criteria is the same everywhere throughout the world.
    Senator Inouye. Now, for example, do you have group 
issuance in all countries?
    Ambassador Nesbitt. No, we don't have group issuance 
anywhere. We interview, and we're required to interview, every 
individual and make a judgment about every individual.
    Senator Inouye. You don't have any group issuance?
    Ambassador Nesbitt. Not to my knowledge, sir. There are 
many instances in which there are performers, and we would have 
the entire group come at the same time. But we----
    Senator Inouye. Then why are we working on a special 
program for the Chinese for group issuance?
    Ambassador Nesbitt. That's a little bit different. We do 
not--we are not considering group issuance. The Chinese--and 
perhaps my colleague from Commerce would like to discuss it a 
little further--the Chinese do have certain agreements under 
their approved destination status program. And, some of the 
agreements that they currently have provide for group 
issuances. One of the reasons we have not reached an agreement 
with the Chinese is that we can't do group issuances.
    Senator Inouye. Do we have pre-clearance in most countries?
    Ambassador Nesbitt. The Department of State does not have 
pre-clearance during the visa process, but the Department of 
Homeland Security has pre-clearance or pre-inspection in 14 
locations in 5 countries at present.
    Mr. Jacksta. I think I can answer that, sir. We have pre-
clearance in Canada, Aruba and in the Bahamas, where we have 
CBP officers stationed in those locations to inspect the 
individuals before they get on the plane to the United States. 
When the flight arrives in the United States, that allows them 
to go to the domestic terminal directly.
    Senator Inouye. None in the European countries?
    Mr. Jacksta. In the European environment, we have what we 
call the IAP program, the Immigration Assistance Program, where 
we station officers--a few officers over in Poland, in the 
Netherlands, and the U.K. They work with the airlines to assist 
with the review of documentation to ensure only individuals 
that have the proper documentation get on the planes to the 
United States.
    Senator Inouye. Do we do that in Latin America? South 
America?
    Mr. Jacksta. Right now, there is nothing that we do in 
those locations with the pre-clearance or the IAP programs, but 
we are looking at additional locations, and hopefully we'll be 
able to expand the programs to those locations that are the 
highest risk for possible fraudulent documents and individuals 
using fraudulent documents to get into the United States.
    Senator Inouye. Do we have that in Asia?
    Mr. Jacksta. In Asia, right now, we do not. But we're also 
looking at certain airports overseas, in Asia, that we think 
would be the right places to go to have our officers do 
prescreening of certain travelers to ensure that there aren't 
fraudulent documents being utilized to get into the United 
States. Our strategy is to extend the border out and to stop 
the individuals before they get on the airlines, which poses a 
security risk.
    Senator Inouye. I've been receiving communications from the 
Republic of Korea about special visa arrangements. What is the 
status of those discussions?
    Ambassador Nesbitt. I believe you're talking about the Visa 
Waiver Program, sir. South Korea has been interested, for many 
years, in qualifying for the Visa Waiver Program, and we have 
ongoing discussions with them about what the requirements are. 
Ultimately, that's a decision that would be made not purely by 
the State Department, but in conjunction with DHS, once Korea 
meets all of the legislative criteria for the Visa Waiver 
Program.
    Senator Inouye. I was told that we discontinued our program 
we had in selling tourism in Europe, internationally. Is that 
correct?
    Mr. Lavin. The active promotional program run by the 
Federal Government is the ad campaign which we've run for 2 
years in the United Kingdom. There are a range of other 
promotional programs. Most tourism promotion in the United 
States is handled by localities or municipalities or by private 
companies. But, at the Federal Government level, the only 
program we've run is this 2-year program in the U.K., Senator.
    Senator Inouye. Is it true that most European countries 
have the person in charge of tourism in a Cabinet position?
    Mr. Lavin. I couldn't speak to what most European countries 
do. I think we are probably one of the largest markets in the 
world that doesn't centrally direct tourist promotion from a 
national level. And if you look in markets such as Australia or 
Germany, it is typically done through a national body; whereas, 
in the United States it is typically done by states and 
localities.
    Senator Inouye. I see. Well, things have improved.
    My last question is to the Doctor, here. Are we prepared?
    Dr. LeDuc. Are----
    Senator Inouye. I know this is a broad question.
    Dr. LeDuc. Are we prepared for a----
    Senator Inouye. A pandemic.
    Dr. LeDuc.--pandemic of avian influenza? We're certainly 
more prepared than we were yesterday, and we continue to be 
making efforts to prepare both the Nation and globally.
    There clearly is a tremendous amount of work yet to be 
done. And I think the magnitude of the problem is such that 
it's not going to be an easy fix. I think this is a marathon, 
as opposed to a sprint, as our Director likes to say.
    Senator Inouye. I believe I saw a movie, not too long ago, 
where a plane was approaching the United States and it was 
discovered that one of the passengers had avian flu, or 
something like that, and they didn't know what to do. What 
would you suggest, if that ever happened?
    Dr. LeDuc. We have in place a number of quarantine stations 
at our international air facilities. I think the total number 
of quarantine stations are 18 today, and will be 20 by the end 
of either this year or next year, I forget which. And I know 
that there is a desire to increase that number to at least 25 
so that all the major air and land crossings have a quarantine 
station. The scenario would be that if there was a--and this 
happens with some regularity--if there's a passenger that 
becomes ill on an airline, they call in advance, the airplane 
is met, the individual is handled locally at the airport, put 
into isolation, if appropriate, and taken directly to medical 
facilities. We have medical officers at many of our quarantine 
stations, and the goal is to have them at all of them.
    Senator Inouye. And that process is now in place?
    Dr. LeDuc. Yes, sir. There are 18 in place today. Not all 
of those have medical officers, but the majority do.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Inouye.
    Ambassador Nesbitt, I just have one question, then need to 
get--one additional question--then we need to go to the second 
panel before--I think some votes are scheduled shortly after 
11.
    The Western Hemisphere Travel Initiative is nearing a 
deadline without any clarification on how this will be tested 
or implemented. At least that's my understanding. The cruise 
industry is also very concerned about the phasing-in of this 
Travel Initiative, beginning with air and sea travel in 
December 2006; and then land travel in 2007. They're concerned 
about confusion of the passengers on what documentation they 
will need, and when. I wonder if you agree with that concern, 
and how we can avoid all the confusion that might result.
    Ambassador Nesbitt. We're certainly aware of the concern, 
and we understand the concerns associated with it. The January 
1, 2008, deadline is set in law, so we are doing our best to 
try and meet that deadline. The division between having an 
implementation date that applies to air and sea, versus land-
border crossings, that decision was arrived at in an effort to 
try and obtain the benefits of going to a reduced number of 
documents as soon as possible. And since most travelers who fly 
internationally already use a passport, the thinking was that 
it would be less burdensome and could be implemented earlier, 
and that we would then be able to give people more time to 
prepare for the land-border crossings.
    But, yes, we're aware that there are concerns about that, 
and we will try to address them.
    Senator Smith. That's great.
    Thank you all for your testimony. We want to express our 
appreciation for what you do to promote tourism and to 
facilitate it. And thank you so very much.
    Our second panel will have four witnesses: Mr. Jay Rasulo, 
Chairman of Walt Disney Parks and Resorts; Mr. Jonathan Tisch, 
who is the CEO and Chairman of Loews Hotels; Mr. Todd Davidson, 
Executive Director, Oregon Tourism Commission; and, finally, 
Dr. Virginia, or ``Ginny,'' Pressler, Senior Vice President of 
Strategic Business Development at Hawaii Pacific Health, and 
she is Senator Inouye's witness.
    Senator Smith. Mr. Rasulo, why don't we start with you?

   STATEMENT OF JAY RASULO, CHAIRMAN, WALT DISNEY PARKS AND 
              RESORTS; CHAIRMAN, TRAVEL INDUSTRY 
        ASSOCIATION; CHAIRMAN, U.S. TRAVEL AND TOURISM 
                         ADVISORY BOARD

    Mr. Rasulo. Great, thank you.
    Mr. Chairman, on behalf of our Nation's travel and tourism 
industry, I appreciate the opportunity to appear before you to 
discuss America's competitive position within the fast-growing 
world travel and tourism market.
    I speak today from three perspectives. First, as 2006 
Chairman of the Travel Industry Association, which represents 
the $600-billion U.S. travel industry, I also serve as Chairman 
of the U.S. Travel and Tourism Advisory Board. This is a panel 
of the industry's top CEOs that is charged with advising the 
Department of Commerce on the creation of national strategy to 
compete for a greater share of the world's growing travel and 
tourism market. And, finally, I'm Chair of Walt Disney Parks 
and Resorts, which operates 11 theme parks on three continents, 
a top-rated cruise line, and 32,000 hotel rooms. Here in the 
U.S., our vacation businesses are responsible for creating 
175,000 jobs, while contributing nearly $9 billion in economic 
revenue each year to their local economies.
    In each of these roles, I've spent a lot of time assessing 
the future of the world travel and tourism market. There are 
three realities about that market that I'd like to share with 
you today.
    The first reality is that, in terms of future job creation 
and economic impact, travel and tourism is one of the most 
significant growth industries in the world. Country-to-country 
travel is expected to double over the next 15 years, driving a 
huge share of the world's job creation, economic growth, and 
tax revenue. This is a market that is well worth the United 
States winning.
    The second reality is that, within this fast-growing 
market, consumer expectations, their behaviors, and their 
booking patterns are evolving at breakneck speed. Today's world 
travelers not only have more money to spend, they have an 
increasing number of worthwhile destinations to choose from, 
they have better access to information, and they expect a 
higher level of service and ease of movement than ever before. 
In short, they expect travel destinations to compete for their 
business. Countries that adapt to these two realities will 
position themselves to reap a windfall of new jobs and economic 
growth.
    And that brings me to the third reality: The United States 
will have to adopt a much more competitive mindset in order to 
reap the benefits of the windfall I've just described. The days 
in which we were able to rely simply on reputation and word-of-
mouth to attract international travelers are long gone. In 
order to succeed in this new world market, we have to compete.
    To illustrate this reality, I'd like your permission to 
show a short video that has been prepared by our sister brand 
at Disney, ESPN, which illustrates the high stakes involved in 
this growing competition.
    Senator Smith. Go right ahead.
    [Video presentation.]
    Senator Smith. Hence, the need of this hearing.
    [Laughter.]
    Mr. Rasulo. So, that's clearly an outcome that we do not 
want to see. But my fear is that we will, unless we adjust our 
game plan.
    Although visitation continues to rise in the U.S.--and this 
year, we are projected to reach an all-time high--the rest of 
the world is doing even better and outpacing our growth. In 
fact, since 1992, America's share of the world travel market 
has fallen 35 percent. Had the U.S. grown as quickly as the 
rest of the world over this period, we could have added $286 
billion in economic revenue to the U.S. economy and millions of 
additional jobs.
    In order to recapture our share of this growing market, 
there are two investments that we must make. First, we must ask 
people to visit us by investing in a nationally-coordinated 
marketing strategy to move the United States higher on the list 
of dream destinations. Second, we must invest in creating a 
first impression of hospitality and friendliness at our 
borders. Relatively small investments in these two areas will 
yield very high returns.
    For each 1 percent of market share that we gain back, $12.3 
billion is added to the U.S. economy, 150,000 more jobs are 
created, and $2.1 billion in additional tax revenue is raised. 
And I'm pleased to say that the Travel and Tourism Advisory 
Board is now engaged in putting together a recommended national 
strategy to address these two areas. We expect to formally 
submit this recommended strategy to Secretary Gutierrez later 
this summer.
    I'll conclude by highlighting an even greater reward, the 
opportunity to win hearts and minds around the world by 
signaling that our doors are open and that our welcome mat is 
out.
    We all took notice of the recent Pew Global Attitude 
Survey, which found that the opinion of the United States had 
fallen in many parts of the world. In today's environment, 
America's image and reputation matter more than ever, and the 
Pew Survey was a wake-up call that a great--the greater 
character of our country and the friendliness of our people are 
not adequately reflected in world opinion.
    I suggest that my industry, the travel and tourism 
industry, can be a powerful partner to help overcome these 
misperceptions. I also add that the simple act of asking people 
to visit us, whether through marketing or friendlier borders, 
will communicate a great deal about our country, as well. It 
will demonstrate to the world that we're an open, welcoming, 
and friendly society, and the millions of travelers who accept 
the invitation will then meet our people and experience our 
values firsthand, generating the kind of positive word-of-mouth 
that marketers can only dream of. With apologies to Von 
Clausewitz, tourism is diplomacy by other means.
    Considering the world we live in today, we simply can't 
afford not to invest in this type of grassroots public 
diplomacy. With the right investment, we can lay out the 
biggest, brightest, and most alluring welcome mat the world has 
ever seen.
    Thank you, and I'm happy to answer any questions.
    [The prepared statement of Mr. Rasulo follows:]

   Prepared Statement of Jay Rasulo, Chairman, Walt Disney Parks and 
 Resorts; Chairman, Travel Industry Association; Chairman, U.S. Travel 
                       and Tourism Advisory Board
    Mr. Chairman, on behalf of the Nation's travel and tourism 
industry, I appreciate the opportunity to appear before you to discuss 
America's competitive position within the fast-growing world travel and 
tourism market.
    I speak today from three perspectives.
    First, as 2006 Chairman of the Travel Industry Association, which 
represents the $600 billion U.S. travel industry.
    I also serve as Chairman of the U.S. Travel and Tourism Advisory 
Board, a panel of the industry's top CEOs that is charged with advising 
the Department of Commerce on the creation of a national strategy to 
compete for a greater share of the growing world travel and tourism 
market.
    And finally, I am Chairman of Walt Disney Parks and Resorts, which 
operates 11 theme parks on three continents, a top-rated cruise line, 
and 32,000 hotel rooms. Here in the U.S., our vacation businesses are 
responsible for creating 175,000 jobs, while contributing nearly $9 
billion in economic revenue each year to their local economies.
    In each of these three roles, I have spent a great deal of time 
assessing the future of the world travel and tourism market. There are 
three realities that I'd like to talk about today.
    The first reality is that in terms of future job creation and 
economic impact, travel and tourism is one of the most significant 
growth industries in the world. Country-to-country travel is expected 
to double over the next 15 years, driving a huge share of the world's 
job creation, economic growth and tax revenue.
    This is a market that is well-worth winning.
    The second reality is that within this fast-growing market, 
consumer expectations, behaviors and booking patterns are evolving at 
breakneck speed. Today's world travelers not only have more money to 
spend, they have an increasing number of worthwhile destinations to 
choose from, they have better access to information, and they expect a 
higher level of service and ease of movement than ever before.
    In short, they expect travel destinations to compete for their 
business.
    Countries that adapt to these two realities will position 
themselves to reap a windfall of new jobs and economic growth.
    And that brings me to the third reality: The United States will 
have to adopt a much more competitive mindset in order to reap the full 
benefits of the windfall I've just described.
    The days in which we were able to rely on reputation and word-of-
mouth alone to attract international travelers are long gone. In order 
to succeed in this new world market, we will have to compete.
    To illustrate this reality, I'd like your permission to show a 
short video, produced by our sister brand, ESPN, which illustrates the 
high stakes involved in this growing competition:
    [ESPN VIDEO]
    This is an outcome we do not want to see. But my fear is that we 
will . . . unless we adjust our game plan.
    Although visitation continues to rise in the U.S., and this year we 
are projected to reach an all-time high, the rest of the world is doing 
even better and outpacing our growth.
    In fact, since 1992, America's share of the world travel market has 
fallen 35 percent.
    Had the U.S. grown as quickly as the rest of the world, we could 
have added $286 billion in economic revenue to the U.S. economy, and 
millions of additional jobs.
    In order to re-capture our share of this growing market, there are 
two investments we must make.
    First, we must ask people to visit us, by investing in a 
nationally-coordinated marketing strategy to move the United States 
higher on their list of dream destinations.
    Second, we must invest in creating a first impression of 
hospitality and friendliness at our borders.
    Relatively small investments in these two areas will yield a very 
high return, bringing billions in revenue and millions of additional 
jobs to the United States.
    And I'm pleased to say that the Travel and Tourism Advisory Board 
is now engaged in putting together a recommended national strategy to 
address these two areas.
    We expect to formally submit this recommended strategy to Secretary 
Gutierrez later this summer.
    I will conclude by highlighting an even greater reward--the 
opportunity to win hearts and minds around the world, by signaling that 
our doors are open and our welcome mat is out.
    We all took notice of the recent Pew Global Attitudes Survey, which 
found that opinion of the U.S. has fallen in many parts of the world.
    In today's environment, America's image and reputation matter more 
than ever. And the Pew Survey was a wake up call that the great 
character of our country and the friendliness of our people are not 
adequately reflected in world opinion.
    I suggest that my industry--the travel and tourism industry--can be 
a powerful partner to help overcome these misperceptions.
    And I'd also add that the simple act of asking people to visit us--
whether through marketing or friendlier borders--will communicate a 
great deal about us as a country.
    It will demonstrate to the world that we are an open, welcoming and 
friendly society.
    And the millions of travelers who accept the invitation will then 
meet our people and experience our values firsthand, generating the 
kind of positive word-of-mouth that marketers can only dream of.
    With apologies to Von Clausewitz, tourism is diplomacy by other 
means.
    Considering the world we live in today, we can't afford not to 
invest in this form of grassroots public diplomacy.
    With the right investment, we can lay out the biggest, brightest, 
most alluring welcome mat the world has ever seen.
    Thank you.

    Senator Smith. Thank you.
    Mr. Tisch?

   STATEMENT OF JONATHAN M. TISCH, CHAIRMAN, TRAVEL BUSINESS 
             ROUNDTABLE; CHAIRMAN/CEO, LOEWS HOTELS

    Mr. Tisch. Chairman Smith, Co-Chairman Inouye, thank you 
for the invitation.
    I'm Jonathan Tisch. I am the Chairman and CEO of Loews 
Hotels. I'm also the Chairman of the Travel Business 
Roundtable, an organization with 85 members representing 
various aspects of the travel and tourism industry, retail, 
sports, publishing, and our mission is to educate our 
policymakers about the significant economic and social 
contributions our industry makes to this country.
    I also wear a third hat. I serve as Chairman of NYC & 
Company, which is New York City's travel, tourism, and 
visitor's agency.
    Along with our strategic partner, the Travel Industry 
Association of America, the Travel Business Roundtable 
represents all sectors of the $650-billion U.S. travel and 
tourism industry. As you've heard, 5 years after 9/11, the good 
news is that people are traveling, once again. But the real 
promise of travel and tourism lies not in what has occurred, 
but what we can still achieve. International travel is on the 
rise; however, we are uncertain if we will reach pre-9/11 
numbers this year. In addition, the uptake in international 
visitation, it should be noted, is largely attributable to 
increases in visitors from Canada.
    Today, I'd like to discuss some of the barriers that impede 
travel within, but especially to, the United States, their 
consequences on our Nation's economy, social and homeland 
security issues, and ways which the industry can help lift the 
barriers while helping to secure our borders.
    Please be mindful that there is no industry more committed 
to finding the proper balance between security at our Nation's 
borders and facilitating free and open commerce and travel 
across those same borders. As we saw on 9/11, a terrorist 
attack can cripple our entire industry.
    The four barriers I'd like to discuss today are the WHTI, 
entry-exit procedures and visa policy, the perception of the 
hurricane-ravaged Gulf Coast, and, as Jay mentioned, the 
deteriorating image of U.S. around the world.
    The travel and tourism industry fully supports the homeland 
security intent of WHTI, which calls for fewer and more secure 
travel documents for those traveling across our borders. We 
have never questioned why, or if, WHTI should be implemented. 
We are concerned with how and when. The land-border deadline is 
approaching, but no procurement for alternate travel documents 
has been issued, nor has any testing of cards or readers been 
conducted, and time for mounting a public education campaign 
and issuing the cards to the millions who will need them is 
running out.
    TBR and TIA commend Chairman Ted Stevens and Senator 
Patrick Leahy for their amendment to the immigration reform 
bill extending the statutory deadline to June 1, 2009. We 
realize that a straight extension is not the entire solution to 
WHTI, but it's a good first step to ensure that there is enough 
time to get it right.
    While the newly created visa business centers have helped 
alleviate some of the hassles of international travel, there 
are still under-staffed Consulates, long interview wait times, 
and very long trips to get to the interview. The average visa 
wait time in Brazil is 70 days, while the average in India is 
132 days. These lengthy times are clearly unacceptable.
    Fortunately, wait times in countries such as China and 
Korea have been reduced, due to additional staffing and 
expansion of interview hours. Being in the hotel business, we 
all understand that you never get a second chance to make a 
first impression. When a guest arrives, he should be looked in 
the eye, greeted with a smile, and offered world-class service. 
If our front desk agent does that, I increase my odds of the 
guest returning to my hotel. The same should apply to visitors 
to our country.
    CBP and Transportation Security Administration inspectors, 
as well as consular officers overseas, should receive customer 
service training and be evaluated based on their performance in 
keeping with new professional standards. In addition, staffing 
levels should be closely monitored to utilize inspectors' 
efficiency and avoid backlogs.
    When Hurricane Katrina hit the Gulf Coast, it wiped out one 
of the Nation's most vibrant and rapidly growing travel and 
tourism economies. There will be a long recovery time. 
Unfortunately, international travelers and Americans alike 
still perceive the devastation and despair immediately 
following Katrina as the current norm. We must reverse this 
image. Travel and tourism was the heart and soul of the Gulf 
Coast. The region is beginning its recovery, but the area still 
vitally needs additional housing for workers to return to the 
area, and, more importantly, aid for changing the negative 
perception of the area. A promotion campaign to let the world 
know the once-devastated region is now open for business is 
desperately needed. We suggest a one-time appropriation to the 
Mississippi Gulf Coast and New Orleans Convention and Visitors 
Bureau to support this effort.
    The final barrier I'd like to mention is one that Jay 
mentioned a moment ago, and that's America's deteriorating 
image abroad. The impediments we erect at our borders 
contribute to the ever-worsening image of our country overseas. 
Studies consistently show that when international travelers 
come to our country and experience American culture and 
hospitality firsthand, their perceptions of America, and 
Americans, change, almost without exception, for the better.
    So, in addition to serving as an important economic 
generator, travel and tourism is a very, very vital vehicle for 
diplomacy. As a Nation, we are not using this vehicle 
effectively. At a time when the U.S. is the travel bargain of 
the world, we are still losing international travel market 
share. Worldwide international travel increased at a rate of 52 
percent between 1992 and 2004, but, as you've heard, our 
overall market share has declined by 35 percent.
    Now that I've laid out our most difficult obstacles, let me 
pose a few solutions.
    The following are recommendations for Congress on how to 
alleviate the negative, unintended impacts of these barriers 
while continuing to strengthen border security.
    Grant an extension for WHTI, and work closely with State 
and DHS to effectively implement it.
    Direct the State Department and DHS to work with travel and 
tourism experts to include customer service and hospitality 
training in CBP and consular office curriculum and to assist in 
evaluating the inspection area for more effective queuing 
techniques and smarter use of staffing.
    And appropriate one-time funding to promote the Gulf Coast 
as a travel destination that is, as we say in New York City 
after 9/11, open for business.
    As you're aware, Secretary of State Rice and DHS Secretary 
Chertoff announced their joint vision for Secure Borders and 
Open Doors on January 17. Our industry fully endorsed this 
initiative and was encouraged by the announcement. We are now 
awaiting government action. The industry can play a significant 
role in both consular and customs officer training in the Model 
Ports of Entry program at Washington, Dulles, and Houston 
airports to help carry out this vision.
    The industry is also working with the Commerce Department 
through the U.S. Travel and Tourism Advisory Board. We're 
currently devising the Gulf Coast tourism revitalization 
recommendations and comprehensive national tourism policy 
recommendations, both commissioned by Secretary Gutierrez. It 
is essential that the public- and private-sectors work together 
to remove the barriers facing legitimate travelers wishing to 
visit the U.S.
    Marketing and promotion are also key pieces to the overall 
strategy. As an industry, we believe that a nationally-
coordinated marketing strategy is a crucial investment that we 
all must make. It's not enough to alleviate the burdens on 
travelers; we must also notify those travelers that the welcome 
mat has been rolled out.
    My final recommendation is one that Senator Dorgan 
mentioned while he was with us this morning, and that is for 
the private sector and the public sector to work more closely 
together. We, at the Travel Business Roundtable, for the past 5 
years, have been calling for a Presidential Advisory Council on 
Travel and Tourism, comprised of public, private, and 
nonprofit-sector individuals, and Federal, State, and local 
officials, whose goal it is to advance policy matters that 
impact tourism development. Most major nations, as you've 
heard, have made travel and tourism promotion and policy 
coordination of tourism issues centerpieces of their national 
economic growth plan. The United States must make the travel 
and tourism industry's growth a national priority, as well.
    In summary, the travel and tourism industry is an integral 
part of making America's economy, borders, and international 
relations strong. Our impact is clear. We must maximize our 
potential.
    Thank you for the opportunity. I look forward to answering 
any questions.
    [The prepared statement of Mr. Tisch follows:]

  Prepared Statement of Jonathan M. Tisch, Chairman, Travel Business 
                 Roundtable; Chairman/CEO, Loews Hotels
Introduction
    Good morning. I am Jonathan Tisch, Chairman and Chief Executive 
Officer of Loews Hotels, and Chairman of the Travel Business 
Roundtable. Loews Hotels, headquartered in New York City, operates 16 
distinct properties across the United States and 2 in Canada, including 
The Loews Regency in New York City and our most recent addition to the 
Loews family, The Madison, a Loews Hotel, here in Washington, D.C. The 
company employs more than 7,000 people across the U.S. The Travel 
Business Roundtable (TBR) is a CEO-based organization originally 
established to continue the momentum of the 1995 White House Conference 
on Travel and Tourism. TBR's mission is to educate elected officials 
and policymakers about the importance of our industry on the Nation's 
economic and social well-being. Along with our strategic partner, the 
Travel Industry Association of America (TIA), we represent all sectors 
of the U.S. travel and tourism industry.
    Chairman Smith and Ranking Member Dorgan, thank you for holding 
this important hearing on the state of the U.S. travel and tourism 
industry. It was my honor to have testified before this Subcommittee 
almost 4 years ago to report on the industry as it was beginning to 
recover from the horrific effects of September 11, 2001. At that time, 
our industry united to focus on getting travelers back on planes, in 
hotels and restaurants and to our theme parks, museums and shopping 
centers. The collective efforts of diverse travel and tourism interests 
have helped restore a great deal of confidence in travel to and within 
the U.S.
Current State of the Industry
    The travel and tourism industry defines the service economy across 
the globe, expecting to generate $6.5 trillion of economic activity 
around the world in 2006. \1\ Our industry creates jobs and careers; we 
fulfill important social policy goals, such as moving people from 
welfare to work; we contribute more than $99 billion in tax revenue for 
local, state and Federal Governments that support essential services; 
and we are one of very few industries that creates a multi-billion 
dollar trade surplus. We are a significant presence in all 50 states 
and 435 Congressional districts.
---------------------------------------------------------------------------
    \1\ World Travel and Tourism Council.
---------------------------------------------------------------------------
    Though the industry is comprised of approximately 18 distinct 
sectors, natural disasters, government mandates and global challenges 
can and do create industry unity. When Hurricane Katrina debilitated an 
entire region and destroyed once vibrant commerce, the industry united 
to help New Orleans and the Mississippi Gulf Coast begin rebuilding. 
When the U.S. Government promulgated a biometric passport deadline that 
the U.S. Government could not meet, the industry united to ensure that 
Visa Waiver Program (VWP) countries had sufficient time to produce the 
most secure travel documents possible. When studies showed (and 
continue to show) that the deteriorating international opinion of 
America and Americans could be changed when international travelers 
actually visit the U.S., the industry united to offer our services as a 
public diplomacy tool.
    Five years after 9/11, people are traveling again; industry 
employment is strong, directly providing 7.3 million U.S. jobs; and the 
industry continues to be an economic generator, accounting for roughly 
$645 billion in direct travel expenditures, $163 billion in direct 
travel-generated payroll and a $4 billion balance of trade surplus, to 
help offset a worsening national trade deficit. \2\ So, you may ask, if 
the industry has recovered since 9/11 and is currently healthy, why are 
we here today to discuss the current state of the travel and tourism 
industry? Simply stated: We could do much more.
---------------------------------------------------------------------------
    \2\ Travel Industry Association of America.
---------------------------------------------------------------------------
    The real promise of travel and tourism lies not in what has 
occurred but rather in what can yet be achieved--for America as an 
interdependent part of a global economy, in dissuading an increasingly 
hostile and skeptical world about our country and its people, and for 
border security policies that can protect our homeland without 
discouraging essential international commerce.
    International travel to the U.S., which reached its peak in 2000 
with 51.2 million visitors, hit its low in 2003 with only 41.2 million 
visitors. Since that time, international travel has been increasing 
steadily, reaching 49.4 million in 2005; however, we are still 
uncertain if we will reach pre-9/11 numbers this year. \3\ In addition, 
the uptake in international visitation is largely attributable to 
Canadian travel. In 2005, Canadian travel surpassed pre-9/11 levels 
with an increase of 2 percent. However, travel from overseas was still 
far from hitting the 2000 mark, down 16.5 percent. Apparently, we have 
much work to do to get overseas travelers back to the U.S. In addition, 
our strongest travel market, Canada, faces new challenges with the 
impending implementation of the Western Hemisphere Travel Initiative 
(WHTI).
---------------------------------------------------------------------------
    \3\ Office of Travel and Tourism Industries, U.S. Department of 
Commerce.
---------------------------------------------------------------------------
    Today I would like to discuss some of the barriers that impede 
travel within--but especially to--the United States, their consequences 
for our Nation's economic, social and homeland security, and the ways 
in which this industry can help lift the barriers while helping to 
secure our borders. It may sound like a contradiction in terms, but 
allow me to explain further.
    In April, the World Travel & Tourism Council (WTTC), in partnership 
with TBR and TIA, hosted the 6th Annual Global Tourism Summit here in 
the Nation's Capital. Corporate and government travel and tourism 
leaders attended from all across the globe. It may surprise some of you 
to know that most developed countries have Cabinet-level officials 
focused solely on generating tourism, and more than 130 countries have 
official, government-sponsored tourism offices. These nations have 
recognized that a coordinated national tourism policy fulfills numerous 
domestic goals, including job creation, expanding trade surpluses and 
creating economic vitality on a multi-regional basis within their 
countries. These nations also spend hundreds of millions of dollars on 
tourism promotion because they see a tremendous return on investment.
    During the summit, I frequently heard the question from our 
international counterparts, ``Do you still want us to come here?'' 
These visitors were asking in reference to the barriers--from the 
sometimes cumbersome visa process to the tighter requirements of WHTI 
to the long and unwelcoming inspections by Customs and Border 
Protection officials at U.S. ports-of-entry. International travelers 
are experiencing a certain ``hassle factor'' just to enter the U.S. 
that lends to a perception of ``fortress America.''
    As I enumerate the barriers that impede travel to the U.S. and hurt 
us in the global marketplace, please be mindful that there is no 
industry more committed to finding the proper balance between security 
at our Nation's borders and facilitating free and open commerce and 
travel across those borders. As we saw on 9/11, one terrorist attack 
can and will cripple our entire industry.
    What follows should update the Subcommittee on where our industry 
currently stands and where it hopes to go.
Barriers to Travel
Western Hemisphere Travel Initiative
    The travel and tourism industry fully supports the homeland 
security intent of the Intelligence Reform and Terrorism Prevention Act 
of 2004, calling for Customs and Border Protection officers to inspect 
fewer and more secure travel documents for those traveling across our 
borders. We have never questioned why or if the Western Hemisphere 
Travel Initiative, or WHTI, should be implemented. We are concerned 
with how and when.
    Our greatest concern about WHTI is Federal communication and 
cooperation. The Departments of State (State) and Homeland Security 
(DHS) are working together to release the Notice of Proposed Rulemaking 
(NPRM) on the air and sea WHTI deadline, scheduled for the end of this 
year. With that deadline only 7 months away and cruise travelers 
currently booking their winter trips, we do not know what the 
requirements will be. The absence of this rulemaking could cost the 
cruise lines millions in lost business.
    An even larger problem involves the January 1, 2008 deadline for 
land-border travel. TBR and TIA support the concept of a PASScard, 
which was introduced jointly by State and DHS in January, as a lower-
cost, easier-to-obtain and easier-to-carry variation of the passport. 
However, State and DHS cannot agree on what type of technology will be 
incorporated in the PASScard. Therefore, no procurement has been issued 
nor has any testing of cards or readers been conducted, and time for 
mounting a public education campaign and issuing the cards for the 
millions who will need them is running out.
    As the deadline approaches with no certain timeline in place from 
State and DHS, the travel and tourism industry is supportive of making 
sure there is sufficient time to implement WHTI effectively. If our 
northern border is congested on January 1, 2008 due to a poorly 
implemented WHTI, not only will the security of our borders be 
compromised but our relationship with our largest trading partner will 
also be damaged. TBR and TIA commend Senators Ted Stevens (R-AK) and 
Patrick Leahy (D-VT) for their amendment to the immigration reform bill 
extending the statutory deadline by 17 months to June 1, 2009. We 
realize that a straight extension is not the entire solution to WHTI, 
but it is a good first step to ensure that there is enough time to 
``get it right.''
    The U.S. Government has done little to pursue a true bilateral 
solution to WHTI with Canadian officials. The success of the NEXUS 
frequent traveler program at our northern border argues for increased 
cooperation with the Canadian government.
    The arrests of 17 terrorists in Canada on June 2 and 3 illustrates 
that terrorism still threatens our borders. While this incident is 
disheartening, it is also encouraging in that these terrorists were 
apprehended before they were able to attack. The capture of these men 
was the result of cooperative counterterrorism investigations between 
U.S. and Canadian officials. This example shows us that working on a 
bilateral approach to WHTI with the Canadian government on the 
development of alternate travel documents is essential for ensuring our 
northern border is as secure as possible.
    As with biometric passports for Visa Waiver Program (VWP) countries 
one year ago, we must secure the appropriate amount of time to do the 
job at hand properly. Our allies around the world deserve that, and our 
security demands it.
Perception of the Gulf Coast
    Almost one year ago, the worst natural disaster this country has 
ever seen ripped through our Nation's Gulf Coast, destroying homes, 
families, businesses and a way of life. Hurricane Katrina, followed by 
Hurricanes Rita and Wilma also wiped out one of the Nation's most 
vibrant and rapidly growing travel and tourism economies. Overall, in 
the affected areas of Louisiana, Mississippi and Alabama, the travel 
and tourism industry accounted for 260,000 jobs and a payroll income of 
$3.7 billion. In 2004, the industry generated $18.3 billion in travel-
related sales for the region. Many in our industry, like so many 
others, lost everything.
    In Katrina's aftermath, the industry showed great leadership and 
cooperation. Travel and tourism was the heart and soul of the Gulf 
Coast. The region is beginning its recovery; New Orleans welcomed 
350,000 visitors to Jazz Fest, and three of the Mississippi Gulf Coast 
casinos have reopened and are operating at full capacity. 
Unfortunately, international travelers and Americans alike still 
perceive the devastation and despair immediately following Katrina as 
the current norm. We must erase these images. TBR and TIA, on behalf of 
the industry, offered policy recommendations to Congress immediately 
following the hurricanes. Many tax provisions were included in the 
hurricane relief package passed by Congress and signed by the President 
in December, but tax incentives for conventions and other visitors to 
the area, additional housing for workers to return to the area, and 
most importantly, a promotion campaign to let the world know the once 
devastated region is now open for business are still desperately 
needed.
    The U.S. Travel and Tourism Advisory Board (USTTAB), of which I am 
a member, has issued recommendations to Commerce Secretary Carlos 
Gutierrez at his request that detail these lingering needs, and we 
would be happy to share them with the Subcommittee.
Entry-Exit Procedures and Visa Policy
    As stated earlier, overseas visitors have been traveling to the 
U.S. less frequently since 2000. According to the U.K. Travel 
Barometer, since 2004, U.K. citizens are consistently attributing the 
top barrier to travel to the U.S. as entry procedures, from poor 
information about requirements to long visa processing times. \4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Commerce.
---------------------------------------------------------------------------
    When an overseas traveler arrives in the United States, his first 
point-of-contact is a CBP officer, and it could take up to 2 hours in 
line before this exchange even takes place. Being in the hotel 
business, I understand that you never get a second chance to make a 
first impression. When a guest arrives, he should be looked in eye, 
greeted with a smile and offered world-class service. If our front desk 
agent does just that, I increase my odds of his returning to my hotel. 
The same should apply to guests of our country. CBP and Transportation 
Security Administration (TSA) inspectors, as well as consular officers 
overseas, should receive customer service training, and be evaluated 
based on their performance in keeping with new professionalism 
standards.
    In addition, staffing levels must be closely monitored to utilize 
inspectors efficiently and avoid backlogs. As reported by USA Today on 
Monday, wait times in security lines still vary widely across the 
country. While TSA screener staffing has increased in locations such as 
Kahului Airport in Maui, where wait times are minimal, staffing has 
been decreased at Orlando International Airport, where wait times have 
in some cases exceeded 50 minutes.
    Leaders in the industry have offered our expertise in these areas 
to work with DHS and State to conduct training at the Federal Law 
Enforcement Training Center (FLETC) and consult with airports on queue 
management and creating a more welcoming atmosphere. The industry is 
working closely with State and DHS on a Model Ports-of-Entry program 
using Washington Dulles and Houston as pilot airports. The objective is 
to begin carrying out the Rice-Chertoff Joint Vision, which I will 
discuss in more detail later in my testimony.
    While the newly created Visa Business Centers have helped alleviate 
some hassles of the international traveler, the burdens on travelers 
due to understaffed Consulates, long interview wait times and long 
trips to the interview are not eased. For instance, the average visa 
wait time in Brazil is 70 days, while the average in India is 132 days. 
Considering the informal goal within the State Department is not having 
wait times exceed 30 days, these lengthy wait times are unacceptable. 
Fortunately, not all the news is bad since wait times in countries like 
China and Korea have been reduced due to additional staffing and 
expansion of interview hours. Ultimately, it comes down to providing 
sufficient resources (staff, interview space, etc.) to both effectively 
screen visa applicants and efficiently process those individuals who 
simply wish to travel here for pleasure, business, study or exchange.
    The travel and tourism industry knows about hospitality and 
maximizing resources and staff. Our offer to extend our services to 
State and DHS still stands, and we hope to be called upon soon.
Public Diplomacy
    In addition to serving as an important economic generator, travel 
and tourism is a vehicle for diplomacy. As a Nation, we are not using 
this vehicle effectively. At a time when the U.S. is the travel bargain 
of the world, we are still losing international travel market share. 
Worldwide international travel increased at a rate of 52 percent 
between 1992 and 2004, but America's share of that lucrative travel 
market declined by 35 percent. \5\ America, formerly the most visited 
travel destination in the world, is now third, behind France and Spain 
and still declining. The U.S. used to be the most aspirational 
destination for international travelers; it is now sixth. \6\ The 
barriers I have enumerated not only discourage travelers from coming 
here, they also contribute to an ever-worsening image of the U.S. 
abroad. Studies consistently show that when international travelers 
come to the United States and experience American culture and 
hospitality firsthand, their perceptions of America and Americans 
change, almost without exception, for the better.
---------------------------------------------------------------------------
    \5\ World Tourism Organization.
    \6\ The Anholt-GMI Nation Brands Index.
---------------------------------------------------------------------------
    Unfortunately, our Nation's image is continuing to deteriorate. In 
March 2005, the Lowy Institute conducted the most comprehensive 
national survey ever in Australia. Australians were asked to identify 
the most highly esteemed countries in the world. Japan, a nation at war 
with Australia just 60 years ago, ranked first; China came in second; 
and the U.S. trailed significantly behind. Australians were then asked 
to name the two greatest threats to world peace. The overwhelming 
majority of Australians ranked both Islamic fundamentalism and the 
United States of America as the two greatest threats. The Pew Research 
Center reported that the percentage of British citizens having a 
favorable view of the United States fell from 75 percent in the Summer 
of 2002 to just 56 percent in June 2006.
    The new Pew Global Attitudes Project study released last week 
showed that these attitudes are not improving. The study examined 
opinions of the U.S. in 15 countries. Of the 11 countries surveyed in 
both 2005 and 2006, only 3 had a more favorable opinion of the U.S. 
than in the previous year. Significant downturns were seen in Spain, 
where only 23 percent of the Spanish public have a favorable opinion of 
the U.S., down from 41 percent last year. Another significant drop was 
in India, where 56 percent had positive views of America as opposed to 
71 percent in 2005.
    Fortunately, travel and tourism can help to reverse those trends. A 
1-percentage point increase in international travel would mean 7.6 
million more visitors who could return to their home countries as 
Ambassadors for the United States. \7\ That same mere 1 percentage 
point increase would have a huge impact on the U.S. economy: an 
additional $12.3 billion in spending across the U.S.; 150,000 more 
jobs; $3.3 billion in new payroll; and $2.1 billion in new Federal, 
state and local tax revenues. The numbers speak for themselves. We must 
act now to create momentum on what will take years to rebuild.
---------------------------------------------------------------------------
    \7\ Travel Industry Association of America.
---------------------------------------------------------------------------
Airline Taxes and Airline Modernization Funding
    There are two critical areas of concern to the travel and tourism 
industry specifically facing the U.S. airline industry. First, airlines 
and their passengers paid almost $16 billion last year in 15 separate 
taxes and fees to the Federal Aviation Administration (FAA) and DHS. 
These taxes have contributed to the difficulties U.S. airlines continue 
to face as they recover from the effects of 9/11. Congress should 
seriously assess the effects this significant tax burden has on 
business, leisure travelers and the aviation industry.
    Second, there is a critical need to upgrade the U.S. Air Traffic 
Control Organization. Last year, U.S. airline operations grew to a 
record 11.5 million departures with carriers transporting 736.6 million 
passengers. Experts are projecting the demand for air traffic control 
to triple over the next 20 years. The airspace above major metropolitan 
areas is already congested and is rapidly approaching saturation. This 
growth reinforces the need to modernize our antiquated ATC system and 
implement technology upgrades that will accommodate the growing demand 
being placed on the system. This Committee will have the opportunity to 
play a pivotal role in addressing these concerns next year when the 
Airport and Airways Trust Fund Act will be reauthorized. We strongly 
encourage you to use this historic opportunity to support the 
technologies and user-based funding that will accommodate the needs and 
growth of this vital part of our national infrastructure.
State and Local Excise Taxes
    While not a Federal governance issue, another obstacle facing the 
travel industry throughout the Nation is the increasing tax burden that 
is being placed on the traveling public.
    Whether it is hotels, car rentals or any other travel-related 
service, these customers--both leisure and business travelers--are more 
and more the subject of discriminatory taxes imposed by state and local 
authorities, often to fill the general treasury. These taxes are 
politically expedient because they target ``tourists'' and other ``out-
of-towners.'' Put another way, they are ``visitors, not voters.'' Worse 
yet, there is often no special benefit for travelers, nor a direct 
connection between the use of funds and those paying the taxes. It is 
just seen as easy money. These tourism taxes threaten to diminish the 
multiplier effect that tourism brings, and the effect may well be a net 
loss of overall tax and tourism revenue.
Industry Recommendations
    The following are recommendations for Congress on how to alleviate 
the negative, unintended impacts of these barriers while continuing to 
strengthen border security:

  <bullet> Grant an extension for WHTI and work closely with State and 
        DHS to effectively implement it;

  <bullet> Direct the State Department and DHS to work with travel and 
        tourism experts to include customer service/hospitality 
        training in CBP and consular officer curriculum, to assist in 
        evaluating the inspection area for more effective queuing 
        techniques and smarter use of staffing;

  <bullet> Appreciate travel and tourism's immense potential as a 
        vehicle for enhancing our image around the globe;

  <bullet> Appropriate one-time funding to the New Orleans and 
        Mississippi Gulf Coast Convention and Visitor Bureaus to 
        promote the Gulf Coast as a travel destination that is ``open 
        for business;'' and

  <bullet> Make travel and tourism a national policy priority.

Rice-Chertoff Joint Vision
    As you are aware, Secretary of State Condoleezza Rice and DHS 
Secretary Michael Chertoff on January 17 announced their ``Secure 
Borders and Open Doors in the Information Age'' initiative (RCI). Even 
before September 11, 2001, and especially since that time, the travel 
industry has been calling for homeland security initiatives that 
protect our country but also protect our economic and social vitality. 
In her remarks, Secretary Rice expressed her gratitude specifically to 
the travel and tourism industry as a private partner who contributed to 
this vision.
    The three broad categories within the Rice-Chertoff Vision include: 
(1) Renewing America's Welcome with Improved Technology and Efficiency, 
(2) Travel Documents for the 21st Century, and (3) Smarter Screening. 
These are issues we have been trying to bring to light over the past 5 
years, as travel and tourism is at the heart of all of them.
    Our industry fully endorsed RCI and was encouraged by its 
announcement. We are now awaiting government action. As previously 
stated, the industry can play a significant role in both consular and 
customs officer training and the model ports-of-entry program. We 
eagerly await the announcement of the public-private advisory committee 
to lead these efforts, and we look forward to partnering with State and 
DHS to turn these ideas into reality.
USTTAB Policy Recommendations
    In addition to the recommendations for Gulf Coast tourism 
revitalization commissioned by Secretary Gutierrez, he also called upon 
the USTTAB to develop comprehensive national tourism policy 
recommendations. The proposal, which is under development, will 
highlight three main areas: public diplomacy and ease of travel, 
marketing and promotion, and return on investment. It will be submitted 
to the Secretary this fall, and is the result of collaboration among 
all Board members and the industry as a whole.
U.S. Destination Marketing Campaign
    As I have discussed throughout this testimony, the public- and 
private-sectors must work together to remove the barriers facing 
legitimate travelers wishing to visit the U.S. However, once the 
burdens are alleviated, it will be just as important to notify those 
travelers that the welcome mat has been rolled out. As an industry, we 
believe that a nationally-coordinated marketing strategy is a crucial 
investment that we all must make.
Presidential Advisory Council on Travel and Tourism
    Most major nations in the world have made travel and tourism 
promotion a centerpiece of their national economic growth plans. To 
facilitate that goal, each of these nations has made policy 
coordination of the many and overlapping issues affecting this industry 
a policy priority. The United States should and must make tourism a 
national priority.
    TBR has long advocated for a Presidential Advisory Council on 
Travel and Tourism, whose mission would be to help the U.S. retain its 
edge against its competitors as the premier travel destination in the 
world and to promote public diplomacy through travel to America. The 
Council would be created by Executive Order as a Federal advisory 
committee under the Federal Advisory Committee Act (FACA). Its members 
should be public, private and nonprofit sector individuals, and 
Federal, state and local officials. These members would represent a 
diverse range of business, government and nonprofit organizations with 
experience relating to policy matters impacting tourism development. 
The Council would pursue five essential objectives:

  <bullet> Raise awareness of the economic importance of travel and 
        tourism and the unique role of tourism in promoting public 
        diplomacy;

  <bullet> Foster tourism policy development and coordination within 
        the Federal Government;

  <bullet> Demonstrate how effective tourism policy can be implemented;

  <bullet> Develop appropriate benchmarks to measure tourism policy 
        success; and

  <bullet> Create a crisis plan in the event of another catastrophic 
        attack on U.S. soil.

    Based on the information presented here today, I think you will 
agree that such an entity would be invaluable for achieving our shared 
goals.
Conclusion
    On June 7, the Bureau of Economic Analysis at the Department of 
Commerce announced that real tourism output increased at an annual rate 
of 5.5 percent in the first quarter of 2006, the industry's fourteenth 
consecutive quarter of positive growth. In addition, on June 14, the 
Federal Reserve released its beige book findings for mid-April to early 
June, citing that the economy expanded during this period but that the 
growth is slowing down. In seven of the 12 Fed districts, travel and 
tourism was cited as one of the region's most active industries. The 
Fed is keenly aware of the impact of travel and tourism economies in 
each of these districts, whether positive or negative.
    The travel and tourism industry is an integral part of making 
America's economy, borders and international relationships strong. The 
companies and associations represented here today appreciate the 
opportunity to share our thoughts and suggestions. We look forward to 
continuing our efforts to elevate the industry's importance and to 
working with this Subcommittee and full Committee as we move forward. 
Thank you, and I look forward to your questions.
                 Travel Business Roundtable--Membership
    Jonathan M. Tisch, Chairman, Travel Business Roundtable; Chairman/
CEO, Loews Hotels

    Adelman Travel Group
    Affinia Hospitality
    Air Transport Association
    American Express
    American Gaming Association
    American Hotel & Lodging Association
    American Resort Development Association
    American Tours International
    Asian American Hotel Owners Association
    ASSA ABLOY Hospitality
    Baltimore Area Convention & Visitors Authority
    Business Travel News
    Carey International Inc.
    Carlson Companies, Inc.
    Cendant Corporation
    Cendant Hotel Group
    Choice Hotels International
    Coca-Cola North America
    Delaware North Companies Inc.
    Destination Marketing Association International
    D.K. Shifflet & Associates Ltd.
    FelCor Lodging Trust
    Four Seasons Regent Hotels & Resorts
    Greater Boston Convention & Visitors Bureau
    Greater Ft. Lauderdale Convention & Visitors Bureau
    Greater Miami Convention & Visitors Bureau
    The Hertz Corporation
    Hilton Hotels Corporation
    Hyatt Hotels Corporation
    InterContinental Hotels Group
    International Association for Exhibition Management
    International Council of Shopping Centers
    International Franchise Association
    Interstate Hotels & Resorts
    JetBlue Airways Corporation
    Las Vegas Convention & Visitors Authority
    Loews Hotels
    Marriott International, Inc.
    Marriott North American Lodging Operations
    Maryland Office of Tourism Development
    McDermott, Will & Emery
    The Mills Corporation
    Nashville Convention and Visitors Bureau
    National Basketball Association
    National Business Travel Association
    National Football League
    National Hockey League
    National Restaurant Association
    Nederlander Producing Company of America
    New York University
    Northstar Travel Media, LLC
    NYC & Company
    Philadelphia Convention and Visitors Bureau
    The Port Authority of New York & New Jersey
    Strategic Hotel Capital Inc.
    Taubman Centers, Inc.
    Tishman Construction Co.
    Travel Industry Association of America
    UNITE HERE
    United States Chamber of Commerce
    The United States Conference of Mayors
    Universal Parks & Resorts
    USA Today
    Vail Resorts, Inc.
    Virginia Tourism Corporation
    Walt Disney Parks and Resorts
    Washington, DC Convention and Tourism Corporation
    Waterford Group, LLC
    The World Travel & Tourism Council
    Zagat Survey, LLC

        The Travel Business Roundtable (TBR), a strategic partner to 
        the Travel Industry Association of America (TIA), is a CEO-
        based organization representing all sectors of the travel and 
        tourism industry. The mission of TBR is to educate elected 
        officials and policymakers about the importance of the travel 
        and tourism industry to the Nation's economy.
                         TIA Board of Directors

    Roger Dow, President/CEO, Travel Industry Association of America 
(TIA)

    AAA
    Air Transport Association of America, Inc.
    American Bus Association
    American Express Company
    American Resort Development Association
    American Society of Travel Agents
    Amtrak (National RR Passenger Corporation)
    ARAMARK Parks & Resorts
    Arizona Office of Tourism
    Avis Rent A Car System, Inc.
    Best Western International, Inc.
    Bloomington Convention & Visitors Bureau
    Bluegreen Resorts
    Boston Convention & Visitors Bureau, Greater
    Busch Entertainment Corporation
    California Ski Industry Association
    California Tourism
    Carlson Companies, Inc.
    Carnival Cruise Lines
    Cendant Hotel Group, Inc.
    Chicago Convention & Tourism Bureau, Inc.
    Choice Hotels International
    Circle Line Sightseeing Cruises
    CityPass Inc.
    Creative Hotel Associates
    Delaware North Companies
    Delta Air Lines, Inc.
    Destination Marketing Association International
    Dollar Thrifty Automotive Group, Inc.
    Expedia, Inc.
    Fairmont Hotels & Resorts
    Finger Lakes Visitors Connection
    Fred J. Lounsberry & Associates
    Freeman
    Herschend Family Entertainment Corp.
    Hertz Corporation, The
    Hilton Hotels Corporation
    Hyatt Corporation
    Illinois Department of Commerce and Economic Opportunity
    InterContinental Hotels Group
    J.D. Power and Associates
    LA INC. The Convention & Visitors Bureau
    Las Vegas Convention & Visitors Authority
    Loews Hotels
    Louisiana Office of Tourism
    Marriott International
    Maryland Office of Tourism Development
    Massachusetts Office of Travel & Tourism
    Meredith Corporation
    MGM MIRAGE
    National Geographic Society
    Nevada Commission on Tourism
    North Carolina Division of Tourism, Film & Sports Development
    Northstar Travel Media, LLC
    NYC & Company
    Oregon Tourism Commission
    Orlando/Orange County Convention & Visitors Bureau
    Philadelphia Tourism Marketing Corporation, Greater
    Planet Hollywood International, Incorporated
    Polynesian Cultural Center
    Preferred Hotel Group
    Recreation Vehicle Industry Association
    Royal Caribbean Cruises Ltd.
    Sabre Holdings
    San Francisco Convention & Visitors Bureau
    South Carolina Department of Parks, Recreation & Tourism
    Southeast Tourism Society
    Starwood Hotels & Resorts Worldwide, Inc.
    State of Texas, Office of the Governor, Economic Development and 
Tourism
    Tauck World Discovery
    Texas Travel Industry Association
    Tourco
    Tourism Massachusetts
    U.S.V.I. Department of Tourism
    United Airlines, Inc.
    Universal Parks & Resorts
    USA Today
    Vanguard Car Rental USA
    Vermont Department of Tourism and Marketing
    Virginia Tourism Corporation
    VISIT FLORIDA
    Walt Disney Parks & Resorts
    Western Leisure, Inc.
    Wyndham International

        TIA is the national, nonprofit organization representing all 
        components of the $650 billion travel industry. With over 2,100 
        members, TIA's mission is to represent the whole of the U.S. 
        travel industry to promote and facilitate increased travel to 
        and within the United States.

    Senator Smith. Mr. Tisch, it is very interesting, your 
comment about hospitality training. I know Marriott and Hyatt 
have such a program for their employees. I imagine Loews does 
as well.
    Mr. Tisch. Yes.
    Senator Smith. I believe I understood your testimony that 
the U.S. Government, as it interfaces with tourists, ought to 
have that same training. Is there anything like that going on?
    Mr. Tisch. We, as an industry, have offered up our 
assistance to the State Department and DHS. If you look at 
Model Ports, we are starting to work with them. We just have 
not seen the progress that, as an industry, we had hoped for.
    Senator Smith. So, they're not necessarily doing that. 
They're not utilizing the private assets.
    Mr. Tisch. To the best of my knowledge.
    Mr. Davidson, thank you for coming from Oregon. Tell us 
what we're doing in Oregon.

        STATEMENT OF TODD DAVIDSON, EXECUTIVE DIRECTOR, 
         OREGON TOURISM COMMISSION; CHAIRMAN, NATIONAL 
        COUNCIL OF STATE TOURISM DIRECTORS; PAST-CHAIR, 
             WESTERN STATES TOURISM POLICY COUNCIL

    Mr. Davidson. Mr. Chairman, it is my pleasure to be here 
and to have traveled here last night, although it was supposed 
to be yesterday afternoon that I arrived, but 3 hours on the 
tarmac in Chicago delayed me just a little bit as thunderstorms 
over Indiana slowed us down.
    Mr. Chairman and members of the Subcommittee, I am Todd 
Davidson, and I have the privilege and pleasure of serving as 
the Executive Director of the Oregon Tourism Commission. I also 
serve as Chair of the National Council of State Tourism 
Directors and Past-Chair of the Western States Tourism Policy 
Council.
    It's my pleasure to appear before you today, and I commend 
you, Mr. Chairman and Senator Inouye, for holding this hearing 
here today, in a timely and in an important manner.
    In many states, tourism is a primary driver of that state's 
socioeconomic future. It's often identified as a major 
employer, contributor to the gross state product, and an engine 
for small business growth and development.
    In Oregon, due to the important position that tourism has 
taken in the state's economy, the state legislature enacted the 
Tourism Investment Proposal in 2003. This significant piece of 
legislation implemented a 1-percent statewide lodging tax and 
dedicated 100 percent of the revenue to Travel Oregon, taking 
our budget from $3 million annually to an estimated $8.5 
million annually.
    Oregon is now experiencing growth rates in visitor 
expenditures in the range of 7 percent per year, our fastest 
rate of growth in the past 5 years. And in 2005, as you noted, 
Senator, visitor spending in Oregon reached nearly $7.5 
billion.
    But as substantial as the economic contributions of travel 
and tourism are for Oregon and for this Nation, they could be 
greater. And the fact that in 1992, the U.S. received over 9 
percent of all international travelers in the world, but, by 
2004, had fallen to garnering only 6 percent, should be of 
concern to us all.
    Since 9/11, homeland security needs have understandably 
been given highest priority. The travel and tourism industry 
supported efforts to improve homeland security, and has worked 
closely with Congress and the Departments of State and Homeland 
Security to address those needs. Yet, often policies with the 
laudable goal of improving national security result in 
discouraging international visitors from coming to the U.S. The 
barriers to international travel that have been discussed, that 
are posed by the Western Hemisphere Travel Initiative and by 
entry-exit procedures and visa policies, have been well 
explained this morning in the testimony of the Travel Business 
Roundtable and the Travel Industry Association. I add my strong 
support to their positions and their policy recommendations.
    I also strongly endorse the recommendation that the Federal 
Government needs to reenter the global tourism marketplace, in 
partnership with the travel and tourism industry, to show the 
world that the U.S. is a desirable and a welcoming destination.
    In addition, it must be noted that not all challenges 
facing the industry are solely focused internationally. For 
both domestic and international travelers, a safe and efficient 
transportation system is indispensable. And not only are safe 
roads essential, but some roads are compelling attractions in 
their own right, as evidenced by the National Scenic Byway 
Program. This program recognizes those byways that have unique 
scenic, historic, and cultural qualities. These are the roads 
that Americans love.
    In Oregon, we've found that our Scenic Byways Program 
creates desirable attractions for domestic and international 
visitors alike. Oregon's award-winning Guide to Scenic Byways 
highlights our natural attributes and our attractions, and it 
proposes itineraries for our visitors to use in planning their 
trips. This is one of the most popular pieces for our 
international guests. And this guide, and many of the 
enhancements to Oregon's Byway Program, have been developed 
with funding from the Federal Highway Administration.
    Yet, according to a recent study by Cambridge Systematics 
for the U.S. Chamber of Commerce, the existing revenue streams 
into the Federal Highway Trust Fund leave gaps of $23 billion 
to $48 billion a year in meeting the Federal share of capital 
investments necessary to both maintain and improve the Nation's 
highway system, respectively. The same study projects that the 
Highway Trust Fund could be in deficit as early as 2008, well 
before the end of the SAFETEA-LU authorization period. I 
strongly encourage the Federal Government to take action to 
address the potentiality of a Highway Trust Fund going into 
deficit.
    I also share the concern about the need to upgrade the U.S. 
Air Traffic Control Organization, and join in urging this 
committee to address these concerns next year, when the Airport 
and Airways Trust Fund is reauthorized.
    In addition, I urge Congress to continue full funding for 
the Essential Air Service Program, because many rural 
communities depend on the assistance from this program to 
maintain their air service, and many travelers, likewise, then 
rely on this air service to visit rural destinations and our 
public lands.
    Indeed, America's public lands are not only preservers of 
our natural resources and our natural heritage, but they are 
icons of the American experience and popular attractions for 
millions of visitors. In Oregon, over 50 percent of the state's 
land mass is in public ownership, and nowhere, as you know, 
Senator, is the prominence of iconic grandeur afforded to 
Oregon more powerfully than on these public lands--in Crater 
Lake National Park, the Lewis and Clark National Historic Park, 
the entire Oregon coast, the Mount Hood National Forest, just 
to name a few--yet, these public lands face manifold 
obligations.
    To focus on just one example specifically, the Mount Hood 
National Forest serves 4 million people a year that visit the 
national forest. More than a million people receive their 
drinking water from Mount Hood. The total forest acreage is 1.1 
million acres, with 17 percent designated as wilderness. There 
are 812 miles of recreational trails and 268 resident wildlife 
species, including seven that are endangered. Pressures on the 
Federal public lands are complex, and we're beginning to see 
trends in visitation stagnate, and even decline, for some 
national parks and Federal lands.
    To avert that outcome, I urge that Congress carefully 
examine the vital role of Federal lands as attractions for our 
visitors, and that the Federal land agencies be given the staff 
and budgets necessary for them to budget their dual mission of 
preserving the resources while providing for the enjoyment of 
the public.
    Now, I'm confident that all of today's testimony has 
illuminated the fact that travel and tourism policy currently 
involves several levels of our Federal system of government. 
The Federal Tourism Policy Council that was established by 
Congress in 1981 has performed a useful role in this regard, 
but it has been handicapped by limited authority and a lack of 
participation by senior policymaking officials. For this 
reason, I strongly endorse the recommendation of the Travel 
Business Roundtable for establishment of a Presidential 
Advisory Council on Travel and Tourism. The stature and 
credibility such a Presidential Council would make, it would 
result in making it a promising vehicle to formulate, 
coordinate, and oversee public policies affecting travel and 
tourism.
    We know the industry has a tremendous impact on the U.S. 
economy, and its potential economic and diplomatic impact could 
be even greater by addressing these aforementioned barriers.
    I appreciate the opportunity to present these ideas and 
suggestions, and I'm happy to answer questions and provide 
further information.
    [The prepared statement of Mr. Davidson follows:]

Prepared Statement of Todd Davidson, Executive Director, Oregon Tourism 
  Commission; Chairman, National Council of State Tourism Directors; 
           Past-Chair, Western States Tourism Policy Council
    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Todd Davidson and I have the privilege and pleasure of serving as the 
Executive Director of the Oregon Tourism Commission, the official 
tourism office for the State of Oregon.
    It is a pleasure for me to appear before you today on behalf of the 
Oregon Tourism Commission, the National Council of State Tourism 
Directors (NCSTD), and the Western States Tourism Policy Council 
(WSTPC).
    The NCSTD, a council of the Travel Industry Association of America, 
brings together the tourism directors from all 50 states, the District 
of Columbia, and the five U.S. territories--and their staffs. The NCSTD 
serves state/territory tourism offices as:

  <bullet> A common, unified voice.

  <bullet> A catalyst for developing programs that benefit all states 
        and territories.

  <bullet> A harmonizer in the diversity of needs, priorities and 
        values.

    The mission of the NCSTD is to provide a forum for the exchange of 
ideas and leadership on travel industry issues impacting states and 
territories.
    The WSTPC is a regional consortium of thirteen western state 
tourism offices, including the states of Alaska, Arizona, California, 
Colorado, Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, 
Washington and Wyoming. The WSTPC mission is to support public policies 
that enhance the capacity of tourism and recreation to have a positive 
impact on the economy and the environment of states and communities in 
the West.
    We commend you, Mr. Chairman, as well as Senator Dorgan and the 
other members of the Subcommittee, for holding this important and 
timely hearing. Travel and tourism is a significant part of the 
Nation's economy and we believe its economic impact will be even 
greater if the industry and the Federal Government can work together to 
develop and implement appropriate public policies.
Size and Scale
    Although nearly everyone is a tourist at one time or another, 
usually many times over, and although one would be hard put to identify 
a state, a Congressional District, or a region that does not attract 
tourists--to the delight of local businesses--the size and scale of 
travel and tourism is often not fully appreciated.
    A top-line summary would disclose that travel and tourism is one of 
America's largest employers, with 7.3 direct travel-generated jobs (one 
in every eighteen U.S. non-farm jobs is in travel and tourism) and $163 
billion in travel-generated payroll. It is one of America's largest 
retail sales industries, producing $645 billion in direct travel 
expenditures and nearly $100 billion in Federal, state and local tax 
revenue. And travel and tourism is one of America's largest service 
exports, with $93.3 billion spent by international visitors in the 
U.S., resulting in a $4.0 billion balance of trade surplus for our 
country. (2004 data)
    In Oregon, in recognition of the important position that tourism 
has taken in the state's economy, the state legislature enacted the 
Tourism Investment Proposal in 2003, which implemented a 1 percent 
statewide lodging tax and dedicated 100 percent of the revenue to 
Travel Oregon to carry out its mission. This legislation took our 
budget from 47th in the U.S. at $3 million/year to an estimated $8.5 
million annually.
    And today, Oregon is experiencing growth rates in visitor 
expenditures in the range of 6.5-7.5 percent growth each year--our 
fastest rate of growth in the past 5 years. And I am thrilled to stand 
before you today and celebrate the fact that visitor spending in Oregon 
reached nearly $7.5 billion last year!
    Through every program, great idea and minor tweak the Oregon 
Tourism Commission implements--we strive to never take our eyes off of 
the prize--it's about jobs. Good jobs for Oregonians.

        Jobs where they can learn work maturity skills and jobs where 
        they can establish their careers.

        Jobs where they can become part of a major multi-national 
        corporation and jobs where they are the sole-proprietor--
        showing up every morning to unlock the door.

    Today, more than 88,000 Oregonians owe their jobs to visitors 
traveling and spending dollars, Euros, Yen and other currencies in our 
state.
Unfulfilled Potential
    As substantial as the economic contributions of travel and tourism 
are for the Nation, they could be greater. With regard to the 
international market, for example, the U.S. is just now returning to 
the level of international visitors that we had before 9/11, buoyed 
primarily by the growth of Canadian travel to the U.S. Despite that 
recovery, the U.S. share of the global tourism market declined 36 
percent between 1992 and 2004, when world tourism grew 52 percent. The 
fact is that in 1992 the U.S. received 9.4 percent of all international 
travelers but by 2004 the figure had fallen to 6 percent.
    While declining global market share was occurring prior to 9/11, 
national policies dictated by homeland security concerns have 
exacerbated this trend by making international travel to the U.S. more 
protracted and less convenient.
    While the figures may not be as stark for the unrealized potential 
of increased domestic travel, where steady increases have been the rule 
for more than half a century, the potential for expansion is apparent 
when barriers to growth posed by infrastructure shortcomings are 
understood.
Barriers to International Visitation to the U.S.
    For many years, the U.S. has not fully appreciated the economic and 
diplomatic importance of the global tourism market. As a Nation, we 
have not sufficiently recognized that millions of international 
visitors to the U.S. are a vital export for our Nation, whose 
expenditures for food, accommodations, travel, admissions and shopping 
have a highly positive impact on our balance of trade and support 
millions of American jobs. We have not completely realized that the 
experiences of millions of international visitors interacting with 
Americans from every walk of life make a significant contribution 
toward showing the world what we are about as a people. We have not 
understood that we as a Nation are engaged in an intense competition 
with other nations for this global tourism market and that, without a 
commitment from the national government to engage in that competitive 
marketplace, we are severely disadvantaged in that competition.
    As noted above, even before 9/11, our competitive global tourism 
position was slipping. Even before 9/11, our systems for distributing 
and processing visas and for inspecting and welcoming international 
visitors were inadequate. Even before 9/11, the Federal Government had 
abandoned its modest efforts to promote and market our Nation as a 
prime global tourist destination. Since 9/11, these problems have 
become worse.
    Since 9/11, homeland security needs have understandably been given 
the highest priority and this has meant stricter visa requirements and 
tighter border control and inspection processes. The travel and tourism 
industry has supported efforts to improve homeland security and has 
worked closely with Congress and with the Departments of State and 
Homeland Security to address those needs. The industry has been 
impressed especially by the January 17, 2006, announcement of the Rice-
Chertoff Joint Vision and has pledged full cooperation in its 
implementation. Yet, it is clear to our industry that too often 
policies with the laudable goal of improving national security have had 
the inadvertent consequence of discouraging international visitors from 
coming to the U.S.
    The barriers to the facilitation of international travel posed by 
the Western Hemisphere Travel Initiative (WHTI) and by entry-exit 
procedures and visa policies are well explained in the testimony today 
of the Travel Business Roundtable (TBR) and the Travel Industry 
Association of American (TIA) and we express our strong support for the 
positions and policy recommendations advocated by Mr. Tisch and Mr. 
Rasulo on behalf of their two organizations.
    There is no need here to reiterate the reasoning and the 
explanations provided by TBR and TIA. We would like, however, to 
emphasize the potential negative impact of the WHTI on western states. 
Seven of the thirteen WSTPC states border directly on Canada or Mexico 
and all thirteen of these states receive large numbers of international 
tourist-visitors, especially from Canada. We do not challenge the need 
for more secure and verifiable identification requirements for 
travelers across our land borders and we do not argue with the strategy 
and goals of the WHTI. But we do believe that the Departments of State 
and Homeland Security need more time to develop and implement a 
workable means of identifying cross-border travelers quickly, 
efficiently and effectively. We are concerned that these two 
departments will not be able to implement their current deadlines in a 
way that balances homeland security with the goal of free and open 
travel.
    We also wish to endorse strongly the recommendation that the U.S. 
national government needs to reenter the global tourism marketplace, in 
partnership with the travel and tourism industry, to show the world 
that this country is a desirable travel destination and that we want 
and welcome their business.
A Necessary Transportation Infrastructure
    For both domestic and international travelers a modern, safe and 
efficient intermodal transportation system is indispensable. When the 
traveler is confronted by interminable highway congestion, by crowded 
and delayed flights and by difficulties either flying or driving to 
rural areas that have so many scenic and historic attractions to offer 
visitors, then travel and tourism suffers and declines and the entire 
Nation loses. There is no more significant barrier to travel and 
tourism than poor transportation.
    Not only are good, safe roads absolutely essential to travel and 
tourism, with eighty percent of all travel taking place on the roads, 
but some roads are compelling attractions in their own right. A notable 
example is the National Scenic Byways Program, which recognizes those 
roads that have unique scenic, historic or cultural qualities. These 
are the roads that Americans love. In Oregon, we have found that our 
scenic byways are prime attractions to our fellow Americans but also to 
international visitors.
    In Oregon, one of the most popular programs, especially the 
accompanying collateral materials, with our international guests, as 
well as the international travel trade and media is the award winning 
Oregon Guide to Scenic Byways. Of course the guide highlights Oregon's 
natural attributes and attractions, but more importantly, the scenic 
byways enable us to develop itineraries and packages for our visitors 
to use in planning their trips. For Oregon, a strong byways program 
makes the planning of a vacation easier for our visitors. The Guide and 
many of the enhancements to Oregon's byway program have come through 
funding from the Federal Highway Administration.
    Yet, we are concerned over the future of the Federal highway 
program. According to a recent study by Cambridge Systematics for the 
U.S. Chamber of Commerce, the existing revenue streams into the Federal 
Highways Trust Fund leave significant gaps in meeting the Federal share 
of capital investments necessary to ``maintain'' and ``improve'' the 
Nation's highway and transit systems. The average annual Federal fiscal 
gap to ``maintain'' highways and transit systems through 2015 is 
projected to be $23 billion and the average annual fiscal gap to 
``improve'' highways and transit systems through 2015 will be $48 
billion. This same study projects that the Federal Highway Trust Fund 
will soon be facing a fiscal crisis of historic proportions and it 
could be in deficit as early as 2008, well before the end of the 
SAFETEA-LU authorization period in 2009.
    Not only will this surface transportation funding crisis affect 
overall road safety and efficiency, it will have a direct impact on 
such ``tourism-friendly'' transportation programs as scenic byways, 
transportation enhancements and national park roads.
    Toward this end, we recommend that the Federal Government take 
action soon to cope with the immediate problem of a Highway Trust Fund 
going into deficit.
    With regard to air transportation, we share the concern about the 
need to upgrade the U.S. Air Traffic Control Organization and join in 
urging this Committee to address these concerns next year when the 
Airport and Airways Trust Fund is reauthorized. We look forward to 
suggesting more detailed recommendations when reauthorization is being 
considered.
    We also urge Congress to continue full funding for the Essential 
Air Service Program. Many rural communities are dependent on that 
funding assistance to maintain air service and many domestic and 
international travelers rely on that air service to visit tourist 
attractions that would otherwise be relatively inaccessible.
The Crucial Importance of the Federal Lands
    America's national parks, forests, wildlife refuges and other 
Federal lands are not only the preservers of our natural resources and 
our national heritage. They are also immensely popular attractions for 
millions of domestic and international visitors who go there to admire, 
enjoy, recreate and get inspiration. Yellowstone, Yosemite, Zion, the 
Grand Canyon, Denali, Mt. Hood, the Everglades, Mount Rushmore, the 
Great Smokies, the Blue Ridge Parkway and other national parks and 
forests are icons of the American experience. Nearly 25 percent of all 
international visitors visit a national park during their time in the 
U.S. In the West, where the Federal agencies manage so much territory--
more than sixty percent of the land area in several states--the Federal 
role is seemingly omnipresent.
    In Oregon, over 50 percent of the state's land mass is in public 
ownership and nowhere is the prominence of iconic grandeur afforded to 
Oregon more than on these public lands--for example, Crater Lake 
National Park, the Lewis and Clark National Historic Park, the entire 
Oregon Coast (under the jurisdiction of the Oregon Parks and Recreation 
Department), and the Mt. Hood National Forest just to name a few.
    To focus on one example specifically, Mt. Hood is likely one of the 
most prominent icons in Oregon. It stands proudly on the horizon above 
the Portland skyline from Washington Park, and it beckons international 
and domestic visitors as they fly up the Columbia River Gorge to land 
at Portland International Airport. In short, the Mt. Hood National 
Forest serves or provides:

  <bullet> Four million people who visit Mt. Hood every year.

  <bullet> More than one million people who receive their drinking 
        water from Mt. Hood.

  <bullet> Total forest acreage of 1.1 million with 17 percent 
        designated as Wilderness.

  <bullet> 812 miles of recreational trails.

  <bullet> And 268 resident wildlife species with seven that are 
        endangered.

    Pressures from outside the Federal lands are manifold and, as a 
result, we are beginning to see trends in visitation stagnate and even 
decline for some national parks and other Federal lands. The 
consequences of this include lost opportunities for new generations to 
experience the grandeur of the great outdoors, lost opportunities to 
enhance health and fitness through recreation and outdoor activities on 
the Federal lands and lost opportunities to showcase these iconic 
American experiences to the world.
    No barrier to travel and tourism may have a more severe impact than 
a decline in the appeal and enjoyment of the Federal lands. For the 
industry, for the gateway communities that serve the Federal lands and 
for the American people, the risk is great.
    To avert that outcome, we urge that Congress carefully examine the 
vital role of the Federal lands as natural and recreational attractions 
for our domestic and international visitors and that the Federal land 
agencies be given the staff and budgets necessary for them to balance 
their dual mission of preserving the natural and historic resources 
while providing for the enjoyment of the public.
The MDCP: A Useful Model
    Sometimes a major barrier to realizing the tourism potential of a 
community or a region is simply a lack of appreciation for what the 
area has to offer and a lack of understanding of the nature of the 
tourism market--especially the international tourism market.
    A program already operating at the U.S. Department of Commerce 
provides a salutary example of how the Federal Government can work in 
partnership with state tourism offices and other state agencies to 
overcome the barrier created by this lack of understanding. This is the 
Market Development Cooperator Program (MDCP) that operates out of the 
International Trade Administration. Although designed as a means of 
promoting manufacturing exports, it has demonstrated a capability of 
serving tourism as a service export.
    In 2002, the Western States Tourism Policy Council received a 
$400,000 three-year MDCP award. This is a cooperating agreement that 
requires the WSTPC to provide a 2:1 match of $800,000. The WSTPC has 
used this MDCP agreement to develop a model training program that has 
educated more than 1,200 business persons and local officials in 
gateway communities near the national parks, forests and other Federal 
lands throughout the WSTPC states. This training shows these local 
leaders how to recognize and develop what they have to offer the 
international tourism market and how they can enter and succeed in that 
global market. Graduates of this training program are now participating 
in major international tourism trade shows in the U.S. and abroad, 
explaining what their gateway communities have to offer visitors 
attracted to the nearby national parks, forests and other Federal 
lands. (Note: Travel South, a consortium of southern State Tourism 
Offices, received an MDCP award several years ago, which it used in a 
slightly different international tourism marketing campaign.)
    We believe the MDCP is an excellent example of an effective 
partnership between the Federal Government (the Commerce Department and 
the Federal land agencies), the states (the State Tourism Offices) and 
the private-sector (local tourism businesses) that synergistically 
combines the best resources of each to build local economies through 
the engine of tourism.
    We recommend that the MDCP be refined with a tourism-specific 
mission and be given expanded resources to work with more states and 
communities.
Intergovernmental and Interagency Coordination and Cooperation
    Travel and tourism policy is complex and multi-faceted, involving 
all levels of our Federal system of government and many different 
agencies. In the preceding testimony, we have referred to programs and 
policies involving multiple Federal departments and agencies, including 
the Departments of State, Homeland Security, Transportation, Interior, 
Agriculture and Commerce, and more than a dozen of their responsible 
agencies. We have also referred to the role of State and local 
governments.
    As a result, a multi-agency approach is essential in developing 
policies and programs that will enable travel and tourism to fulfill 
its potential with regard to economic development and international 
understanding. The Federal Tourism Policy Council, originally 
established by Congress in 1981, has often performed a useful role in 
this regard but it has been handicapped by limited authority and a lack 
of participation by senior policymaking officials. For this reason, we 
endorse the recommendation of the Travel Business Roundtable for 
establishment of a Presidential Advisory Council on Travel and Tourism. 
We believe the stature and credibility of such a Presidential Council 
would make it a promising vehicle to formulate, coordinate and oversee 
public policies affecting travel and tourism that would be beneficial 
to the Nation.
Summary and Conclusions
    Travel and tourism has a huge, but often little known, impact on 
the U.S. economy but its potential economic and diplomatic impact could 
be even greater with the removal of several significant barriers and an 
effective public-private partnership.
    U.S. barriers to international travel have been aggravated by 
understandable efforts to ensure maximum homeland security without 
fully considering the impact of stricter entry-exit procedures and visa 
policies on free and open travel. The Western Hemisphere Travel 
Initiative is of particular concern because of the importance of 
Canadian travel and the likelihood that the Departments of State and 
Homeland Security will not be able to implement their current deadlines 
without unduly damaging travel across our land borders.
    The U.S. would also benefit greatly from a resumption of Federal 
support for an international tourism marketing partnership with the 
private travel and tourism industry that would show the world that the 
U.S. is a prime tourism destination. The Oregon Tourism Investment 
Proposal provides an example of what can be accomplished with wise and 
focused public policies.
    Two major domestic barriers that can prevent travel and tourism 
from fulfilling its potential are threats to the fiscal stability of 
the transportation infrastructure and a perceived decline in the appeal 
and enjoyment of the Federal lands. Oregon benefits greatly from its 
National Scenic Byways Program and from the appeal of the Mt. Hood 
National Forest and other Federal lands and would suffer 
correspondingly from any decline in either.
    The Market Development Cooperator Program provides a useful model 
for a Federal-State-local and public-private partnership to develop the 
tourism product. As shown by the WSTPC experience, the MDCP can be used 
to educate and train local tourism businesses and community leaders 
through cooperative partnerships and then assist them in developing and 
marketing themselves in broader tourism markets.
    A comprehensive, intergovernmental and interagency approach will be 
essential in developing and implementing public policies that will best 
fulfill the potential of travel and tourism. A Presidential Advisory 
Council on Travel and Tourism could help provide such an approach.
    We appreciate this opportunity to present these ideas and 
suggestions and will be happy to answer questions or provide further 
information. Thank you.

    Senator Smith. Thank you, Todd. Those are all excellent. I 
do have to apologize that there is a series of three stacked 
votes. But, aloha, Dr. Pressler. We do want to hear from you.
    I'm afraid that we'll have to put our questions to you in 
written form. Senator Inouye has been around here long enough 
that he should control the Senate agenda and when we vote, 
but----
    [Laughter.]
    Senator Smith. Do you want to introduce your witness, 
Senator?
    Senator Inouye. Dr. Pressler is one of the great citizens 
of Hawaii. She has served in the government, in the private 
sector. And she is, without question, one of the Nation's 
experts on health. She has, I think, every degree that one can 
hope to get, from M.D., master's degree--how many master's 
degrees do you have?
    Dr. Pressler. Three.
    Senator Inouye. Three.
    Senator Smith. That's three more than I have.
    [Laughter.]
    Senator Inouye. So, I'm honored to present Dr. Pressler.

  STATEMENT OF VIRGINIA ``GINNY'' PRESSLER, M.D., MBA, FACS, 
           SENIOR VICE PRESIDENT, STRATEGIC BUSINESS 
               DEVELOPMENT, HAWAII PACIFIC HEALTH

    Dr. Pressler. Thank you.
    Good morning, Chairman Smith, Co-Chairman Inouye. My name 
is Dr. Virginia Pressler. I'm Senior Vice President for Hawaii 
Pacific Health, which is the four-hospital system in Hawaii of 
Kapi'olani Medical Center for Women & Children, which is the 
only children's specialty hospital in the Pacific; also, Straub 
Clinic & Hospital, Pali Momi Hospital, and, on Kauai, Wilcox 
Hospital/Kauai Medical Clinic.
    I would like to express particular appreciation to Senator 
Inouye for his role in helping to create this subcommittee.
    You have my written testimony, so I will keep my remarks 
brief.
    Tourism and health are the two largest industries in 
Hawaii, representing $11 billion and $7 billion, respectively, 
of the gross state product. Seven million tourists per year 
visit Hawaii. More than one-third of these visitors are from 
Japan, Europe, Latin America, and other foreign countries. 
Japanese tourists are a particularly important segment of 
Hawaii's international tourism market, representing 1.5 million 
visitors in 2004, and spending 70 percent more per day than 
visitors from the western United States.
    Twenty-four thousand visitors per year have reason to visit 
our emergency rooms, for reasons ranging from coral cuts to 
heart attacks, drownings, and major trauma, including major 
burns. Half of these emergency room visits are from 
international visitors. The Straub Burn Unit in Hawaii serves a 
vital role as the only burn unit in the Pacific.
    I would like to share a few brief stories from 
representative patients who would not have survived had the 
burn unit not existed in Honolulu.
    The first is a professional volcanologist who fell through 
the crust of an advancing lava flow as part of his work with 
the Volcano National Parks. He sustained severe burns to his 
lower extremities and spent 2 months in our Straub Burn Unit. 
Twenty years later, he continues to send letters of 
appreciation from Florida to the physician and staff who saved 
his life.
    Two North Carolina visitors were severely burned in a plane 
crash while viewing the Volcano National Parks. They were air-
evacuated from the Big Island to the Straub Burn Unit. Their 
chance of survival was estimated at less than 20 percent. They 
visited Straub, just 2 weeks ago, to express their thankfulness 
for the fact that the Straub Burn Unit saved their lives.
    Five tuna fishermen from Kwajalein Island were evacuated to 
the Straub Burn Unit, when their large fishing boat had a flash 
fire in the engine room, killing the captain and severely 
burning these five men. They all survived their critical burns 
through the care they received at the Straub Burn Unit.
    A Japanese visitor sustained severe injury to her lower leg 
with developing gangrene, in an accident on the Island of 
Lanai. She was treated in the burn unit at Straub, due to the 
severity of her wounds. This was 5 years ago, and she and her 
husband visit the Straub Burn Unit to express their thanks when 
they come to Hawaii from Japan each year to visit.
    The Straub Burn Unit provides consultation to the entire 
Pacific. It is not uncommon to treat sailors from ships from 
within one- to two-thousand miles of Honolulu. We also receive 
periodic consults and patients from Tripler Army Medical 
Center.
    The Burn Unit operates at a significant loss each year, but 
it is maintained by Hawaii Pacific Health as a vital service to 
the entire Pacific.
    Finally, more than 11,000 visitors come to Hawaii for 
planned medical treatment each year. We recently had a woman 
from Korea who came to one of our hospitals for a laparoscopic 
colon resection for cancer because we have a surgical 
oncologist who is trained in this procedure.
    The potential for medical tourism remains largely untapped 
in Hawaii. Can you think of a better place to recover from 
heart disease or cancer? It is particularly attractive for 
Asians, because they feel comfortable being cared for by 
physicians and caregivers who are frequently Asian and also 
speak their language.
    We appreciate the work of this subcommittee and all the 
Federal efforts to help keep Hawaii as a safe travel 
destination. The work of the Centers for Disease Control on 
pandemic preparedness is particularly appreciated, as Hawaii is 
likely to be the portal of first entry for any kind of avian 
flu or other pandemic.
    Thank you for the opportunity to testify. I'm happy to 
answer any questions.
    [The prepared statement of Dr. Pressler follows:]

  Prepared Statement of Virginia ``Ginny'' Pressler, M.D., MBA, FACS, 
 Senior Vice President, Strategic Business Development, Hawaii Pacific 
                                 Health
    My name is Dr. Virginia Pressler, Senior Vice President, Strategic 
Business Development for Hawaii Pacific Health (HPH) which is the four 
hospital system of Kapi'olani Medical Center for Women & Children, 
Kapi'olani Medical Center at Pali Momi, Straub Clinic & Hospital, and 
Wilcox Hospital/Kauai Medical Clinic. In addition, HPH has 23 clinics 
and numerous outreach programs.
    Access to quality medical infrastructure is essential for any 
tourism destination to remain competitive. In addition to the beach and 
weather. Hawaii's advantage as a premier tourism destination is due to 
the reputation of its medical infrastructure--both personnel and 
facilities. Hawaii is both a dream destination for international 
travelers and at the same time one of the remotest places in the world. 
Visitors come to Hawaii knowing that when they visit--in the case of a 
medical emergency--they will have access to medical care that is at a 
standard comparable to any mainland facility.
    As you are probably aware, Hawaii continues to be one of the 
premiere destination choices for both domestic and particularly foreign 
travelers. In 2004, the number of visitors by air to Hawaii increased 
by 8.5 percent from the previous year to approximately seven million. 
Two million three hundred thousand of these visitors (34 percent of 
total) were visitors from Japan, Canada, Europe, Oceania, Latin America 
or other foreign countries. The economic impacts are significant. 
Tourism expenditures in Hawaii were close to $11 billion in the year 
2004 and have continued to increase since. Japanese visitors are a 
particularly important segment of Hawaii's international tourist 
market. In 2004, the number of Japanese tourists increased by 8.6 
percent from the previous year reaching 1,482,085. More significantly, 
the Japanese represent the highest daily expenditures spending more 
than 70 percent more per day than our U.S. West Coast visitors.
    With this many visitors, it is inevitable that many will require 
emergency and/or unplanned medical treatment. The Hawaii State 
Department of Business, Economic Development and Tourism estimates that 
in 2004, close to twenty four thousand visitors needed to access our 
emergency rooms for medical care. Approximately half of those visits 
were international tourists.
    An example of emergency services that are accessible for all 
visitors is emergency burn services at Straub Clinic and Hospital--an 
affiliate of Hawaii Pacific Health. The Straub Burn Unit was founded in 
1983, to serve as a primary and tertiary burn treatment center for 
Hawaii and the Pacific Region. The Straub Burn Unit serves as both a 
primary and tertiary burn treatment center for Hawaii and the Pacific 
region providing care for both residents and non-residents. Patients 
come to the Straub Burn Unit from not only all parts of Hawaii, but 
also areas within the Pacific Basin. The Straub Burn Unit has also 
provided care to patients from Tripler Army Medical Center and 
continues to be a source of advice and consultation because Tripler 
does not have a consistent burn care program. The Straub Burn Unit 
includes three intensive care unit rooms designated specifically for 
burn patients, transport lift to place patients within the burn tub, 
and highly specialized beds for greater patient comfort and care. The 
patients treated at the Straub Burn Unit benefit by having their care 
provided locally, eliminating the need for travel to the mainland thus 
avoiding increased risk and expense and also facilitating family 
support, a very important component of a burn patient's recovery.
    Since its opening in 1983 through 2004, the Straub Burn Unit has 
admitted a total of 783 patients with 675 residents and 108 non-
residents. The numbers are not as important as the fact that the Center 
serves an invaluable resource for unplanned and emergent care. (See 
attached letter from Dr. Schulz with specific examples of patients 
served). Most importantly, the Center also serves as an essential 
public health resource in the event of a major airline disaster. With 
the rapidly increasing number of flights to and from Hawaii annually, 
the Burn center will play a key role in the recovery and treatment of 
injured passengers. Financially, the Burn Unit operates at a loss given 
the low rate of reimbursement. However it is an essential service that 
Hawaii Pacific Health maintains to ensure that both residents and 
visitors alike have access to specialized care in the event of an 
emergency.
    Finally, medical infrastructure is also a vital component in an 
area we have not fully explored in Hawaii--Medical Tourism. Many 
foreign countries such as India, South Africa and Thailand have 
invested in medical infrastructure to attract foreign tourists by 
providing specialized care. The medical treatments range from simple 
comprehensive medical check-ups to elective procedures such as 
rhinoplasty, liposuction, breast augmentation, orthodontics, and LASIK 
eye surgery. These destinations often also provide medical services for 
larger and life-saving procedures such as joint replacements, bone 
marrow transplants, and cardiac bypass surgery. These medical tourism 
destinations typically offer numerous options for tourists including 
sightseeing and shopping within a resort like setting. The bundling of 
superior medical services with the benefits of a desirable tourist 
location has worked well for places like India. Already in Hawaii more 
than 11,000 visitors come for planned medical treatment. Given Hawaii's 
location and reputation as a tourist destination--this potential 
remains largely untapped.
    Thank you for this opportunity to testify. I would be happy to 
answer any questions you may have.
                                 ______
                                 
                                   Straub Clinic & Hospital
                                        Honolulu, HI, June 16, 2006
Virginia Pressler, M.D.,
Senior Vice President,
Strategic Business Development,
Hawaii Pacific Health,
Honolulu, HI.

Dear Doctor Pressler:

    Thank you for your recent inquiry. It is very timely since recently 
I have been in contact with four patients who were treated at our 
Straub Hospital; who would not have survived had the unit not existed 
in Honolulu. The first letter was from a patient who fell through the 
crust of a advancing lava flow on the Big Island as part of his work 
with the Volcano National Parks Center. He sustained severe burns to 
his lower extremities. This coincided with a recent visit from two 65+ 
visitors from North Carolina who were severely burned in a plane crash 
on the Big Island when they were viewing the Volcano National Park. 
These patients, under our instruction, were incubated at Hilo Hospital 
and air evacuated to the Bum Unit at Straub. Their chance for survival 
was less than 20 percent and this surely would have been significantly 
reduced if they had been transferred to a burn center on the mainland 
if in fact, we could have found air transportation for them from 
Honolulu International Airport to a mainland burn center. They visited 
with me in my office 2 weeks ago with their two daughters who are RNs 
and were extremely thankful for our efforts in saving their lives. 
These patients shared a similar severe prognosis with five tuna 
fishermen from a large boat fishing near Kwajalein Island. A flash fire 
in the engine room led to the death of the boat's Captain and severe 
burns to five fishermen. They were air evacuated from Kwajalein to the 
Straub Burn Unit and all survived their critical burns. Last, I 
received a letter from a patient and her husband from Japan last week. 
Five years ago she sustained a severe injury to her lower leg with 
developing gangrene in an accident on Lanai. She was treated in our 
Burn Unit due to the severity of her wounds. They visit our Burn Unit 
every year, when visiting on vacation, and are extremely thankful for 
the treatment they received.
    We not only supply treatment at Straub Clinic Burn Unit, but we 
provide consultation with all of the islands and the pacific basin. It 
is not uncommon to treat sailors from ships from within 1-2 thousand 
miles of Honolulu or to receive questions regarding less critical burns 
from emergency room physicians on the Big Island, Kauai, Lanai, and 
Molokai. We additionally receive periodic consults and patients from 
Tripler Army Medical Center since they no longer provide burn care 
treatment for critical burns and due to periodic deployment of their 
plastic surgeons and general surgeons they do not have a consistent 
burn care program. We additionally do periodic seminars for nurses and 
physicians throughout the islands and would clearly be responsible for 
the triaging and treatment in the event of a catastrophic fire or 
thermal event.
    I hope you find this information helpful and we are very thankful 
for Congressional consideration regarding the Straub Clinic & Hospital 
Burn Unit.
        Sincerely yours,
                                    Robert W. Schulz, M.D.,
                                                   Plastic Surgeon.

    Senator Smith. Doctor, I can't think of a better place to 
recover from Congress than Hawaii, and have done so in a number 
of recesses, particularly over Christmas.
    [Laughter.]
    Senator Smith. I'm going to have some questions I'll submit 
in written form.
    But before I turn it over to Senator Inouye, let me 
apologize, again, for being interrupted by a series of votes. 
We really appreciate your coming here. You have helped fill in 
the pieces of this puzzle of how America can better its 
opportunity in tourism. And each of you has a part of that, and 
helped give us some marching orders, I think, where we can 
apply pressure on our government to do a better job.
    Senator Inouye?
    Senator Inouye [presiding]. I thank you.
    I gather, from the testimony, that most of you feel that 
the government is not providing much assistance; instead, it's 
providing a lot of obstacles; and they haven't received the 
message yet. I asked the question of one of the witnesses from 
the government, and there was--97 percent receive their visas 
in one or two days, but that's 97 percent of the approved 
travelers. You indicated that in Brazil the average applicant 
takes 130 days?
    Mr. Tisch. The wait time----
    Senator Inouye. Yes.
    Mr. Tisch.--in the visa process.
    Senator Inouye. If that's----
    Mr. Tisch. And----
    Senator Inouye.--the case----
    Mr. Tisch. And you have to get to the Consulate, so it's 
also the time of--taken out of your day to take your family, if 
that's how you're--who you're going to travel with to get to 
the Consulate.
    Senator Inouye. How long is the waiting or the application 
time in Paris?
    Mr. Rasulo. Well, Paris, Senator, is participating in the 
Visa Waiver Program, so there is no visa that is necessary for 
travel to and from France.
    Senator Inouye. And what about Britain?
    Mr. Rasulo. Same. There are 27 countries that participate 
in a Visa Waiver Program, which are the countries that are--you 
know, the largest number of visitors to the United States.
    Senator Inouye. What is it in the Philippines?
    Mr. Tisch. I don't have that information, sir.
    Mr. Rasulo. I don't either, but it--suffice to say that, 
since 
9/11, Senator, any traveler--foreigner wishing to come to the 
United States, not from a visa waiver country, has to appear in 
person at a Consulate. Every member of the family has to appear 
in person.
    In Brazil, for example, which is a vast country, there are 
only four locations that individuals can go to be interviewed. 
So, quite often, Brazilians have to make a trip to go to a city 
where there is a Consulate to be interviewed, make their 
interview, then go back home and wait for the approvals.
    Senator Inouye. Do you believe that our government has a 
policy of preference?
    Mr. Rasulo. I would not necessarily describe it as a policy 
of preference--or I should say, I'm not aware of that--but one 
that clearly does not--that presents obstacles for people who 
are not part of the Visa Waiver Program to come, in the form of 
waiting times, which is quite often outside the planning 
horizon of international travelers; meaning they decide to come 
to the United States 2 months before their vacation, only to 
find out that it's 130 days to apply for a visa--so, needless 
to say, they don't come--and that the process can be costly. 
It's $100 to be interviewed, which is nonrefundable, even if 
you are not approved--and sometimes quite cumbersome.
    Senator Inouye. Do you believe that the process is 
necessary?
    Mr. Rasulo. I think that some process of personal 
interview----
    Senator Inouye. 130 days?
    Mr. Rasulo.--is probably necessary; however, one could 
question why that can't be done by videoconference, why it has 
to be done in person. I think we need to figure out how to 
either better staff or better use technology to preapprove and 
accelerate the process.
    Senator Inouye. And, Mr. Tisch, you are serious about 
conducting classes. Is it that bad?
    Mr. Tisch. From the stories that we hear--some anecdotal, 
some from individuals who come to our shores and come to our 
properties, come to our theme parks--we hear the stories that 
are troubling. And the industry does stand ready to assist the 
government. We do offer hospitality in the travel and tourism 
industry, and we have offered up our services, and continue to. 
And we do have a good working relationship with State and DHS, 
in terms of having us explain the challenges and trying to find 
solutions together, and we will continue to assist, where we 
can.
    Senator Inouye. If I may, I'd like to submit questions to 
all of you, because I might very well lose my credentials if I 
don't vote.
    [Laughter.]
    Senator Inouye. And the two votes, incidentally, if you're 
interested--the two votes are in reference to Iraq--how do we 
get out of there?
    So, with that--is it a recess? The hearing is adjourned.
    [Whereupon, at 11:27 a.m., the hearing was adjourned.]
                            A P P E N D I X

         Prepared Statement of Charles W. Bray, President/CEO, 
      International Association of Amusement Parks and Attractions
    I would like to thank Chairman Smith and the Committee for holding 
this important hearing to explore the state of the United States 
tourism industry. The nearly $645 billion annual travel and tourism 
industry is one of America's largest employers. As part of the service 
sector, the travel and tourism industry helps comprise the single 
largest and fastest growing component of our economy. The industry is 
critical to the economic well-being of our country, states and cities. 
However as a diverse and decentralized industry its power and value to 
our economy is often overlooked by policymakers and economists alike.
    America's amusement parks and attractions are renowned worldwide 
and are a draw for Americans as well as visitors from around the world. 
Whether driving regionally for an end-of-year school field trip to an 
amusement park or flying around the world for a 10-day trip to Orlando, 
our parks and attractions are a driver of travel and tourism. As the 
President of the International Association of Amusement Parks and 
Attractions, I welcome the opportunity to submit testimony about the 
state of the industry. Attached you will find the Executive Summary of 
a comprehensive study that we commissioned with the Travel Industry 
Association of America last year which provides detailed information on 
the economic impact of the parks and attractions industry.
    The International Association of Amusement Parks and Attractions 
(IAAPA) represents 4,500 members worldwide ranging from large amusement 
and theme parks, such as Walt Disney World and Universal in Orlando, to 
small independently-owned parks and major industry suppliers. The 
contributions of IAAPA members to both domestic and overseas economies 
are staggering. Travel and tourism enjoyed a $1.3 trillion share of the 
U.S. economy in 2004. Travelers' spending in 2005 generated $103.5 
billion in tax revenue for local, state, and Federal Governments in the 
U.S. The 328 million amusement park guests who visited U.S. parks and 
attractions in 2004 spent $47.8 billion directly on admission, 
concessions and services while visiting the more than 600 U.S. 
amusement parks. Amusement parks and attractions not only help support 
the U.S. economy, they also stimulate growth in local businesses and 
communities. The amusement industry provides jobs for upwards of 
500,000 year-round and seasonal employees in the U.S. Many individuals' 
first jobs are in the amusement industry. The industry is a huge 
employer of youth and takes special pride in hiring, training and 
promoting America's youth.
    The population that visits amusement parks and attractions in the 
U.S. is not strictly limited to domestic visitors; people traveling 
from other countries make up a large portion of visitor numbers. 
Amusement and theme parks in the U.S. alone attracted more than 10.6 
million overseas travelers in 2004. These travelers spent an estimated 
$3.7 billion on expenses related to their travels. The forecast for 
total travel expenditure by international visitors in 2006 is $88.3 
billion. As shown by the data, both domestic and foreign visitors of 
amusement parks and attractions are extremely beneficial to the 
economy.
    Tourism has steadily improved in the last 5 years, and all 
indications show that this has the potential to be a good year for the 
industry and that attendance at amusement parks and attractions will 
continue to increase. However, there are several factors that have the 
potential to impact the industry. While we recognize that some of these 
factors cannot be controlled, such as the weather, others can be 
influenced by policymakers.
    Fuel Costs: Increasing gas prices could impact travelers' ability 
to visit amusement parks and attractions. People who are planning to 
travel less or not at all this summer cited the reason as the price of 
fuel 26 percent of the time. Fuel costs will drive up vacation costs 
for both drivers and those who fly to their destinations. Energy costs 
have the potential to negatively impact attendance this year.
    Security with Accessibility: It is critical that legitimate foreign 
visitors who want to travel to the United States are able to obtain 
visas in a timely, efficient and economical manner. It takes visitors 
from some Latin American countries months to obtain visas to come to 
the United States, and the interviews required to obtain the visas 
often require a special trip within their country, at a great expense. 
This creates a great disincentive to travel to the United States. If 
improvements are not made, we will lose these travel and tourism 
dollars to other countries. We support the goals of the Rice-Chertoff 
Initiative announced in January to better utilize technology to 
facilitate legitimate travel to the United States.
    IAAPA is also concerned that ample consideration, implementation 
time, and public promotion be provided before the border requirements 
for the Western Hemisphere Trade Initiative (WHTI) go into effect. The 
WHTI, a part of the Intelligence Reform and Terrorism Prevention Act of 
2004, requires passports for all travel across U.S. borders by January 
1, 2008, and travelers over water and by air as of January 1, 2007. 
While IAAPA understands the need for border protection, we stress the 
importance of the timing and manner of any new requirements. IAAPA 
would support the following changes to WHTI which are included in the 
Comprehensive Immigration Reform Act of 2006, S. 2611:

  <bullet> 18-month extension of deadline for implementation of the 
        WHTI to June 1, 2009;

  <bullet> Authority to issue a passport card for U.S. citizens valid 
        for travel over land and sea ports between the U.S. and Canada, 
        Mexico, the Caribbean or Bermuda. The total passport card 
        application fee would be under $24 and the fee for children 
        under 18 would be waived;

  <bullet> State Department/DHS are required to conduct a trial program 
        with at least one state whereby its driver's license can meet 
        the requirements for border crossing;

  <bullet> State/DHS are empowered to determine that certain Canadian 
        issued identity documents are valid for entry into the U.S.;

  <bullet> Development of a limited process to permit citizens of the 
        U.S. to cross the international border if they return within 72 
        hours;

  <bullet> Development of a procedure to accommodate groups of children 
        traveling by land across an international border under adult 
        supervision with parental consent without requiring a 
        government-issued identity and citizenship document; and

  <bullet> Ample public promotion of the WHTI and its requirements.

    The World Travel and Tourism Council estimates that 8.7 percent of 
the world's jobs are created by the travel and tourism industry. This, 
along with the data given above, speaks volumes about the importance of 
the travel and tourism. The amusement park and attractions industry is 
proud of the positive impact our members have had in creating jobs and 
revenue in the United States. We respectfully ask the Committee to 
consider the issues we presented. I would be happy to provide any 
additional information that would be beneficial to your understanding 
of the industry. Thank you for holding this hearing on this important 
and timely issue.
                                 ______
                                 

   The Economic Impact of Domestic and Overseas Travelers Who Visit 
Amusement/Theme Parks and Other Attractions in the United States--2005 
                                Edition

    Sponsored by: International Association of Amusement Parks and 
                              Attractions

Prepared by: The Research Department of the Travel Industry Association 
                      of America, Washington, D.C.

Introduction
    With the large volume of domestic travelers and overseas visitors 
to the United States interested in amusement/theme parks and other 
attractions today, there is no doubt that this type of travel is a 
significant part of the U.S. travel experience. Amusement/theme parks 
and other attractions generate billions of dollars for destinations by 
attracting visitors who spend money not only on those attractions, but 
also on related items such as transportation, lodging, food and retail 
shopping.
    The Economic Impact of Travelers Who Visit Amusement/Theme Parks 
and Other Attractions in the United States emphasizes the importance of 
amusement/theme parks and other attractions defined in this report as 
valuable products for the tourism industry and the economy. This 
report, which is sponsored by International Association of Amusement 
Parks and Attractions (IAAPA), provides analyses of the economic impact 
generated by both domestic and overseas travelers in the United States 
who visited amusement/theme parks and other attractions in 2004. 
Domestic travelers could have visited at least one of five other 
attractions--zoos/aquariums/science museums, historical places/sites/
museums, performing arts events, cultural events/festivals, and art 
galleries/museums. Overseas travelers could have visited at least one 
of six other attractions, including historical places, cultural 
heritage sites, the American Indian community, concerts/plays/musicals, 
art galleries/museums, and ethnic heritage sites.
    This report includes estimates of travelers' spending during their 
trips visiting amusement/theme parks and other attractions as well as 
the employment, payroll income and tax revenues generated by those 
expenditures. Detailed analyses of total travel volume, total trip 
expenditures, average trip spending and itemized expenditures by groups 
of travelers (defined by type of attraction and primary purpose of 
trip) are included in this report.
    The survey data used in this study do not provide information on 
whether the visit to the attraction was the primary reason for the 
trip, an important but not the primary reason for the trip, or just an 
incidental activity. For the purpose of this study, for domestic 
travelers citing ``entertainment/ sightseeing'' as the primary purpose 
of their trips, expenditures for the entire trips were included, 
covering not only their spending in amusement/theme parks and other 
attractions, but also on transportation, food, lodging and retail 
shopping. For those domestic trips that included one or more of the 
attractions above but whose primary purpose was not for 
``entertainment/sightseeing,'' only expenditures on admission fees paid 
to the amusement/theme parks and attraction(s) and some other 
incidental spending in the attractions were included.
    Based on data available for this study, domestic travel volume was 
measured in person-trips, which may have included one or more visits to 
amusement/theme parks and other attractions during one trip.
    Overseas travelers' expenditure estimates were based on the Office 
of Travel and Tourism Industries' In-Flight Survey data. For the 
purpose of this report, the estimates include overseas travelers' 
spending on amusement/theme parks and other attractions, as well as 
spending on other travel-related items outside of parks and attractions 
(offsite) by those travelers who cited ``leisure'' as their main 
purpose of travel, and visiting amusement/theme parks or other 
attractions as the only recreational activities during their trips in 
the United States. International airfares are not included in other 
related items outside of parks and attractions.
    Estimates of domestic travelers' impact were derived using the 
Travel Industry of America's (TIA's) proprietary Travel Economic Impact 
Model (TEIM). Detailed analyses of travel volume and characteristics as 
well as expenditure patterns were based on TIA's TravelScope and TIA's 
Travel Expenditure Survey data. Data from the U.S. Amusement Industry 
Consumer Survey conducted by IAAPA were also employed.
    The TEIM was developed by the Research Department at TIA to provide 
annual estimates of the impact of the travel activity of U.S. residents 
on national, state and local economies in this country. The TEIM 
estimates travel expenditures and the resulting business receipts, 
employment, payroll income and tax receipts generated by these 
expenditures.
    TIA's Travel Expenditure Survey, a national mail survey conducted 
in 2005, investigated 25 traveler-spending categories such as air 
tickets, auto rentals, lodging, restaurant meals and amusement/
recreation. It also collected information on travel characteristics for 
different groups of travelers. The proportions of trip expenditures by 
different traveler groups, the shares of each spending category in 
total travel spending, and average levels of each spending category 
were estimated using the survey data and incorporated with total 
expenditures generated by the TEIM.
    TravelScope is a cooperative research effort, funded by states, 
cities and other participants, and managed by the Research Department 
of TIA. TravelScope is a national mail survey conducted monthly that 
collects visitor volume, market share, trip characteristics and 
demographics for all U.S. residents' travel. Once collected from 
traveling households, survey results are projected to the populations 
of households in each of the 48 contiguous states based on the 
responding household's state of residence. This method ensures the 
statistical accuracy needed to measure U.S. travel volumes.
    TravelScope data in this report encompass domestic trips (i.e., 
within the United States) taken by U.S. residents during the 2004 
calendar year. This survey does not collect data on U.S. residents 
traveling outside the United States or on international visitors' 
activity in the United States. For this report, travel is measured in 
terms of person-trips and household trips. To qualify, a trip must be 
at least 50 miles one way away from home, or include one or more 
overnight stays in paid accommodations. Respondents are instructed to 
not include trips commuting to/from work or school or trips taken as a 
flight attendant or vehicle operator. One person-trip equals one person 
on one trip at least 50 miles one way away from home, or includes an 
overnight stay in paid accommodations. See appendix A for more 
information.
    The In-Flight Survey is a monthly survey conducted by the Office of 
Travel and Tourism Industries in the U.S. Department of Commerce. The 
survey collects information from both U.S. resident and non-U.S. 
resident international air travelers. This study uses the survey 
results of non-U.S. resident oversea air travelers.
Executive Summary
    In 2004, visitors to amusement/theme parks and other attractions, 
including domestic and overseas travelers and local visitors, spent 
$57.3 billion on those parks and attractions, as well as on other items 
related to their trips.
    Total domestic and overseas travelers visiting amusement/theme 
parks and other attractions in the United States directly spent an 
estimated $47.8 billion in 2004.
    Total travel spending, including direct and secondary (indirect and 
induced) or ``multiplier'' output, reached $113.3 billion. Of this, 
$65.5 billion was generated though secondary impact.
    In 2004, domestic and overseas travelers visiting amusement/theme 
parks and other attractions directly generated more than 612,000 jobs, 
$13.3 billion in payroll income, and $8.0 billion in tax revenue.
    Including direct and secondary impact, every million dollars spent 
by travelers visiting amusement/theme parks and other attractions 
produced nearly 27 jobs in the United States in 2004. Moreover, every 
dollar spent by these travelers generated 71 cents in total payroll 
income.
Domestic Travelers Visiting Amusement/Theme Parks and Other Attractions 
        in the United States
    U.S. travelers generated more than 260.4 million person-trips that 
included one or more visits to amusement/theme parks and/or other 
attractions in 2004. That represented 22 percent of the 1.2 billion 
total U.S. domestic person-trips taken in 2004. More specifically, 78.9 
million person-trips included at least one visit to an amusement/theme 
park, accounting for 6.8 percent of the 1.2 billion total domestic 
person-trips. A total of 15.6 percent of U.S. domestic person-trips 
(181.6 million) included at least one of five other attractions as an 
activity.
    Domestic travelers visiting amusement/theme parks and other 
attractions spent an estimated $44.1 billion in 2004. That included all 
travelers' spending on amusement/theme parks and other attractions, as 
well as spending on other travel-related items outside of parks and 
attractions by those travelers who cited ``entertainment/sightseeing'' 
as their main purpose of travel. Business and other leisure travelers' 
spending outside of parks and attractions were excluded.
    Total domestic traveler spending, including direct and secondary 
(indirect and induced) or ``multiplier'' output, reached $103.8 
billion. Of this, $59.8 billion was generated though secondary impact.
    Domestic travelers' spending directly generated 564,000 jobs, $12.3 
billion in payroll income, and $7.4 billion in tax revenue in 2004.
    Including direct and secondary impact, domestic travelers' spending 
generated a total of 1.2 million jobs and $31.2 billion in payroll 
income for the U.S. economy.
Overseas Travelers Visiting Amusement/Theme Parks and Other Attractions 
        in the United States
    More than 10.6 million overseas travelers to the United States 
included a visit to an amusement/theme park or other attraction in 
2004. More specifically, 5.0 million travelers visited amusement/theme 
parks and 5.6 million visited at least one of six activities or events: 
historical places, cultural heritage sites, the American Indian 
community, concerts/plays/musicals, art galleries/museums, and/or 
ethnic heritage sites. That represented 52 percent of the 20.3 million 
total overseas travelers who visited the United States in 2004.
    Overseas travelers visiting amusement/theme parks and other 
attractions spent an estimated $3.7 billion in 2004.
    Total travel spending, including direct and secondary (indirect and 
induced) or ``multiplier'' output, reached $9.4 billion. Of this, $5.7 
billion was generated though secondary impact.
    In 2004, overseas travelers visiting amusement/theme parks and 
other attractions directly generated 48,100 jobs, $992.8 million in 
payroll income, and $620.8 million in tax revenue.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                         Hon. Franklin L. Lavin
    Question 1. It is estimated that international visitors spend 4\1/
2\ times more than domestic travelers. What specifically could the 
Department of Commerce do to help promote tourism and facilitate U.S. 
entry for international travelers?
    Answer. The Department's Office of Travel and Tourism Industries 
(OTTI) and U.S. and Foreign Commercial Service (USFCS) work together to 
promote and facilitate travel and tourism to our country. This 
includes:

  <bullet> Actively participating in over 20 travel tradeshows annually 
        and interaction with Visit USA programs around the world;

  <bullet> Collecting and analyzing critical data in coordination with 
        the Bureau of Economic Analysis (BEA) that is used by the 
        industry to develop business plans;

  <bullet> Promoting industry interests before the Department of 
        Homeland Security (DHS) and Department of State (DOS) regarding 
        policies related to border entry and issuance of visas;

  <bullet> Advancing policy initiatives through the Tourism Policy 
        Council (TPC), which is led by the Secretary of Commerce and 
        comprises 17 agencies of the Federal Government;

  <bullet> Participating in international trade negotiations that seek 
        to remove market access impediments and to enhance the 
        competitive position of U.S. companies; and

  <bullet> Representing U.S. interests before international policy-
        setting fora, such as the Asia Pacific Economic Cooperation 
        (APEC) and the Organization for Economic Cooperation and 
        Development (OECD).

    Question 2. Almost all developed countries have a cabinet level 
official charged with tourism promotion and diplomacy. In the United 
States, this mission is hidden deep in the Department of Commerce and 
seems to primarily focus on research and statistics. What is the 
Department's plan for promoting travel and tourism? Do you think the 
Federal Government has a role in tourism promotion? How can the 
Commerce Department be more proactive in U.S. travel and tourism 
promotion?
    Answer. The Department's mandate for travel and tourism promotion 
is to analyze the domestic economic environment and make 
recommendations to improve the competitiveness of the U.S. Travel and 
Tourism Industry. The Department also develops programs to improve 
access to international markets by U.S. travel and tourism exporters 
and works with other government agencies to eliminate barriers. In this 
process the Department works to ensure industry views are considered in 
the Federal policy decisionmaking process. This supports promotional 
efforts led by private sector and state, local and tribal entities to 
attract travel and tourism to the United States. Specific activities 
are outlined in Question #1.
    The Secretary of Commerce has been personally committed through the 
Travel and Tourism Advisory Board (TTAB) to work with the industry to 
ensure its global competitiveness. Recently, the Board submitted its 
recommendations for strategies to revive the Gulf Region and create a 
National Tourism Strategy. This strategy creates an opportunity for the 
Department to be more proactive in promoting travel and tourism by: (1) 
leading efforts through the TPC to define specific roles and 
responsibilities of the Federal Government; (2) determining areas where 
domestic policy changes can be made to create a more conducive 
environment for sustained growth in the industry; and (3) exploring 
opportunities for public-private partnerships for policy and promotion 
activities.

    Question 3. The Commerce Department chairs the Tourism Policy 
Council (TPC), which consists of 17 Federal agencies, aimed at 
promoting and streamlining tourism issues across the Federal 
Government. It is my understanding that this Council has met only once 
in the past 4 years? There certainly are many Federal barriers across 
agencies that hinder domestic and international tourism. Can you 
explain why the Administration has not made the TPC a priority? Why do 
you think it is so difficult for tourism to get the attention of 
policymakers?
    Answer. The TPC met nine times in 2002 and six times in 2003. In 
2006, the Secretary called for renewed quarterly TPC meetings as a 
result of increased interest in travel and tourism policy issues at the 
Administration level. This year, the TPC met in March and July, and the 
next TPC meeting is planned for early October. The Secretary views the 
TPC as a vital tool for ongoing Federal policy coordination and as a 
forum through which to vet the National Tourism Strategy developed by 
the Travel and Tourism Advisory Board. The level of Federal interagency 
attendance at the 2006 TPC meetings has been substantially higher than 
in past years. This underscores the interest by policymakers in U.S. 
travel and tourism issues that cross-cut the Federal Government.

    Question 4. What role does the private sector have in promoting the 
U.S. tourism market?
    Answer. The private sector primarily leads U.S. travel and tourism 
promotion efforts in the U.S. and abroad. This is accomplished both by 
individual companies and through industry-wide collaboration. In 
addition, state tourism offices as well as convention and visitor 
bureaus conduct the grassroots promotion of destinations. In 
international markets, overseas Visit USA Committees actively promote 
travel to the United States. They comprise the private sector 
representative offices and branches of U.S. companies, as well as tour 
operators, travel agencies, and media business that promote or sell 
travel to the United States.

    Question 5. How would a national campaign market the entire U.S., 
including rural areas?
    Answer. In 2004, Congress tasked the Department with the 
responsibility of directing an international tourism promotion and 
marketing campaign. This was a unique opportunity for the Department to 
demonstrate to the private sector the potential effectiveness of a 
well-executed international promotion program. The Department's 
campaign in the United Kingdom and Japan was made possible through 
numerous public-private partnerships. For example, in year one of the 
United Kingdom campaign, over 80 states, cities, and companies 
collectively contributed $2 million to the Department's efforts. In 
year one of the Japan campaign, over 50 states, cities, and companies 
gave $750,000. Consumer research conducted during the campaign 
indicates that the beauty of the U.S. natural environment, together 
with the excitement of U.S. urban areas and man-made attractions, are 
what differentiate the United States as a travel and tourism 
destination. The Department's campaign focused on the diversity of 
travel experiences in the United States, including the beautiful 
natural environments, rural areas, exciting cities and inspiring 
national monuments.

    Question 6. What is the economic impact to the U.S. economy for 
travel and tourism as compared to other large industries in the U.S.?
    Answer. The travel and tourism industry is an important component 
of the U.S. economy. According to the U.S. Department of Commerce 
Travel and Tourism Satellite Accounts, the industry accounts for 2.6 
percent of U.S. gross domestic product (GDP), which, positions it below 
ambulatory healthcare services (3.5 percent of GDP), about the same as 
hospitals and nursing home facilities (2.7 percent), and broadcasting 
and telecommunications (2.7 percent), but higher than the important 
industries of utilities (2.0 percent), chemical products (1.6 percent), 
legal services (1.4 percent), farming (1.2 percent), computer and 
electronic products (1.1 percent), and motor vehicles, bodies and 
trailers, and parts (1.0 percent). (Source: BEA)
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Hon. Franklin L. Lavin
    Question 1. The Department of State (State) statistics show a 
precipitous decline in the number of nonimmigrant visas they issued to 
foreign travelers seeking entry into the United States in the immediate 
aftermath of September 11, 2001. This year, the number of nonimmigrant 
visas issued to travelers is expected to rebound to pre-September 11 
numbers. To what do you attribute the decline in nonimmigrant visas 
issued to foreign travelers seeking entry into the United States 
following the events of September 11, 2001?
    Answer. Following September 11, global international travel trends 
shifted from long-haul international or overseas travel to short-haul 
destinations where the traveler stays closer to home with an increase 
in the use of auto or rail transportation versus airlines.
    Additionally, the industry has been negatively affected by SARS 
(2003) and unfavorable exchange rates for many countries (2001-2004).

    Question 2. Do you think new policies on visa issuance and entry 
have contributed to the decline in market share for U.S. tourism 
exports?
    Answer. The Department of Commerce's Office of Travel and Tourism 
Industries Travel Barometer, which solicits feedback on travel issues 
from the industry, suggests that there is no widespread empirical 
evidence to support this opinion.

    Question 3. If the events of September 11, 2001 do not alone 
explain the decline in nonimmigrant visas issued by United States 
Consulate offices throughout the world, what other factors may explain 
the decline in nonimmigrant visas issued?
    Answer. There has been a 7 percent annual growth in global travel 
since 1950, but, with the exception of China, there has been some 
decline in the top 10 markets, including the United States. Therefore, 
it is not just the United States facing this challenge. Countries such 
as China and India are benefiting from more regional and domestic 
travel. These countries are also marketing to keep their traveling 
populations at home.

    Question 4. Current policies stifle Chinese citizens' ability to 
travel to the United States. China continues to restrict its citizens' 
leisure travel to countries, like the United States, which have not yet 
received Approved Destination Status (ADS). Furthermore, the failure of 
the Department of State (State) to process Chinese citizens' visas in a 
timely fashion complicates the U.S.'s efforts to prosper from a sizable 
Chinese population's desire to visit the United States.
    The Chinese government has not designated the U.S. as one of 
China's official tourist destination countries. China's government must 
grant a country ADS before Chinese citizens may engage in leisure 
travel to that country. In recent years China has broadened the leisure 
travel opportunities available to its citizens by granting ADS to 
Canada and 25 European countries. Numerous Chinese citizens circumvent 
their home country's ADS requirement by classifying trips to the United 
States as business trips. While not technically classified as 
``tourists,'' almost all Chinese citizens who travel to the United 
States on business incorporate leisure activities into their travel 
itineraries.
    Maura Harty, the Assistant Secretary of State for Consular Affairs, 
testified before the House Committee on Government Reform in September 
2005. Secretary Harty presented statistics illustrating that the 
issuance of nonimmigrant visas to Chinese citizens traveling to the 
United States, though still 13.5 percent below the number of 
nonimmigrant visas issued before September 11, increased in Fiscal Year 
2004 by 26 percent and grew an additional 11 percent in the first half 
of Fiscal Year (FY) 2005. Harty dispelled concerns that there was a 
lack of American consular staff to issue nonimmigrant visas to Chinese 
citizens by explaining that nine new consular positions have been 
created for China in FY 2004 and FY 2005, the Consulate in Guangzhou 
and Consulate General in Shanghai have moved into new consular 
facilities, and the Chinese cities of Beijing, Shanghai, and Guanghzou 
have all collaborated with local chapters of the American Chambers of 
Commerce to implement programs facilitating the issuance of business 
visas to employees. Additionally, Secretary Harty stressed that the 
state remains dedicated to demonstrating to China and India that it 
will more efficiently process the visas of their citizens. Secretary 
Harty stated that since September 2001, the State has augmented the 
resources it uses to process the visas of Indian and Chinese citizens 
as evidenced by its creation of 515 consular positions and its 
enhancement of the consular officers' training. Secretary Harty told 
the House Committee that as of the date of her testimony, 97 percent of 
all visa applicants around the world who are found qualified to receive 
visas receive them in one to two days.
    Are you aware of Chinese and Indian foreign travelers commonly 
experiencing a delay in receipt of their nonimmigrant visas for travel 
to the United States?
    Answer. China and India have been highlighted as two of the 
countries where assistance should be focused in the visa processing 
area.
    In China, the delay in visa processing wait is primarily due to the 
requirement for face-to-face interviews with all non-immigrant visa 
applicants. However, processing time varies significantly by location 
within China itself. For example, visitor visa processing wait time in 
Shenyang is reported to take only one day while in Shanghai it 
reportedly takes a 42-day wait. In New Delhi, the reported wait time 
for visas is approximately 2 days.
    The Department of State is responsible for issuing visas, and their 
website provides consumers tracking of wait times for visas to be 
processed. This information can be accessed at the following URL: 
http://travel.state.gov/visa/temp/wait/tempvisitors_wait.php.
    The Travel and Tourism Advisory Board (TTAB), comprised of private 
sector travel and tourism industry executives, recently submitted their 
recommendations to the Secretary of Commerce for the development of a 
national tourism strategy. Identified within these recommendations is 
the need for thorough review and possible revision of existing visa 
policy. The Tourism Policy Council (TPC), a group of more than 20 
Federal agencies who deal with varied issues related to travel and 
tourism, including the Departments of State and Homeland Security, will 
be discussing the TTAB's recommendations at the next TPC meeting.

    Question 5. How have newly created consular offices expedited the 
visa process for citizens of China and India? Do you sense that your 
Department is aware of the economic benefits associated with an influx 
of Chinese and Indian tourists, traveling on nonimmigrant visas to the 
United States?
    Answer. The Department of Commerce understands the benefits of 
Chinese and Indian travelers to the U.S. economy. In 2005 total travel 
and tourism spending in the United States from India was $1.6 billion 
(representing a 16 percent increase over 2004) and $1.5 billion from 
China (representing a 38 percent increase over 2004).
    The Travel and Tourism Advisory Board and the Tourism Policy 
Council are also keenly aware of the positive impact of additional 
international visitors to the United States, and are working diligently 
together to ensure that the Nation's ``Secure Borders, Open Doors'' 
program is as welcoming as possible, enabling legitimate travelers 
access to the United States.
    Consular offices fall under the purview of the Department of State, 
which is better suited to address the first part of this question.

    Question 6. What efforts are being undertaken by persons within the 
United States' public- and private-sectors to facilitate the United 
States being granted Approved Destination Status by the People's 
Republic of China?
    Answer. Under a U.S.-China tourism cooperation agreement, the 
United States and China have identified the intent to obtain a 
commercial facilitation agreement to enable group leisure travel to the 
United States. This agreement is currently being developed by the 
Department of Commerce in conjunction with the Departments of State and 
Homeland Security. Private-sector entities in Nevada, Hawaii, Guam, and 
the City of Los Angeles have all gained marketing and promotion access 
to Chinese markets.
    A Travel and Tourism Working Group, under the U.S.-China Joint 
Commission on Commerce and Trade (JCCT), has been focusing on enhancing 
the U.S.-China relationship in travel and tourism through trade, 
investment and cooperative efforts in business facilitation and 
education and cultural exchange. At the most recent meeting of the 
Working Group, in April 2006, the United States and China signed a two-
year work plan and agreed to pursue an agreement or framework that 
would facilitate Chinese outbound leisure travel to the U.S.

    Question 7. How many more non-immigrant visas per year does the 
United States expect to grant if China grants the United States 
Approved Destination Status?
    Answer. The Department of Commerce's travel forecasting of Chinese 
visitors to the United States is done using the current econometric 
model, which is based on current regulations regarding outbound travel, 
and has not taken into account any ADS or ADS-type alternatives. The 
Office of Travel and Tourism Industries (OTTI) reports that inbound 
arrivals from China to the U.S. showed a 20 percent increase in 2004 
over 2003 arrivals and a 24 percent increase in 2005 over the previous 
year. Without catastrophic or disruptive events occurring globally, 
OTTI estimates that the current growth pace will continue in the 20-30 
percent range for the rest of the decade.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                         Hon. Wanda L. Nesbitt
    Question 1. Ambassador Nesbitt, during the hearing, you defended 
the Department's decision to impose an accelerated deadline for 
implementation of the Western Hemisphere Travel Initiative (WHTI) on 
air and sea passengers (one year in advance of the date required by 
law). You explained ``most travelers who fly internationally already 
use a passport'' and therefore the requirement ``could be implemented 
earlier'' than the law requires. However, this did not justify the 
accelerated deadline for cruise passengers. In fact, cruise lines have 
provided data to the Department demonstrating that most travelers who 
cruise in the Western Hemisphere do not have a passport. I understand 
that officials from the Department have cited conflicting data from 
unnamed ``Mexican officials in Cancun'', though it seems to me that 
cruise lines would have the more reliable data on this topic. Given the 
data from the cruise industry, do you still believe it is appropriate 
and fair to impose a deadline on cruise passengers before the law 
requires it?
    Answer. We believe that there are a number of advantages to phasing 
in the requirement. By beginning implementation in advance of the 
January 2008 deadline, we will begin to accrue the security advantages 
as soon as possible and benefit at an earlier stage from the travel 
facilitation envisioned by the Congress in crafting the legislation. 
Phased implementation will also give us the opportunity to reach out 
and inform the tens of millions of travelers who will be affected by 
the changes.
    The statistics available to the Department indicate that there is a 
small population of cruise travelers to the Caribbean who would need to 
get passports. A study commissioned by the Department to help us 
develop more accurate data on the potential impact of WHTI estimated 
that over 65 percent of U.S. citizens traveling on cruises to the 
Caribbean possessed valid U.S. passports. The statistics provided to us 
by the International Council of Cruise Lines (ICCL) support this data. 
ICCL indicates that 50-65 percent of cruise passengers for mid-length 
(6-8 days) or longer (9-17 days) cruises have passports.
    It is worth noting that we already see concrete evidence that many 
Americans, especially those who travel by air or sea, are applying for 
passports. Passport demand in the United States has increased 20 
percent in each of the past two Fiscal Years; in FY 2004, we issued 8.8 
million and in FY 2005, 10.1 million. This year we expect to issue over 
12 million passports. Immigration inspectors and travel sector 
resources have also reported significantly higher percentages of 
travelers with passports. Our assessment is that American travelers are 
becoming accustomed to the need for a passport.

    Question 2. I commend the State Department and the Department of 
Homeland Security for working to develop a less expensive alternative 
to the passport like the PASScard. It is my understanding, however, 
that State Department officials intend to limit the use of the PASScard 
to surface crossings, leaving cruise passengers ineligible to use the 
new card. This inequitable treatment seems patently unfair to cruise 
passengers. This decision is particularly confounding given the robust 
security measures taken by cruise lines. A cruise ship is a controlled 
environment with limited access. All crewmembers and guests are placed 
on an official manifest that is provided to the Department of Homeland 
Security prior to the cruise departure for review. Moreover, when 
cruise lines return to the United States, an arrival list is sent again 
to the Department of Homeland Security 96 hours in advance of arrival. 
Given the tremendous resources used to ensure security on cruise ships, 
please explain why Americans choosing this mode of travel will not 
receive the same opportunity to use a PASScard as those who cross the 
border by car--a border crossing for which border patrol receives no 
advance notice.
    Answer. The passport card was devised in response to clear 
indications from border community residents, local governments, and 
businesses about the need for a simple, easy document to facilitate 
travel across our land-borders by American citizens. We have practical 
reservations about the use of a card designed to be used at land-
borders for broader international travel. We are aware of suggestions 
that the passport card also be approved for cruises and air travel 
within the Western Hemisphere, however, we believe that creating 
special exemptions for certain types of international travel would 
result in greater confusion for the traveler and increase costs, in the 
long-run, to our citizens. Furthermore, travel by air or sea is much 
more likely to present the need for, or the opportunity, to stop in a 
third country.
    Both State and DHS recognize that there is a need for a convenient 
and less expensive travel document for U.S. citizens who regularly 
travel across the Canadian and Mexican land-border environment. Cruise 
travel is far more likely to include, or present the need, to stop in 
or transit a third country. For their own protection, U.S. citizen 
travelers in this situation should utilize a globally interoperable 
document--the U.S. passport--for such travel.
    A traveler going to the Caribbean by sea in 2008 will be fully 
documented to travel, not just to the Caribbean countries that 
currently require passports but anywhere else in the world. Obtaining a 
passport will be as quick and easy as the process to obtain a passport 
card. According to statistics from the cruise industry, about 90 
percent of their customers book their travel through a travel agent and 
about 59 percent of them book 4-6 months prior to travel, more than 
enough time to acquire a passport.
    The cruise industry as a whole has been proactive in encouraging 
patrons to obtain passports. We believe this is reflected in the 
increased demand for and increased use of passports by this target 
group. In concert with our colleagues from DHS, we have engaged in 
numerous outreach events with the public as well as business and travel 
industry groups to make sure that they are well aware of WHTI 
requirements and that they have adequate notice to take the necessary 
steps to comply with them. We have assured the cruise industry that we 
are happy to continue working with them to get the message out.
    A critical part of successful implementation of the WHTI is the 
rulemaking process, and both agencies look forward to public comment in 
response to the Notice of Proposed Rulemaking regarding the air and sea 
aspects of WHTI that was published on August 11 in the Federal 
Register.

    Question 3. Please clarify the waiting periods for a visa in non-
waiver countries. Please describe efforts you are taking to shorten 
these waiting periods.
    Answer. The wait period for a non-immigrant visa interview varies 
from country to country. At some of our posts, particularly during peak 
travel seasons, the demand for non-immigrant visa (NIV) interviews 
exceeds our workload capacity resulting in a wait time that can range 
from one day to 30 days or longer. Posts with a waiting period have 
been instructed to establish procedures to grant expedited appointments 
for legitimate business travelers with urgent needs, for students and 
exchange visitors, and for applicants seeking emergency medical care. 
Our posts have also developed individual business facilitation programs 
that work best for their regions.
    In order to keep the wait for an NIV appointment as short as 
possible, the Department has added staff and improved consular space at 
many posts. While these steps have helped more than 80 percent of our 
posts to keep their wait times short, the remainder have appointment 
delays above 30 days. These delays are often due to staffing shortages, 
space issues, or an unanticipated rise in visa applications. We 
continue to try to identify creative solutions to aid our posts and 
ensure that the traveling public is not faced with major delays.

    Question 4. How does this ``In-Person'' interview affect your 
operation? It seems like there should be some flexibility for interview 
waivers (like seniors, children, frequent business visitors)? What 
technology (videoconferencing, etc.) are you considering to improve 
this process? When can the Committee expect to hear about shortened 
wait times?
    Answer. As you know, the Intelligence Reform and Terrorist 
Prevention Act made it mandatory for most non-immigrant visa applicants 
to appear at an embassy or consulate in person for an interview. We 
believe that a personal interview is often the most critical part of 
the visa process. It gives the consular officer an opportunity to 
clarify information on the visa application and determine the bona 
fides of the applicant.
    There are already some exceptions to the in-person interview 
requirement. For instance, travelers under 14 years old and over 79 
years old do not need to appear in person. In addition, diplomatic and 
official travelers, and those travelers who are renewing a non-
immigrant visa in the same classification within twelve months, need 
not appear in person. The consular officer may also waive an interview 
if it is warranted in the national interest or because of unusual 
circumstances. We are available to discuss other instances in which 
waiving the interview might be warranted.
    Congress mandated that we collect biometric data from each visa 
applicant beginning in October 2004. As a result, there are some cases 
in which we are allowed to waive the visa interview but due to the 
fingerprint requirement, must require the traveler to appear in person 
at a consular section. We are interested in working with the Department 
of Homeland Security (DHS) and Congress to determine if there is a way 
to capture fingerprints only once, particularly for frequent travelers, 
and thereafter do only a simple verification. We are also interested in 
working with Congress to give consular officers more leeway to waive 
the interview for travelers who have been appropriately screened and 
assessed for risk, such as frequent business travelers.
    It is our objective to provide courteous and timely service to all 
persons requesting consular assistance. We will continue to explore the 
possibility of doing offsite interviews and will be happy to apprise 
you of any progress on this front. Our ability to shorten wait times 
will depend largely on our ability to provide additional resources to 
those posts where demand is outpacing our capacity.

    Question 5. Can you briefly explain the Model Ports of Entry 
program in the Rice-Chertoff announcement? How are you working with the 
private sector on this program?
    Answer. As part of the Rice-Chertoff Joint Vision announced by 
Secretaries Rice and Chertoff in January of this year, we are working 
with DHS to establish two model international ports of entry (POEs) at 
Washington Dulles and Houston. These pilots are an opportunity to 
partner with the private sector and local governments to design and 
test a variety of facilitation techniques. State and DHS are working 
with Dulles and Houston airport authorities, the travel industry, 
airlines, and other private sector representatives to test and 
demonstrate concepts for model airports in order to create a more 
welcoming environment for foreign visitors. DHS is analyzing best 
practices at ports of entry, including improved screening and more 
efficient movement of travelers through the entry process; customized 
video messages with practical information about the entry process; and 
more instructional signage. Private-sector representatives will meet 
with State and DHS in the near future to establish a timetable and 
attempt to identify funding.

    Question 6. It is estimated that international visitors spend 4\1/
2\ times more than domestic travelers. What specifically could the 
State Department do to help promote tourism and facilitate U.S. entry 
for international travelers?
    Answer. The events of 9/11 affected tourist and business travel in 
many ways. In particular, there was a perception that the visa process 
was more difficult, due in part to delays in that process from 
increased security procedures like special screening requirements and 
fingerprinting. However, the State Department has worked hard to 
improve our process since then. In fact, tourist and business visa 
issuances are expected to top 3.04 million in FY 2006, up from an FY 
2003 low of 2.5 million.
    We have worked to increase the transparency of the visa process to 
benefit the U.S. business community and our international travelers. 
Embassies now display interview wait times on their websites; have 
established dedicated interview times for business travelers; and allow 
companies to register for expedited applications for their affiliates. 
Our own website, www.travel.state.gov, receives between 400,000 and 1 
million hits per month from interested parties.
    State is piloting a web-based appointment system which, if 
successful, will be made available to all posts. That system will also 
include an electronic visa application system to allow consular 
officers to do time-consuming security checks before the applicant 
arrives at the visa window. We are piloting a model for processing visa 
applications through remote interviews. We continue regular 
institutional outreach with the travel, business, and academic 
communities to solicit their views and enlist their support with 
innovations and advocacy.
    State is working with DHS as part of the Rice-Chertoff Initiative 
to renew America's welcome with improved technology and efficiency. In 
July 2005 we opened a worldwide Business Visa Center (BVC), that is a 
wholly virtual operation. The BVC assists U.S. companies and convention 
organizers by explaining the visa process when they invite employees or 
current and prospective business clients to the United States. The BVC 
staff provides information to U.S. companies about the application 
process for visitor visas (B-1) for those seeking to travel to the U.S. 
for business purposes. The BVC received over 100 inquiries in the first 
2 weeks of operation and the numbers of telephone and e-mail inquiries 
have continued to grow. In July 2006, the BVC handled over 400 
inquiries. We estimate that over 20,000 international travelers are 
indirectly assisted each month by the BVC's provision of conference and 
visa information to U.S. companies.
    We will continue to engage the business community, along with the 
Economic Bureau and the Departments of Commerce and Homeland Security, 
on ways to further improve the facilitation of legitimate travelers, 
while maintaining the security of the United States.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Hon. Wanda L. Nesbitt
    Question 1. Can you comment on results you have seen with the Model 
Airport Program's implementation?
    Answer. The Department of Homeland Security is the lead agency in 
developing Model Ports of Entry, an initiative that is just getting 
started. Working with airport authorities, the travel industry and 
airlines, and other private-sector participants, our plan is to test 
and demonstrate concepts at Dulles and Houston that will create a more 
welcoming environment for foreign visitors. DHS will soon complete an 
analysis of best practices at ports of entry, including improved 
screening and more efficient movement of people through the entry 
process; customized video messages with practical information about the 
entry process and more instructional signage.
    During the peak summer travel season, Dulles utilized ``yellow 
shirt Ambassadors'' to help visitors through the entry process. In 
addition, new signage has been installed and welcome videos are shown 
at baggage carousels.
    It is important to keep in mind that the Departments of State and 
Homeland Security can only afford to make marginal, yet important 
changes, such as improving customer service and adding signage. A major 
infusion of private-sector funds is needed to complete any structural 
changes at a Model Port of Entry.

    Question 2. What are your plans to expand the Model Airport Program 
to other airports?
    Answer. We hope that the best practices developed in the pilot 
Model Ports of Entry program will be adopted at other airports.

    Question 3. How have improvements by State and the DHS to visa 
processing procedures benefited foreign business travelers?
    Answer. Improvements to visa processing have included improving our 
consular sections, adding staff, and developing facilitation programs. 
We have also taken a number of steps to improve the transparency, 
efficiency and predictability of the visa process and have worked with 
our interagency partners to streamline our security clearance 
procedures, bringing the average processing times down from several 
months to just 1-3 weeks. These improvements have resulted in benefits 
to the U.S. business community and our international travelers. 
Embassies now display interview wait times on their websites; some have 
established dedicated interview times for business travelers; and allow 
companies to register for expedited appointments for their affiliates.
    In addition, in July 2005, we opened a worldwide Business Visa 
Center. The Business Visa Center (BVC) assists U.S. companies and 
convention organizers by explaining the visa process when they invite 
employees or current and prospective business clients to the United 
States. The BVC staff provides information to U.S. companies about the 
application process for visitor visas (B-1) for those seeking to travel 
to the United States for business purposes. The BVC receives hundreds 
of inquiries a month and we estimate that over 20,000 international 
travelers are indirectly assisted each month by the BVC's provision of 
conference and visa information to U.S. companies.
    Over the past year, we have met regularly, along with colleagues 
from the Department's Bureau of Economic and Business Affairs (EB) and 
the Departments of Commerce and Homeland Security with members of the 
business community to discuss ways to further improve the facilitation 
of legitimate travelers, while maintaining the security of the United 
States.

    Question 4. It seems that business travelers are the only category 
of persons to prosper from improved State and the DHS procedures that 
allow for the more efficient processing of visas to date. What steps 
have State and the DHS taken to ensure that other categories of foreign 
travelers, such as leisure travelers, will have their visa wait period 
shortened?
    Answer. The Department is doing significant outreach, both here and 
abroad, to encourage travel to the United States by students, 
professional workers, and tourists. After 9/11, there was a perception 
that the visa process was more difficult, due in part to delays from 
increased security procedures like special screening requirements and 
fingerprinting. The State Department has worked hard to improve our 
process since then and we are seeing a turnaround. Tourist and business 
visa issuances are expected to top 3.04 million in FY 2006, up from an 
FY 2003 low of 2.5 million.
    After the visa interview takes place, most approved travelers 
receive their visas in 48 hours. Many posts send passports with issued 
visas back to applicants using a pre-paid courier service, so that the 
applicant does not need to travel to the Consulate a second time to 
pick up the issued visa.
    In fact, only a small category of travelers, less than 3 percent 
worldwide, wait more than 48 hours to receive their visas. These 
travelers' applications often require additional interagency 
clearances. Wait times for clearances have decreased over the past year 
to an average of 14 days; however, delays have increased this summer 
due to resource constraints in some agencies and increased Security 
Advisory Opinions (SAOs) from posts. We continue to work with other 
agencies to expedite clearances for students and emergency travelers, 
and expect the delays to shorten as our agency partners add more staff 
to support the SAO clearance process.
    We also are working to facilitate visa processing for students to 
ensure that foreign students who choose American institutions are able 
to enroll and attend class. CA has issued new guidance allowing 
students to apply for visas 120 days in advance of their studies, and 
DHS is in the process of changing their regulations to allow students 
to enter the U.S. 45 days before their classes start, rather than 30 
days.
    We increased to one year the validity of the clearances granted to 
certain groups of scientists and scholars who participate in joint-
research programs. Travelers who need to make repeated visits within a 
given year may now do so without our consular officers having to go 
back to Washington for an additional name check if they are in these 
categories. The turn-around time for a common student visa clearance, 
the ``Visas Mantis'' clearance, was reduced to less than 14 days 
worldwide after we created a separate team dedicated to MANTIS 
clearances and streamlined the interagency clearance process. In 
addition, students only require one initial MANTIS for their period of 
study, up to 4 years.
    Consular officers and other Embassy personnel have been active 
overseas in reaching out to student and academic groups to promote U.S. 
higher education. Public appearances, press articles, and web-chats 
have all carried the message that a wide variety of educational 
opportunities in the United States are available for foreign students. 
For example, the Embassy in Dhaka hosts a monthly radio program called 
``Ask the American Consul'' where student and other visa issues can be 
discussed. In China, consular officers participate in web-chats, which 
have generated over 100,000 hits each time.

    Question 5. The average time a visa applicant must wait to get a 
visa interview varies greatly from country to country. What factor or 
set of factors would State and the DHS attribute this to?
    Answer. In some posts, and particularly during peak travel seasons, 
the demand for non-immigrant visa (NIV) interviews exceeds our workload 
capacity. As you noted, wait times vary from country to country 
depending on current staffing levels, NIV workload changes, and 
physical setup. Some posts therefore have a wait time for interviews 
which ranges from one day in posts as varied as Beijing, Ankara, Nuevo 
Laredo, and Warsaw, to 30 days or longer in posts such as Manila, 
Caracas, Vancouver, and Tashkent.
    While the State Department is working hard to minimize the wait 
times for nonimmigrant visa appointments worldwide, we realize that 
there is a significant appointment backlog at a good number of overseas 
posts. Therefore, we asked our consular sections to establish 
procedures whereby those visa applicants with urgent travel needs, such 
as medical emergencies, can get expedited appointments.

    Question 6. What is being done to remedy this problem? Do you plan 
to implement videoconferencing technology in all Embassies and 
Consulates for visa interviews?
    Answer. In order to keep the wait for an NIV appointment as short 
as possible, the Department has added staff and improved consular space 
at many posts. While these steps have helped more than 80 percent of 
our posts to keep their wait times short, the remainder of our posts 
have appointment delays above 30 days. These delays are often due to 
staffing shortages, space issues or a rapid increase in visa 
applications.
    Posts with waiting periods have established mechanisms to expedite 
appointments for legitimate business travelers with urgent needs, 
students and exchange visitors, and applicants seeking emergency 
medical care. Our posts have also developed individual business 
facilitation programs that work best for their regions. We will 
continue to work with those posts to come up with creative solutions to 
aid them in reducing the appointment backlog while at the same time 
ensuring that every application is properly screened according to 
applicable laws, regulations, and security concerns.
    As you know, the Intelligence Reform and Terrorism Prevention Act 
made it mandatory for most non-immigrant visa applicants to appear at 
an Embassy or Consulate in person for an interview. This increased the 
total number of individuals our consular officer now need to see in 
person.
    There are some exceptions to the in-person interview requirement. 
For instance, travelers under 14 years old and over 79 years old do not 
need to appear in person.
    Congress also mandated that we collect biometric data from each 
visa applicant as of October 2004 (applicants under 14 and over 79 as 
well as diplomatic and official travelers are exempt). As a result, 
there are some cases in which we could waive the visa interview but we 
do not because of the need to collect fingerprints. We are working with 
the Department of Homeland Security (DHS) to find a way to reduce this 
burden for certain frequent travelers. We are also interested in 
working with Congress to give consular officers greater flexibility in 
applying the interview requirement, particularly for travelers who have 
already been appropriately screened and assessed for risk, such as 
frequent tourist or business travelers.

    Question 7. When addressing a House Committee in September 2005, 
Assistant Secretary of State Maura Harty announced State Department 
plans to enlarge the consular staff at many American Consulate offices 
throughout the world. Have these plans been executed? Do you expect 
extra consular staff to reduce the often lengthy visa interview wait 
times experienced by many visa applicants?
    Answer. Our ability to shorten wait times will depend largely on 
our ability to provide additional resources to those posts where demand 
is outpacing our capacity. We have added 570 new consular staff 
worldwide since 2001. In addition, we have dramatically increased our 
ability to provide temporary consular officers to posts that need 
assistance and are now providing more such help than ever before. The 
Bureau of Consular Affairs continues to add retired, experienced 
consular officers to our roster of people available to provide 
temporary assistance to posts. We have also worked with posts to 
increase use of the electronic visa application form and other 
technological tools to streamline visa processing and started up new 
``call centers'' to assist consular sections in contracting out the 
visa appointment process. We have seen significant reductions in wait 
times due to these advances, but continue to work toward the 
elimination of lengthy waits for visa appointments.
    It is our objective to provide courteous and timely service to all 
persons requesting consular assistance. We regret the delays 
encountered by some applicants. While consular officers attempt to be 
as sensitive as possible to the need for expeditious processing of 
applications, they must first conscientiously administer the 
Immigration and Nationality Act. While we want to do our best to 
facilitate legitimate travel, we cannot compromise the security of the 
visa issuing process or of the United States.

    Question 8. What additional steps have been taken by State and the 
DHS to expedite and ease the issuance of visas while ensuring that our 
national security is protected?
    Answer. An important part of our visa process is our consular 
lookout database, which contains information from past visa cases as 
well as other agencies. When an officer determines that an applicant 
matches a ``hit'' in the database, in many cases he or she must send a 
request for a security review of the case in Washington. Slightly over 
217,000 Security Advisory Opinions (SAOs) were conducted in FY 2005; in 
the first 10 months of FY 2006, the Visa Office processed nearly 
180,000. Despite annual increases in SAO volume, the Visa Office and 
its interagency partners have made steady progress in reducing SAO 
processing times while making those times more predictable. By the end 
of FY 2005, average SAO processing time had fallen to 20 working days, 
from 26 days in FY 2004, and nearly 60 days in FY 2001.
    ``Visas Donkey'' processing, which covers a specific interagency 
review of certain visa applicants and is generally the longest duration 
category, fell dramatically from an average of over 53 days in FY 2004 
to an average 37 days in FY 2005. After falling to an historic low of 
about 15 working days this spring, Visas Donkey processing currently 
stands at 2004 levels due to staffing issues at one of our principal 
interagency partners. We expect this increase in the Visas Donkey 
processing time to be temporary as these staffing issues are addressed 
and as the next phase of our SAO Improvement Project (SAO-IP), which 
further automates the SAO clearance process and consists of upgraded 
interagency connectivity, is about to come on stream.
    We also work with our interagency partners take special steps to 
expedite the SAO clearances of United Nations General Assembly (UNGA) 
applicants, students and exchange visitors, and Diversity Visa Lottery 
applicants so they can meet their planned travel dates.
    On the Immigrant Visa side, our National Visa Center (NVC) in 
Portsmouth, New Hampshire, helps to reduce post workload, speed up the 
visa process, and enhance security by collecting and reviewing 
immigrant visa petitions and supporting documents, running an FBI 
check, and investigating possible fraud before the visa case even is 
sent to post. NVC is also scheduling appointments for a number of posts 
in a pilot program we hope to expand in future.
    We have also worked closely with DHS to streamline the waiver 
process. Visa applicants who are statutorily ineligible for visas are 
sometimes able to receive waivers of those ineligibilities to allow 
them to travel. As of September 8, all NIV waiver requests are 
transmitted electronically to DHS/CBP, allowing us to receive a 
response in a shorter amount of time as well as effectively track and 
record these requests.

    Question 9. For many foreigners traveling to the United States for 
the first time, the first experience they have with the United States 
will be the experience they have obtaining a visa through our Embassies 
and Consulates. Travel to the United States is more likely when that 
first impression is a positive one. Do you currently train staff in 
customer service? If not, do you plan to do so in the future? How can 
we ensure that foreigners' first impression of the United States is one 
of ``welcome and open arms? ''
    Answer. In the 31-day mandatory basic consular training course, our 
instructors emphasize to new officers that they are the face of the 
United States abroad and that the way they communicate their decisions 
to a visa applicant is just as important as the decision they make; 
their actions leave a lasting impression on each person they interview. 
We reinforce that message with over 35 mock interviews where each 
officer must interview an applicant for a visa, make a decision based 
on immigration law, and communicate that decision clearly and politely 
to the applicant. As part of this training, our new officers also 
receive a three-day course on consular interviewing techniques where 
they are taught the best way to build rapport, gather information and 
make a decision, all while presenting a positive view of the United 
States. During that training, we record the officers doing a visa 
interview and provide specific feedback on their decisionmaking, 
interview techniques, and diplomacy. Our goal is to leave each 
applicant with a positive impression of the United States, whether or 
not he or she qualifies for a visa under immigration law.
    We reinforce that same message through regional consular workshops, 
advanced training for mid-level and senior officers, and periodic 
guidance to all consular officers abroad. We know that our officers are 
on the front lines of diplomacy as well as national security, and we 
feel both are equally important.

    Question 10. Are there any e-Passport programs currently being 
tested? What problems do State and the DHS foresee in implementing the 
widespread use of e-Passports?
    Answer. The Department of State has been involved in a 
comprehensive testing program of e-Passports for more than a year. Most 
of this testing has been under the auspices of the U.S. National 
Institutes of Standards and Technology (NIST). The testing is designed 
to assess the reliability, durability and electronic performance of 
products offered by a number of vendors competing for contracts to 
support the U.S. e-Passport program.
    Based on the results of that testing, the Government Printing 
Office, the State Department's operational partner in the e-Passport 
program, has awarded a number of contracts to vendors. Products from 
one vendor, Infineon, are incorporated into the U.S. diplomatic 
passports that we began issuing in December 2005, and into official 
passports that were issued beginning in April 2006. On August 14, at 
our Colorado Passport Agency, we began issuing the first U.S. e-
Passports to the public.
    During the Summer of 2005, the State Department, partnering with 
the Department of Homeland Security and in collaboration with Australia 
and New Zealand, launched an operational field test to measure the 
overall performance of the e-Passport and the efficiency of e-Passport 
readers in airport environments. A second phase of testing was 
conducted in early 2006 and included the United States, Australia, New 
Zealand and Singapore. These tests provided valuable information about 
the functional systems, operational processes, and general 
characteristics of the e-Passport.
    Based both on testing to date and real world performance of e-
Passports issued by many governments, the Department of State does not 
foresee any systemic problems with the introduction of U.S. e-
Passports. Nearly 40 nations, including many who are not participants 
in the U.S. Visa Waiver Program, have active e-Passport programs. The 
widespread introduction of this technology reflects the importance 
attached by many governments to strengthening border security by 
preventing the use of passports by anyone other than the person to whom 
that passport was originally issued by his or her national government.
    The State Department is well aware that the issue of privacy and e-
Passports has generated significant attention from the public and some 
privacy advocates. In discussing this issue it is important to note 
that the only data written to the chip in a U.S. passport is the same 
data (digital photograph, name, date of birth, etc) found on the data 
page of a U.S. passport. Furthermore, and consistent with the State 
Department's public commitment not to issue e-Passports until we were 
confident that any security vulnerabilities were addressed, the 
Department has made a number of fundamental improvements to the U.S. 
passport in terms of personal data security. These include:

  <bullet> The use of a metallic material in the front cover and spine 
        of the passport to address the risk of data skimming (reading 
        data without the knowledge of the authorized bearer);

  <bullet> Introducing Basic Access Control to ensure that the passport 
        chip can be read only after an electronic key is generated 
        based on data found in the Machine Readable Zone of the 
        passport; and

  <bullet> The adoption of Random Unique ID numbers which address the 
        risk of tracking by ensuring that the passport chip generates a 
        different ID number each time it communicates with a passport 
        chip reader.

    Based on all of these initiatives, the Department of State is 
confident that the U.S. e-Passport protects personal privacy 
information.

    Question 11. Have you been in contact with or worked with any 
foreign governments in the development of the e-Passport?
    Answer. The U.S. e-Passport was developed consistent with the 
globally interoperable biometric specifications adopted by the 
International Civil Aviation Organization (ICAO). The Department worked 
with ICAO Member States, including Germany, Australia, New Zealand, the 
United Kingdom, The Netherlands, Canada, Japan, Switzerland, Singapore, 
France, Finland and Italy, to develop standard operational processes 
for the e-Passport.
    Governments throughout the world have recognized that they must 
learn from each other as they deal with the challenges of e-Passports. 
There has been an unprecedented series of international meetings to 
exchange information on ``lessons learned'' and to test various 
products and processes involved with the deployment of e-Passports.
    Partnering with the Department of Homeland Security and in 
collaboration with Australia, New Zealand, and subsequently, Singapore, 
the State Department participated in an operational field test to 
measure the overall performance of the e-Passport, assess the 
operational impact at airports and the efficiency of e-Passport 
readers. These tests provided valuable information about the functional 
systems, operational processes, and general characteristics of the e-
Passport.
    The Department has a long history of assisting other governments to 
identify and implement advanced technology, ICAO compliant, travel 
documents. Since 9/11 and the 2003 passage of the ICAO standards on 
biometrics and travel document issuance security, contacts with other 
governments have at least doubled. Over the past 2 years, an average of 
about 20 countries per year have consulted with us on e-Passport 
technology, passport issuance rules, methods and security, and fraud 
prevention practice.

    Question 12. What would be the process for phasing-out use of the 
current passport booklets and moving to e-Passports? When does State 
and/or DHS estimate the e-Passport process will be implemented, and 
when can we expect the phase-out of current passport booklets?
    Answer. The Department of State began issuing the first-ever 
tourist e-Passports to the public at the Colorado Passport Agency on 
August 14, 2006. Diplomatic and Official e-Passports are already being 
issued at our Special Issuance Agency in Washington, D.C. The 
Department expects to fully transition to e-Passport production 
domestically in 2007. Previously issued passports without electronic 
chips will remain valid until their expiration dates.
    Currently valid passports will remain valid until their original 
expiration date. There will be no requirement for citizens to replace 
their existing passport with an e-Passport before its normal expiration 
date.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         James W. LeDuc, Ph.D.
    Question 1. After the outbreak of the Severe Acute Respiratory 
Syndrome (SARS) virus in China in 2002, the disease spread to a 
reported 31 countries and caused 8,437 deaths, severely affecting 
China's international tourism industry. In fact, following the 
announcement of the SARS outbreak and quarantines, China's gross 
domestic product (GDP) dropped significantly from 9.9 percent in the 
first quarter of 2003, to 6.7 percent in the second quarter.
    After the SARS outbreak in China in 2002, we saw China's GDP drop 
drastically, mostly due to the negative effect the disease had on the 
tourism industry. What can we do to prevent the same situation from 
happening in the U.S., with the Avian Flu?
    Answer. When a new influenza A virus strain emerges that causes 
illness in humans and allows sustained transmission among humans (i.e., 
a pandemic strain of influenza), it could have a serious negative 
impact on the GDP of the United States and many other countries. The 
impact could be felt in multiple parts of the world at the same time, 
because pandemic viruses can spread rapidly throughout the world. The 
tourism industry could be highly affected, as could many others 
industries in a severe pandemic (e.g., healthcare, food, 
transportation, and other industries basic to the social 
infrastructure). The potential length of an influenza pandemic also 
should be considered in relation to GDP, including the challenges to 
local economies that depend heavily on industries such as tourism. An 
influenza pandemic could have one or more waves, each lasting 6-10 
weeks, that affect a community over several months followed by annual 
epidemics.
    The highly pathogenic avian influenza A (H5N1) viruses (often 
called ``bird flu''), which have caused more than 250 human illnesses 
and almost 150 deaths worldwide since 2003 (as of September 28, 2006) 
and have resulted in the deaths and culling of millions of poultry, is 
currently of grave concern for public health worldwide. The H5N1 avian 
virus thus far has not caused sustained transmission from human-to-
human. However, influenza viruses are constantly changing, and 
surveillance is ongoing to detect any changes in the virus that might 
make it more likely to transmit among humans and also to look for 
epidemiologic evidence of sustained human transmission.
    The SARS outbreak was able to be contained within a relatively 
brief time, even though the coronavirus that causes the infection was 
not identified until after the multi-country outbreak started. The 
2002-2003 SARS outbreak was spread mostly in relatively contained 
settings (e.g., institutions, hospitals, planes). An avian influenza 
outbreak among people, especially one that evolves into a pandemic, 
probably would spread much more quickly and simultaneously in multiple 
settings (shopping areas, schools, businesses, neighborhoods) during 
many months or even years and in multiple countries at the same time. 
Another important difference between influenza and SARS is that persons 
with SARS do not become infectious until they are obviously ill and are 
most infectious in the second week of their illness, while persons 
infected with influenza may be infectious the day before they become 
ill or when they have very mild symptoms. In addition, the time from 
exposure to illness onset (the incubation period) for SARS is typically 
2-7 days but can be as long as 2 weeks, while the incubation period for 
influenza averages 2 days (range 1-4 days). The longer incubation 
period and lack of transmission during the incubation period make SARS 
more easily contained than pandemic influenza would be.
    The avian influenza A (H5N1) virus has not been detected in the 
United States or anywhere else in the Americas. It is not known what 
impact the first detection of H5N1 avian influenza in poultry or wild 
birds might have on the U.S. However, the United States has an 
effective animal health surveillance system as a vital component of its 
National Pandemic Influenza Preparedness Plan that should minimize 
large economic impacts due to infected poultry. HHS would also be 
involved in conducting surveillance for any human cases if H5N1 were 
detected in the United States. H5N1 outbreaks in poultry and other bird 
populations in European countries have been able to be contained 
quickly. However, in other countries, outbreaks of avian influenza 
viruses in poultry have resulted in huge economic losses to that 
industry. It is difficult to determine at this point the impact of H5N1 
outbreaks among birds have had on tourism in countries with and without 
human cases.
    Actions to minimize the economic impact on tourism and other vital 
industries will require a multi-year, sustainable preparedness and 
response system involving both domestic and international partnerships. 
The system must be able to identify avian influenza promptly, quickly 
contain outbreaks, emphasize continued laboratory and epidemiological 
surveillance and research, and ensure that people are well informed 
about health protection, including non-pharmaceutical interventions.

    Question 2. In a worst case scenario, where the Avian Flu begins to 
spread from human-to-human in the U.S., would it be possible to 
quarantine the multitude of tourists to prevent the disease from 
spreading? How would we do this?
    Answer. If an avian influenza such as the H5N1 virus were to evolve 
into a form that allowed sustained human-to-human transmission and such 
transmission were already ongoing within the United States, it would be 
extremely difficult to contain the disease by placing large groups of 
tourists in quarantine. Early in a pandemic, it will be most important 
to try to contain community outbreaks through non-pharmaceutical 
interventions, because a vaccine will not likely be available at the 
beginning of a pandemic. Non-pharmaceutical interventions may include 
social distancing, closing schools, limiting large gatherings, 
promotion of hand washing and cough etiquette, and possibly voluntary 
isolation of those infected and/or quarantine of close contacts of ill 
persons. As the pandemic progresses and the virus becomes more widely 
dispersed, these types of actions probably would have a more limited 
benefit.

    Question 3. The fatality rate of the Severe Acute Respiratory 
Syndrome (SARS) virus is only about 10 to 20 percent, while the Avian 
Flu has a fatality rate of over 50 percent. The SARS virus also has a 
slower mutation rate than the Avian Flu, meaning that a new strain of 
the Avian Flu can develop faster than those of the SARS virus, making 
it difficult to keep up with demand for effective vaccinations.
    I understand the bird flu has a fatality rate over 50 percent, 
while the SARS virus fatality rate is only 10 to 20 percent. What does 
this mean in terms of how we would control the outbreak of the bird flu 
if that were to occur?
    Answer. The currently circulating avian influenza A (H5N1) strains 
that are resulting in fatality rates over 50 percent may or may not 
evolve into a pandemic strain of influenza. In order to control illness 
in humans, outbreaks in poultry and exposure to ill birds and poultry 
must be controlled. For now, the H5N1 virus lacks the ability to 
efficiently transmit from person-to-person. Almost all confirmed human 
cases have involved direct contact with infected birds. This and other 
factors illustrate problems involved in drawing meaningful comparisons 
of fatality rates between SARS and avian influenza or an influenza 
pandemic. In addition, in past influenza pandemics, the fatality rates 
have been much lower, on the order of 0.1 percent to 2 percent.
    Despite this difficulty, some non-pharmaceutical interventions 
found effective in minimizing transmission of SARS also would be 
important for minimizing the spread of pandemic influenza during its 
early stages, including hand washing, social distancing, and use of 
cough etiquette. These types of self-protection are especially 
important while an effective vaccine is being researched, developed, 
and manufactured.
    SARS helped spur collaborative public health approaches between 
government officials, health professionals, and community leaders. The 
current pandemic influenza preparedness actions are building on these 
networks as well as involving experts in animal health.

    Question 4. I understand that the mutation rate for the bird flu is 
much faster than that of the SARS virus. How much faster is the 
mutation rate and exactly how does this effect the process of making 
vaccinations?
    Answer. The ongoing global surveillance and research necessary to 
monitor changes in a virus such as H5N1 are among the greatest 
challenges in preparing for an influenza pandemic. Mutation and other 
changes in influenza viruses occur continually. In contrast, the SARS 
corona virus changes much less frequently. As influenza viruses change, 
scientists must decide which strains present the greatest threat and 
which should be used in the development and manufacture of influenza 
vaccines. Scientists also must continually test antiviral medications 
to determine whether they can be used for treatment or prevention 
during both yearly influenza outbreaks and during a potential pandemic. 
Both of these efforts require considerable public and private 
resources, as well as a high degree of international collaboration 
among scientists, government officials, and others.

    Question 5. Do you think the U.S. will be prepared for the threat 
of a potential pandemic such as the bird flu anytime in the near 
future?
    Answer. If the world faced an influenza pandemic within the next 
year, many scientists would agree that the United States and other 
countries would not be effectively prepared. Great strides have been 
made. These must now be sustained and improved.
    The U.S. Government, states, and localities are making considerable 
progress in pandemic influenza preparedness. Health professional groups 
and the private sector also are showing a high interest in preparedness 
for a pandemic. The magnitude of the threat is great from a public 
health perspective and will require continued, focused resources to 
make and sustain the progress needed on many fronts. These include 
surveillance, epidemiological and laboratory capacity and research, and 
response strategies essential for early containment yet flexible enough 
to maintain assistance over the course of many months or years.

    Question 6. What else can we do legislatively to help prevent the 
spread of such a deadly disease such as the Avian Flu?
    Answer. CDC greatly appreciates the strong support Congress has 
given in response to the current threat that avian influenza A (H5N1) 
and other influenza viruses pose, including the yearly threats from 
annual influenza that result in an average of 36,000 deaths and over 
200,000 hospitalizations. As the public health system addresses 
influenza preparedness and response, CDC and its partners also must be 
ready to confront other emerging infectious diseases, as SARS taught 
us. Sustained support of national, state and local, and international 
surveillance and research for both annual influenza and pandemic 
influenza are critical to promptly detect and control avian H5N1 
outbreaks, pandemic influenza, and other emerging infectious diseases. 
Support for epidemiologic and laboratory infrastructure for seasonal 
influenza is vital as a safeguard for pandemic influenza. Critical 
actions that Congress might consider in the future include:

  <bullet> Continued support of Federal assistance for states, 
        territories, tribal nations, and localities for influenza 
        laboratory and epidemiologic surveillance and response 
        capacity.

  <bullet> Support for capacity building within CDC and other agencies 
        that will establish a strong foundation for conducting 
        surveillance, response and research of seasonal influenza and 
        pandemic threats and the surge capacity necessary when an 
        influenza pandemic occurs.

  <bullet> Continued support for the development of international 
        surveillance and laboratory capacity. This takes sustained 
        efforts, dedicated funding and technical assistance. Further 
        development of international surveillance and laboratory 
        capacity will serve the Unites States as well as other 
        countries, allowing all to become more able to identify and 
        investigate novel avian influenza viruses such as H5N1 or other 
        new pathogens such as SARS.

  <bullet> Support of more international collaborations to strengthen 
        health services in countries affected by the H5N1 virus.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                               Jay Rasulo
    Question 1. It is my understanding that almost all developed 
countries have a cabinet level official charged with tourism promotion 
and diplomacy. From your experience, which countries have done it 
right--to protect their borders but open its doors to tourists?
    Answer. Most industrialized countries, including for instance 
Australia, Canada, the U.K. and France, have well-funded and 
nationally-coordinated efforts to compete for international travelers. 
These countries typically have minister or cabinet level offices 
devoted to inviting travelers to visit, and coordinating government 
policy in order to facilitate visitation.
    Canada invests $80 million per year on its national marketing 
program, and Australia invests more than $100 million. Even New 
Zealand, a country \1/74\ the size of the U.S., invests $43 million 
each year promoting itself to world travelers. Each of these countries 
provides a great example of how to run a nationally-coordinated 
campaign that motivates travelers to visit them.
    The research that is currently being conducted by the Discover 
America Partnership, an organization comprised of members of the travel 
and tourism industry, will help us learn from these countries so that 
we can make an informed recommendation as to what the U.S. ought to be 
doing.

    Question 2. What is the U.S. Government's role to promote its 
tourism industry? Is there anything else our government should do to 
better address your industry's needs?
    Answer. While the private-sector should play a leading role in 
implementing a campaign to promote travel to the U.S., there are also 
roles that the government is uniquely suited to help fulfill:

  <bullet> Marshal Resources of Private-Sector: The Federal Government 
        can act as a galvanizing force to marshal the resources of the 
        private sector travel and tourism industry.

  <bullet> Ensure Efforts Benefit Entire U.S.: The Federal Government 
        is in a unique position to ensure that a nationally-coordinated 
        destination marketing program is one that benefits tourist 
        destinations throughout the U.S.--rather than select 
        destinations on the two coasts.

  <bullet> Publicize Travel Requirements: The government should also 
        play a key role in helping to publicize issues that cut across 
        different agencies, so that marketing efforts are not marred by 
        confusion and misinformation. For instance, the communication 
        of changes in documentation requirements would require 
        coordination between the Departments of State, Homeland 
        Security and Commerce.

  <bullet> Open Doors in Foreign Markets: With its extensive network of 
        Consulates, Embassies and trade offices, the Federal Government 
        can help open doors in foreign markets, and contribute on-the-
        ground resources to supplement communications efforts.

    Question 3. What are the key countries you are targeting in the 
next 10 years for international visitors to the U.S.?
    Answer. The industry, working through a new organization called the 
Discover America Partnership, is developing a blueprint for a 
destination marketing campaign that will identify the markets we should 
be targeting. This blueprint should be complete by the end of 2006.
    However, we are confident in predicting that those countries will 
include the today's top source markets: Canada, the United Kingdom, 
Japan, Germany and Mexico. We also believe that China and other Asian 
countries, which are rapidly rising as sources of international 
tourism, should also be a focus of our efforts.

    Question 4. How can U.S. travel and tourism be used as a public 
diplomacy tool to improve some of America's negative image?
    Answer. Dollar for dollar, investing in a nationally-coordinated 
destination marketing campaign is perhaps the most effective vehicle to 
strengthen the U.S. image in other parts of the world. Such a campaign 
would accomplish the following:

        1. Demonstrate that our Doors are Open and the Welcome Mat is 
        out. Actions speak louder than words, and the simple act of 
        asking people to visit communicates a powerful message in and 
        of itself--even to those who are not able to accept the 
        invitation. We look forward to the day that people around the 
        world receive such an invitation from the United States.

        2. Bring Potentially Millions of Additional Visitors to the 
        U.S. Whether tied to a company or a country, positive word-of-
        mouth is the most powerful form of marketing. Research 
        conducted in six of the top travel markets to the U.S.--Brazil, 
        Canada, France, Germany, Japan and the U.K.--established that 
        while 38 percent of those who had never visited the U.S. had a 
        positive image of the U.S., 54 percent of those who had visited 
        viewed the U.S. positively. Likewise, only 61 percent of those 
        who had not visited the U.S. had a positive view of the 
        American people, compared to 72 percent of those who had 
        visited. By giving these visitors a powerful firsthand 
        experience of our values and hospitality, we can create 
        millions of grassroots Ambassadors.

        3. Communicate America's Story to the World Through a Well-
        Executed Marketing Campaign. The best marketing campaigns 
        contribute to building a long-term brand in addition to selling 
        a product. Many other countries are doing this very 
        effectively, with destination marketing that communicates the 
        values and culture that define them. The U.S. should be in the 
        international marketplace with similar ads that invite the 
        world to experience the land of life, liberty and the pursuit 
        of happiness.

    Question 5. How has the Internet and media changed the way foreign 
countries market their destinations?
    Answer. The Internet and proliferation of media channels has had a 
dramatic effect on consumer expectations. Consumer behaviors and 
booking patterns are evolving at breakneck speed. Today's world 
travelers not only have an increasing number of worthwhile destinations 
to choose from, they have better access to information, and they expect 
a higher level of service and ease of movement than ever before.
    However, it is also worth noting that while the Internet is a 
powerful source of information for travelers, traditional media such as 
television, radio and print, as well as outreach to key travel buys and 
tour operators, is still a core component of any effective destination 
marketing strategy.

    Question 6. The U.S. still leads the other foreign countries in 
total receipts, totaling $75 billion in 2004. With these figures and 
the recent rise in U.S. tourism, why should we be considering new 
policies and programs to promote tourism?
    Answer. The U.S. has captured none of the nearly 20 percent growth 
in country-to-country travel since 2000.
    By the end of 2005, North America was the only sub-region (what is 
a sub-region?) of the world to have recorded a decline in arrivals 
since 2000 .
    U.S. share of international travel has fallen 35 percent since 
1992--from a high of 9.4 percent to the current 6.1 percent. Had the 
U.S. maintained its share of the world travel market, 27 million more 
travelers would have visited the U.S. in 2005.
    U.S. share of revenue from international travel has fallen 29 
percent since 1992--costing the U.S. an estimated $43 billion in 2005 
alone. The cumulative cost since 1992 is estimated at $286 billion in 
economic growth and millions of jobs.
    In 2004--the most recent year for which world statistics are 
available--the U.S. took in $8 billion less from foreign visitors than 
it did in 2000, at the same time that total world receipts were $149 
billion higher.
    Meanwhile, lucrative overseas travel to the U.S. is still down 16.5 
percent from 2000, with corresponding revenues down 8 percent in 2005.
    Compared to 10 years ago, the U.S. international tourism balance of 
trade has declined nearly 72 percent--from $26.3 billion in 1996 to 
$7.4 billion in 2005.
    A June 2006 TIA survey of professional travel agents and purchasers 
showed that 77 percent believed that the U.S. is more difficult to 
visit than other destinations, while only 6 percent found it easier.

    Question 7. What suggestions do you have for the Department of 
Commerce to be more of an advocate for the U.S. travel and tourism 
industry?
    Answer. Create an elevated voice for travel and tourism within the 
Department of Commerce. While the Office of Travel and Tourism 
Industries has served a valuable role in providing research and 
expertise on the industry, and has served effectively in the 
international organizations for government policy deliberations and 
representation, a dedicated higher-ranking office with the power to 
coordinate government policy to enhance the Nation's competitive 
standing in the global travel market is sorely needed. This office 
should be designed to accomplish the following:

  <bullet> Serve as an institutional home and voice for the industry.

  <bullet> Energize the interagency process regarding travel and 
        tourism through an elevated Tourism Policy Council with ex-
        officio status for private sector representation. All 
        government decisions that potentially affect this industry 
        should receive early attention in the interagency process.

  <bullet> Identify existing private sector advisory committees, ensure 
        that they include the right representatives from the industry 
        and see that their recommendations are widely shared across 
        agencies and with other private sector groups and the public.

  <bullet> Coordinate the roles of other government agencies to more 
        effectively expand travel and tourism promotion, product 
        development and infrastructure needs and development.

    Question 8. What is industry doing to communicate the new 
regulations of WHTI to the public so that those planning a trip will be 
prepared for the new procedures and can obtain the necessary travel 
documents? Television, radio, Internet, newspapers, travel magazines?
    Answer. The industry is working through all possible channels to 
communicate this scheduled implementation, including on industry 
participants' websites and through travel agents. Still, as a policy 
change designed to protect all Americans, the burden of educating the 
public regarding these new requirements must not be left to the travel 
and tourism industry to shoulder alone. Moreover, we urge consideration 
of much-needed changes in implementation of these new regulations in 
order to avoid unduly harming travel to and from the U.S.:

        1. Development of an inexpensive alternative to the passport--
        like the proposed PASScard--must be completed before 
        implementation of WHTI. This new card will provide relief to 
        the infrequent travelers whose destinations are limited to 
        crossing the northern border or perhaps taking a round trip 
        cruise in the Caribbean.

        2. The new requirement should not discriminate against cruise 
        ship travelers. First, the PASScard, which the State Department 
        currently intends to make available only to travelers at land 
        borders, should also be made available to cruise travelers. 
        Second, current plans call for an accelerated implementation of 
        WHTI for cruise travelers that at the beginning of 2007, just 4 
        months from now should be changed to reflect the original date 
        mandated by Congress. WHTI should only be implemented for 
        cruise passengers after PASScards are made available.

        3. Finally, as noted above, before this program is launched, 
        it's essential that the government be prepared to support the 
        industry in launching a massive public information campaign 
        aimed at educating travelers.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                               Jay Rasulo
    Question 1. Mr. Rasulo, you note in your testimony that travelers 
expect destinations to compete for their business. Taken as a whole, 
how do you think the United States is doing in that competition right 
now and what can we be doing to improve our position vis a vis our 
competitors?
    Answer. The American travel and tourism industry has been 
significantly outperformed by our global competitors. The United States 
has captured none of the nearly 20 percent growth in country-to-country 
travel since 2000. As outlined in my testimony, we need to make two 
investments to compete more effectively. First, we must ask people to 
visit us, by investing in a nationally-coordinated marketing strategy 
to move the United States higher on their list of dream destinations. 
Second, we must invest in creating a first impression of hospitality 
and friendliness at our borders.

    Question 2. In your testimony, both of you advocate a nationally-
coordinated marketing strategy to enhance our competitiveness for 
tourism dollars. Why does the Federal Government need to spend taxpayer 
dollars on an industry that has shown the resilience to rebound since 
September 11, 2001?
    Answer. Investing in attracting international travelers is in the 
national interest--both economically and diplomatically. Statistics 
show that investment in tourism has a great return on investment in 
terms of jobs, economic growth and tax revenue. More importantly, 
marketing the U.S. to international visitors will help improve 
America's image--which is a top national priority.
    While the private sector has done its best to rebound from the 
events of September 11, 2001, and in fact, visitation continues to rise 
in the United States, the rest of the world is doing even better and 
outpacing our growth. Since 1992, America's share of the world travel 
market has fallen 35 percent. Had the United States grown as quickly as 
the rest of the world, we could have added $286 billion in economic 
revenue to the U.S. economy, and millions of additional jobs. There are 
roles in improving this performance that the government is uniquely 
suited to help fulfill, such as developing a nationally-coordinated 
marketing strategy.

    Question 3. Can you give the Committee your impressions of how well 
the Travel and Tourism Advisory Board has worked to date? What can we 
expect to see in your recommendations to Secretary Gutierrez later this 
month?
    Answer. The mere existence of the Travel and Tourism Advisory Board 
is significant, because it demonstrates that the Congress recognizes 
the importance of this industry for economic development and 
international diplomacy. Likewise, we are pleased that Secretary 
Gutierrez and the Administration as a whole recognize the industry's 
role as an economic driver and cultural Ambassador. The Travel and 
Tourism Advisory Board has now been given a much broader, and much more 
significant, mandate. Secretary Gutierrez has charged the Travel and 
Tourism Advisory Board with the creation of a national tourism 
strategy.
    The Board was asked to identify the necessary elements of a 
competitive national travel and tourism program and to provide 
recommendations on how the United States can compete more effectively 
in the new world market. We submitted our recommendations to the 
Secretary in early September. Our proposals focused on promotion, ease 
of travel and public diplomacy, and measuring return on investment. For 
your convenience, I am attaching a copy of the 
recommendations.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Available at: http://tinet.ita.doc.gov/ttab/docs/
2006_FINALTTAB_National_Tourism_
Strategy.pdf.

    Question 4. Give us your impressions on the effectiveness of the 
``Visit America'' advertising campaign. How would you conduct a similar 
campaign in the future? Where can our limited resources be most 
effectively targeted?
    Answer. The campaign has certainly been productive despite its 
limited scale, and demonstrates the potential benefits of a larger 
campaign. The original authorization for this effort was $50 million, 
intended to target the top five source countries for travel to the U.S. 
Before we could create and launch the campaign, the vast majority of 
the money was eliminated in a rescission, leaving us with just $6 
million to conduct a small campaign in the United Kingdom:

  <bullet> According to research commissioned by the Department of 
        Commerce, the campaign achieved a high return--estimated by 
        Longwoods International at 117 to 1. Whether or not this number 
        is correct, there is little doubt that this campaign has 
        achieved a significant ROI.

  <bullet> The campaign increased the number of those who said they 
        intend to travel to the United States by approximately 2 
        million people. A high percentage of those intended travelers 
        actually converted into sales, with 362,000 visitors who saw 
        the campaign booking a trip to the United States.

  <bullet> A ``best practices'' independent research schedule was 
        developed to ensure the highest standards of accountability for 
        the campaign. The reports concluded that the campaign met all 
        of our goals.

  <bullet> The advertising increased awareness by reaching 
        approximately 12.8 million people in the U.K.

  <bullet> The advertising significantly increased the positive 
        perception of the United States as a travel destination, 
        increasing by 10 percentage points the number of people who 
        mentioned the United States as a ``dream destination'' (above 
        those who did not see the campaign).

    The industry, working through a new organization called the 
Discover America Partnership, is developing a blueprint for a 
destination marketing campaign that will identify the markets we should 
be targeting. This blueprint should be complete by the end of 2006.
    However, we are confident in predicting that those countries will 
include the today's top source markets: Canada, the United Kingdom, 
Japan, Germany and Mexico. We also believe that China and other Asian 
countries, which are rapidly rising as sources of international 
tourism, should also be a focus of our efforts.

    Question 5. You note that the current uptake in international 
visitation is largely due to an increase in Canadian travel. Do you 
think this trend will continue after the Western Hemisphere Travel 
Initiative is fully implemented? How do we achieve the correct balance 
between protecting our borders and not hindering unplanned and 
spontaneous travel?
    Answer. The industry is cognizant of the fact that the Western 
Hemisphere Travel Initiative, if not implemented in a reasonable 
manner, may have an enormous adverse effect on the travel and tourism 
industry. We welcome the recent modifications made by Congress intended 
to ensure a more successful implementation.
    For our part, we have been working through all possible channels to 
communicate the approaching WHTI requirements to the traveling public, 
including on industry participants' websites and through travel agents. 
Still, as a policy change designed to protect all Americans, the burden 
of educating the public regarding these new requirements must not be 
left to the travel and tourism industry to shoulder alone.

    Question 6. How do you think international travelers perceive 
travel to the United States in a post-September 11 environment and what 
can be done to dispel the ``fortress America'' conception that many 
travelers have?
    Answer. The many steps the government has taken to exclude 
potential terrorists, while supported by the travel and tourism 
industry, regrettably may have created the impression that the United 
States does not welcome international visitors. The United States has 
become less competitive than other countries because of the growing 
perception that it is more difficult and more costly to travel here 
compared to other international destinations. Surveys demonstrate that 
potential international visitors now deliberately avoid travel to the 
United States due to real and perceived barriers to entry. For example, 
a Department of Commerce's Travel Barometer report, which surveys 
international travel professionals, recently noted that, ``Starting in 
2004, entrance procedure to the U.S. consistently has registered as the 
top barrier for travel. These barriers included the following factors: 
misinformation for consumers on entry and exit requirements to the USA, 
actual entrance procedures to visit the USA, visa processing time. Two-
in-three program participants consider misinformation for consumers on 
entry and exit requirements as a travel barrier.''
    The Travel and Tourism Advisory Board's recommendations to 
Secretary Gutierrez included multiple proposals designed to combat 
these perceptions. The recommendations are presented in four 
categories: (1) provide a stronger voice for travel and tourism in 
government; (2) remove unnecessary barriers to travel; (3) create a 
welcoming first impression; and (4) avoid inappropriate taxes, fees, 
and regulations. I attach the full set of recommendations for your 
review.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Available at: http://tinet.ita.doc.gov/ttab/docs/
2006_FINALTTAB_National_Tourism_
Strategy.pdf.

    Question 7. In your testimony, you advocate the creation of a 
Presidential Advisory Council on Travel and Tourism. How would you 
envision this public-private partnership working? From your 
perspective, would this be the type of body to carry out advertising 
and marketing campaigns in the future?
    Answer. I defer to my colleague Jonathan Tisch on this response.

    Question 8. How can consular officials create a better first 
impression on travelers seeking entry to the United States for the 
first time? Would you recommend some type of customer service training 
for all consular and customs officials? How would you conduct this 
training?
    Answer. There are a number of steps that we could take to create a 
better first impression on travelers seeking entry to the United 
States. This is an element of the Travel and Tourism Board's 
recommendations to Secretary Gutierrez. To summarize, we propose 
staffing Federal Inspection Services and TSA fully and efficiently at 
land, air, and sea ports. The industry stands ready to assist in 
developing a Model Ports of Entry project, including sharing expertise 
in management of line waits and staffing patterns, establishing pre-
clearance facilities, improved signage, and providing a warm welcome to 
international visitors. We urge DHS to incorporate hospitality within 
its goals and performance review process. We also urge the U.S. 
Government to work to better coordinate security requirements with 
other governments. Finally, we urge the government to ensure accurate 
and timely communications regarding travel requirements directly to the 
traveling public.
    The industry has offered its assistance on customer service 
training for consular and customs officials. We remain willing to 
cooperate, and we are flexible in how best to accomplish that training.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                           Jonathan M. Tisch
    Question 1. It is my understanding that almost all developed 
countries have a cabinet-level official charged with tourism promotion 
and diplomacy. From your experience, which countries have done it 
right--to protect their borders but open its doors to tourists?
    Answer. Other countries realize the need to invite travelers to 
visit their destinations, and that means establishing a budget for 
marketing inbound tourism. A comprehensive study soon to be released by 
the World Tourism Organization (WTO) explores the structures and 
budgets of National Tourism Organizations. The largest tourism budgets 
in 2005 are the following:


              Country                            U.S. Dollars

            Greece                   151.4 million
            Mexico                   149.2 million
            Spain*                   119.7 million
            Malaysia*                117.9 million
            Australia                113.3 million
            United Kingdom           82.9 million
            Ireland                  82.1 million
            South Africa             70.2 million
            Cyprus                   64.5 million
            France                   63.3 million
            U.S.*                    6.1 million

* Funded 100 percent by national government.

    Question 2. What is the U.S. Government's role to promote its 
tourism industry? Is there anything else our government should do to 
better address your industry's needs?
    Answer. The U.S. Government must recognize the great potential the 
travel and tourism industry has as a vehicle for public diplomacy 
across the globe. At a time when America's image abroad is tarnished, 
through international people-to-people interaction--which is only 
achievable through travel--we have the ability to influence the 
opinions of billions. A recent Pew Global Attitudes survey showed that 
international visitors to the U.S. are 42 percent more likely to hold 
positive opinions of the U.S. than those who have not visited.
    It is the government's role to ensure that those who want to travel 
to the U.S. are able to do so without unnecessary hassles caused by 
stringent security measures implemented post-9/11. The travel and 
tourism industry supports the government's efforts to secure our 
Nation's borders from future terrorist attacks, but we must also be 
sure to welcome legitimate business and leisure travelers at the same 
time.
    The U.S. Travel and Tourism Advisory Board, of which I am a Member, 
has recently submitted to the Secretary of Commerce recommendations for 
a national tourism policy. This document represents the hard work and 
vision of more than a dozen U.S. travel and tourism leaders and serves 
as a blueprint for Congress and the Administration on how to approach 
the challenge of balancing security and the free flow of commerce. The 
document will be released to the public in September.

    Question 3. What are the key countries you are targeting in the 
next 10 years for international visitors to the U.S.?
    Answer. As you know, the U.S. has spent and is spending its 
marketing dollars in the U.K. and Japan. They are our largest overseas 
inbound travel markets. As our largest overall inbound market, Canada 
will also be a key target, especially as the Western Hemisphere Travel 
Initiative is being implemented.

    Question 4. How can U.S. travel and tourism be used as a public 
diplomacy tool to improve some of America's negative image?
    Answer. Travel and tourism is a public diplomacy tool that has not 
yet realized its full potential. The difference between visitors' and 
non-visitors' positive feelings toward the U.S. in some of our largest 
markets are quite dramatic based on the following research from GMI, 
Inc. (2005):

----------------------------------------------------------------------------------------------------------------
                                                     Visitors' Positive Feelings       Non-Visitors' Positive
                      Country                                (in percent)              Feelings  (in percent)
----------------------------------------------------------------------------------------------------------------
        U.K.                                                                  61                             44
        Japan                                                                 46                             28
        Germany                                                               45                             27
        France                                                                52                             17
----------------------------------------------------------------------------------------------------------------

    Clearly travel makes a difference.
    The September launch of the Discover America Partnership is one way 
the industry is rising to the occasion. The goal is to draw attention 
to travel as the prominent solution to the U.S. image problem. In 
addition, the efforts of the USTTAB are highly focused on promoting 
more travel to the U.S., through more efficient visa processes, 
reasonable passport regulations, and more welcoming entry procedures.

    Question 5. How has the Internet and media changed the way foreign 
countries market their destinations?
    Answer. Foreign countries are increasingly using the Internet to 
market their countries as destinations. According to the WTO study, 3.4 
percent of the above countries' marketing funding goes toward the 
Internet. The U.S. travel industry, through the USTTAB, recommends the 
most recent $4 million appropriation through Commerce be used to 
enhance marketing tools on the DiscoverAmerica.com website.

    Question 6. The U.S. still leads the other foreign countries in 
total receipts, totaling $75 billion in 2004. With these figures and 
the recent rise in U.S. tourism, why should we be considering new 
policies and programs to promote tourism?
    Answer. Five years after 9/11, we have still not matched 2000 
inbound travel levels. In terms of overall travel numbers, we are 
almost there. However, this rise in inbound international travel is 
deceptive because most of the increase is due to a rise in Canadian and 
Mexican travel to the U.S. These markets have taken a 10 percent 
increase, while our overseas market is lagging 17 percent behind 2000 
levels. In addition, with the WHTI deadline approaching, we must be 
careful how we implement new travel document requirements on our 
closest neighbors. U.S. overall world market share has decreased 19 
percent from 2000 to 2004, and 36 percent between 1992 and 2004. The 
U.S. had 9 percent of world market share in 1992, today we have 6 
percent.
    When waits for visas in India are 150 days (currently in New Delhi) 
for visitors, we should be considering new policies and procedures for 
ensuring those visitors who want to come here are able to do so.

    Question 7. What suggestions do you have for the Department of 
Commerce to be more of an advocate for the U.S. travel and tourism 
industry?
    Answer. The industry is greatly appreciative of Secretary of 
Commerce Gutierrez's leadership with the USTTAB. By asking for industry 
recommendations about travel and tourism policy, the Department of 
Commerce has accumulated a wealth of knowledge from industry leaders. 
The Department should work with the Departments of State and Homeland 
Security and the private sector to implement these recommendations.

    Question 8. What is industry doing to communicate the new 
regulations of WHTI to the public so that those planning a trip will be 
prepared for the new procedures and can obtain the necessary travel 
documents? Television, radio, Internet, newspapers, travel magazines?
    Answer. The travel and tourism industry is currently awaiting the 
final WHTI rulemaking from the Departments of State and DHS. Our 
members are updated at each step toward making the final rules. We 
believe there should be a modest deadline extension for land-border 
travel and that PASScards should be made available for cruise 
travelers. As soon as DHS and State indicate they are prepared to meet 
the deadlines, we will work with them to educate the traveling public.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                             Todd Davidson
    Question 1. Is the Oregon Tourism Investment Program a good model 
for marketing the U.S. as an international tourism destination? What 
lessons can we extract from the Oregon experience to guide a national 
program to make the U.S. more competitive in the global tourism market?
    Answer. The Oregon Tourism Investment Proposal is one of several 
programs that should be explored as models for a national tourism 
marketing effort. The OTIP represents a vibrant public-private 
partnership where an industry-lead coalition worked with elected 
officials to craft legislation that established a stable funding source 
(1 percent statewide lodging tax on all forms of transient lodging) and 
removed much of the bureaucratic and administrative oversight by 
establishing the Oregon Tourism Commission as a semi-independent 
agency. Other funding and administrative models that I recommend should 
be explored include Minnesota, Missouri, California and Florida.
    There are several lessons learned that are applicable to a national 
effort. These include:

        1. There is a role for government for creating awareness and 
        demand for a travel destination. This is true for Oregon and is 
        true for the United States.

        2. The removal of bureaucratic barriers will create a more 
        market-driven and market responsive organization. Such an 
        organization will be better positioned to maximize the return 
        on investment of their available resources.

        3. That a vibrant, well-funded advertising effort can reduce 
        and eliminate a loss of market share and stimulate the economy 
        through increased visitor expenditures and the subsequent job 
        creation.

    Question 2. Please tell us more about what Oregon has done to 
market itself as a tourism destination.
    Answer. The Oregon Tourism Commission implements a fully integrated 
marketing and development program. We have four strategic areas of 
focus that we address in our marketing plans and they are:

    Strategic Area #1--Maximize the return on public and private 
investments in tourism.

        This strategic area focuses on the return on investment 
        generated by the Commission's marketing programs: media 
        advertising, communications and collateral material, and State 
        Welcome Centers. Ensuring that marketing investments made by 
        the Commission and its private-sector partners are translating 
        into real economic benefits is a high priority. Measurements 
        range from generating trips from advertising to maintaining 
        consumer awareness in key markets.

    Strategic Area #2--Reduce seasonal fluctuations in travel and 
tourism-related industries and maintain the average stay by encouraging 
visitors to be destination-oriented in this state.

        All of the Commission's marketing and development programs 
        emphasize year-round tourism where feasible, and promote 
        destination tourism throughout the state. The measurements 
        related to this strategic area of focus are found primarily in 
        the media advertising, public relations, communications and 
        tourism development program areas.

    Strategic Area #3--Encourage visitors to come to Oregon from the 
primary international target markets of Canada, Germany, Japan and the 
United Kingdom.

        With the non-stop international air service of Lufthansa German 
        Airlines', Mexicana Airlines' and Northwest Airlines' into 
        Oregon, this area of focus continues to be increasingly 
        important. Working in cooperation with key partners, including 
        the Port of Portland, the Commission will strive to invest 
        limited dollars strategically in attracting new visitors from 
        Europe, Mexico and Asia to support this service, as well as 
        from Canada.

    Strategic Area #4--Cooperate with local, regional, national, tribal 
and private-industry tourism entities.

        Partnerships are a critical component of the Commission's 
        ability to position Oregon positively in the travel 
        marketplace. With limited state dollars, partnerships help the 
        Commission leverage funding and grow the reach of our marketing 
        and development programs. This area focuses on meeting similar 
        goals identified in Strategic Area #1 in that the return on 
        investment generated by tourism marketing activities is 
        critical to the state and its tourism industry. In addition, 
        the Commission provides tools for developing the industry 
        statewide, including up-to-date research, the Q Program, rural 
        tourism development, ``niche'' market development and training, 
        the annual Governor's Conference on Tourism and State Welcome. 
        Of equal importance, this plan will call for a more proactive 
        role for the Tourism Commission in unifying the industry around 
        marketing objectives, industry awareness building and policy 
        development.

    Question 3. How much appeal do Oregon Scenic Byways have to 
domestic and international tourists? How does Oregon market its scenic 
byways?
    Answer. Oregon was an early adopter of developing a strong scenic 
byways program and has benefited as a result. Oregon now has the 
largest number of All America Roads in the U.S. and has received 
several Federal grants to support the safety, interpretation and 
marketing of our scenic byways. One grant enabled us to produce the 
Oregon Scenic Byways Guide which has become our most popular guide for 
our European visitors. The presence of the byways creates ``suggested 
itineraries'' for our visitors and introduces them to our natural, 
cultural and historical landscapes throughout the state, but especially 
in our most rural areas. Oregon promotes the byways in publication, on 
their website www.TravelOregon.com, in press release and e-newsletters.

    Question 4. What will be the potential impact of the 2010 Olympics 
in Vancouver on Oregon tourism? What is being done to maximize that 
impact?
    Answer. The proximity of the 2010 Olympics being held in Vancouver, 
B.C. holds potential benefit for Oregon. So, we are working with the 
Pacific Northwest states of Washington, Idaho and Montana, as well as 
the provinces of Alberta and British Columbia to explore joint 
marketing programs. Specific opportunities we have identified include 
establishing a visitor information center near the Olympic Village to 
reach the visitors traveling to the Games, positioning the Northwest as 
a training facility for Olympic teams wishing to acclimate to the 
region's elevation and climate, and marketing to the noncredentialed 
media that follow the Games to do travel and lifestyle oriented 
stories.

    Question 5. What effect could the Western Hemisphere Travel 
Initiative have on Oregon? What is being done to cope with that impact?
    Answer. Oregon has benefited from strong Canadian travel for 
decades. And with the Mexicana flights serving PDX, Oregon is 
experiencing growth in Mexican arrivals as well. While the Oregon 
Tourism Commission supports enhanced security measures to protect our 
Nation, we remain concerned the January 1, 2008 deadline poses a real 
threat to cross-border travel between the U.S. and its neighbors within 
the Western Hemisphere. We are particularly concerned about the impact 
of the proposed WHTI on Canadian travel to the U.S., and will continue 
to work with the Travel Industry Association, the Travel Business 
Roundtable and the Administration to find workable solutions that 
enhance border security while continuing to facilitate the entry of 
millions of legitimate international visitors. And while we are 
encouraged by the adoption of the Stevens-Leahy amendment, the fate of 
Immigration Reform legislation in the Senate or beyond that in a 
Senate-House conference committee is uncertain.

    Question 6. What role does the private sector play in marketing 
Oregon tourism?
    Answer. There are numerous critical and pivotal roles played by the 
private sector in the promotion of Oregon as a travel destination. Some 
examples include:

        1. The private sector is the ultimate purveyor of the product 
        we create demand for. While the Tourism Commission's efforts do 
        create awareness and demand for the destination, the financial 
        transaction occurs with the private sector businesses 
        delivering the experience.

        2. The private sector represents the vast majority of the 
        membership of the gubernatorially-appointed Tourism Commission: 
        five members are from the lodging sector, three are from the 
        tourism industry-at-large and one is from the public-at-large.

        3. The private sector leverages our marketing efforts by 
        helping host tour operators and travel media, purchasing 
        product ads that reflect the Brand Oregon style, and providing 
        exemplary service to our visitors to increase repeat 
        visitation.

    Question 7. How does the recent increase of tourism in Oregon 
compare with other states?
    Answer. The increase in visitor expenditures in Oregon for the past 
2 years has been on an even pace with the national average--
approximately 7 percent per year. The importance of this is that prior 
to the implementation of the Oregon Tourism Investment Proposal, 
Oregon's visitor industry was growing at a slower pace than the 
national average. We were losing market share. At one time, Oregon's 
marketing budget was 46th in the country out of 50 states at $3 million 
annually while the average state tourism budget in the U.S. was 
approximately $13 million annually. Today, with the implementation of 
the OTIP, Oregon's budget is $9 million annually. And, while this is 
still below average for all state tourism office budgets, we are far 
more competitive at this level and have been able to secure additional 
market share and keep pace with the national average rate of growth.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
              Virginia ``Ginny'' Pressler, M.D., MBA, FACS
    Question 1. In Dr. Pressler's testimony she states that more than 
11,000 visitors have come to Hawaii for planned medical treatment. This 
is in addition to the numerous visitors that need unplanned medical 
assistance from the Hawaii healthcare system while visiting the 
islands. With the growing number of planned and unplanned visitors 
using Hawaii's healthcare facilities, do you feel that this is in any 
way hindering the treatment the local community receives from the 
healthcare system in Hawaii?
    Answer. The connection between tourism and access to Hawaii's 
healthcare facilities by local residents is a mixed bag. As mentioned 
in my testimony, there is a growing awareness that Hawaii is 
strategically placed to become a premiere medical tourist destination 
given its location advantage, existing tourist amenities and the 
reputation of its quality healthcare system. Any investment to develop 
facilities to meet this growing demand will have positive spillover 
effects for local residents as well--provided these are tourists 
originating from countries with adequate health insurance coverage.
    For example--generally speaking--U.S. mainland, East Asian, and 
European visitors with commercial healthcare coverage generally 
reimburse our healthcare providers far better than Hawaii health plan 
reimbursement rates. These patients provide a welcome source of revenue 
for our healthcare facilities which enables them to improve services in 
our local community.
    However tourists with government coverage--for example U.S. 
Mainland patients covered by their state Medicaid plans create a 
problem for us since State Medicaid agencies require a provider 
application completed for each hospital and each physician for every 
state from which we treat patients. Given the administrative burden, 
for physicians, it is easier for us to simply write off the claim than 
seek reimbursement.
    Similarly Pacific Island patients are covered under government 
programs that pay inadequately. At Kapi'olani Medical Center for Women 
& Children we have received $46,000 in the last 9 months for CNMI 
Medicaid patients during which time these patients have incurred $1.6 
million in billed charges. These inadequate reimbursements create a 
major burden on our local healthcare system.
    So again to go back to your initial question, the impact of tourism 
driven medical visits on our healthcare industry depends entirely on 
the type of tourists visiting and the health insurance they are covered 
by.

    Question 2. You have seen an increase in the amount of visitors 
coming to Hawaii because of the healthcare system. Have you also seen 
an increase in the number of doctors and nurses seeking to come to 
Hawaii to fill those greatly needed positions?
    Answer. Hawaii's remoteness is the factor defining both the urgency 
in having access to medical specialty resources nearby as well as the 
difficulty in attracting the number of doctors and nurses. The distance 
from Honolulu to Los Angeles (2,563 miles) is greater than Washington, 
D.C. to Los Angeles (2,297 miles). Tokyo, Japan--where a significant 
number of Hawaii tourists originate--is 3,856 miles from Honolulu. 
Knowing that Hawaii hospitals are capable of providing quality 
healthcare is reassuring to any traveler who must overcome great 
distances and part of what makes Hawaii a destination of choice. 
Distance makes it an imperative that specialty care is available on the 
island.
    However, distance is also a continuous barrier for Hawaii in 
recruiting the healthcare professionals we need. Similar to other 
remote rural areas, Hawaii is handicapped in recruitment efforts by not 
being in proximity to large pools of healthcare labor supply. As a 
result, Hawaii faces an anticipated shortage of 2,267 registered nurses 
in the next 5 years and 4,593 by 2020. Similarly, securing specialty 
physicians to practice in remote areas is also challenging. These 
shortages are already evidenced in the local residents via access to 
specialty care, particularly in our rural communities over the past few 
years. Patients suffer from delays in treatment and sometimes forego 
treatment altogether.
    As Hawaii continues to grow as a tourist destination, and more 
planned and unplanned medical visits increase, soon these shortages 
will also have an impact upon Hawaii's tourism industry. For example, 
our Burn Center at Straub Clinic & Hospital will be the first 
responders in the event of a major airline or shipping disaster as it 
is the only specialized burn center in the entire Pacific Basin. The 
extent of our ability to provide care for such a catastrophe will have 
long lasting impacts to Hawaii's perception as a safe destination for 
people to travel to.
    Hawaii desperately needs special consideration for financial 
support for recruitment and retention of qualified healthcare 
professionals so we can continue to provide quality care to both our 
local community and our domestic and international visitors.
                                 ______
                                 
        Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Robert M. Jacksta *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. The Departments of State (State) and Homeland Security 
(DHS) are devising plans to produce an alternative form of the U.S. 
passport that can be used at land-border crossings. State and the DHS 
envision the alternative passport as being a wallet-sized card that 
would cost less than a traditional passport and be easier to obtain. 
The alternative passport would only be used by U.S. citizens crossing 
the land-borders between the United States and Canada and the United 
States and Mexico.
    In addition to reduced cost and convenience, what are the strengths 
of creating an alternative passport card system to be used by U.S. 
citizens traveling between the United States and Mexico and the United 
States and Canada? Would the administrative costs associated with 
transferring over to a new form of passport outweigh the benefits to be 
realized by the card's use?

    Question 2. Many in the travel and tourism industry fear that the 
Western Hemisphere Travel Initiative (WHTI) will hinder northern border 
crossings and inhibit spontaneous and unplanned travel to the United 
States. What would you say to these concerns?

    Question 3. Have you worked with the Canadian or Mexican 
governments to help them understand and meet the requirements of the 
WHTI?

    Question 4. The Government Accountability Office (GAO) has noted 
that the deadline for implementation of the WHTI is in danger of being 
missed. How do you expect our neighbors to comply with the new border 
entry requirements if we have not fully implemented the initiative?

    Question 5. What do you perceive as being weaknesses to developing 
a substitute for the traditional passport booklet used by American 
citizens as they cross borders between the United States and its 
neighboring countries of Mexico and Canada?

    Question 6. Will creation of a new passport to be used for travel 
between the United States and its neighboring countries of Mexico and 
Canada complicate State and the DHS's ability to require that citizens 
traveling to countries noncontiguous to the United States possess a 
more traditional passport booklet?

    Question 7. Currently, the U.S. Government issues Border Crossing 
Cards (BCCs) to Mexican nationals who cross the U.S. border on a 
regular basis. Because the BCC is a B-1/B-2 visa when presented with a 
passport, the process to obtain a BCC nearly mirrors the visa issuance 
process, thus necessitating a background check and interviews. Border 
Crossing Patrol is considering whether BCCs can serve as alternatives 
to the wallet-size passport cards being proposed by Departments of 
State (State) and Homeland Security (DHS). What are some drawbacks to 
possibly permitting the Border Crossing Cards (BCCs) to substitute as 
passports for Mexican nationals crossing the Mexico-United States 
border?

    Question 8. Does Customs and Border Patrol (CBP) fear the 
circulation of a greater number of varying types of security documents, 
such as traditional passport booklets, wallet-size passport cards, and 
BCCs, will further incite production of counterfeit passports, thus 
threatening the United States' efforts to protect its borders?
                                 ______
                                 
        Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Jonathan M. Tisch *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. The Travel Business Roundtable (TBR) and the Travel 
Industry Association (TIA) support the concept of a PASScard, as 
introduced by State and DHS, as a means of having a less expensive and 
easier to obtain passport. The TBR and the TIA remain concerned that 
the Departments of State (State) and Homeland Security (DHS) have not 
yet chosen the type of technology that will be integrated into the 
PASScard. The TBR and the TIA have acknowledged the necessity of 
mounting a public education campaign regarding the PASScard once State 
and the DHS agree on the type of technology that will be integrated 
into a PASScard.
    What are the Travel Business Roundtable's (TBR) and the Travel 
Industry Association's (TIA) ideas about what technology should be 
integrated into a Pass card?

    Question 2. Do TBR and TIA have any suggestions as to how State and 
DHS can more efficiently create a PASScard, using the newest 
technology, and mount a successful public education campaign on 
PASScards?

    Question 3. Are other countries developing something similar to a 
PASScard that would satisfy the requirements of the Western Hemisphere 
Travel Initiative (WHTI)? Is the State Department working with any 
foreign governments to assist them in the development of alternative 
passports, such as e-Passports or PASScards?

    Question 4. In your opinion, what is the best way to balance the 
dual needs of national security and facilitating tourism? Should 
biometrics be a requirement for all persons entering the country? Is 
the PASScard the best available alternative to comply with the 
statutory requirements of the Intelligence Reform and Terrorism 
Prevention Act (IRTPA)?

    Question 5. As the deadline approaches for State and DHS to release 
the Notice of Proposed Rulemaking (NPRM) on the Western Hemisphere 
Travel Initiative (WHTI) for air and sea entries, the Travel Business 
Roundtable (TBR) and the Travel Industry Association (TIA) fear that 
confusion, due to a poorly implemented WHTI, will frustrate the tourism 
business. The deadline for the release of NPRM remains 7 months away. 
In the Immigration Reform bill recently considered in the Senate, 
Senators Stevens and Leahy sponsored an amendment to extend the 
statutory deadline for 1 year. From an industry perspective, what do 
you believe is the best way to proceed with the development of the 
WHTI?

    Question 6. What are some of the difficulties in implementation of 
WHTI that can be addressed between now and the statutory deadline for 
implementation?

    Question 7. Do you believe that a properly implemented WHTI will 
have a positive or negative impact on tourism? National security?

    Question 8. How much revenue do TBR and TIA estimate the travel and 
tourism industry will lose it the NPRM and PASScards are not 
implemented more expeditiously?

    Question 9. Pre-Hurricane Katrina Louisiana, Mississippi, and 
Alabama prospered from a tourism industry which accounted for 260,000 
jobs and a payroll income of $3.7 billion. In 2004, the tourism 
industry generated $18.3 billion in travel-related sales for the Gulf 
Coast region. Following Hurricane Katrina, many Americans and 
international travelers still perceive the devastation accompanying 
Hurricane Katrina as the current norm.
    On behalf of the travel industry, the Travel Business Roundtable 
(TBR) and the Travel Industry Association (TIA) have offered policy 
recommendations to Congress following Hurricane Katrina. TBR and TIA 
recommend that there be tax incentives for conventions and visitors 
traveling to the Gulf Coast region and a promotion campaign to inform 
the world that the Gulf Coast region has revitalized its charm and 
appeal to travelers. How have the TBR and the TIA tried to improve 
possible travelers' perceptions of the Gulf Coast region?

    Question 10. Has Congress been successful in furthering some of the 
TBR and the TIA's suggestions for revitalizing the Gulf Coast region's 
appeal to American and international travelers?

    Question 11. The Travel Business Roundtable (TBR) and the Travel 
Industry Association (TIA) have found that while newly created Visa 
Business Centers have alleviated some hassles inherent to international 
travel, international travelers still encounter long visa interview 
wait times and lengthy trips to available visa interview destinations. 
The TBR and the TIA report the average visa interview wait time in 
Brazil to be 70 days and 132 days in India. TBR and TIA admit that visa 
interview wait times have been reduced in countries like China and 
South Korea due to additional staffing and more interview hours.
    Where have you seen the shortest visa interview wait times? Is 
there a strong correlation between short visa interview wait time in a 
particular country and the number of travelers within that country who 
choose to travel internationally?

    Question 12. How do you suggest the State Department improve visa 
interview wait times?

    Question 13. What suggestions do you have for the new Model Airport 
program? Do you think this can be a successful program to extend 
``America's welcome'' to international travelers?

                                  <all>

</pre></body></html>
